<html>
<title> - WMD DEVELOPMENTS ON THE KOREAN PENINSULA</title>
<body><pre>[Senate Hearing 108-13]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-13

                WMD DEVELOPMENTS ON THE KOREAN PENINSULA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



85-795              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Armitage, Hon. Richard L., Deputy Secretary of State; accompanied 
  by Hon. James A. Kelly, Assistant Secretary of State for East 
  Asian and Pacific Affairs, Department of State, Washington, DC.     4
    Prepared statement...........................................     6
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    21
Bosworth, Hon. Stephen W., dean of the Fletcher School of Law and 
  Diplomacy, Tufts University, former U.S. Ambassador to the 
  Republic of Korea, executive director of the Korean Peninsula 
  Energy Development Organization, Medford, MA...................    53
Carter, Hon. Ashton B., former Assistant Secretary of Defense, 
  co-director, Preventive Defense Project, John F. Kennedy School 
  of Government, professor of Science and International Affairs, 
  Harvard University, Cambridge, MA..............................    39
    Prepared statement...........................................    44
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    12
Gregg, Hon. Donald P., president and chairman of the Korea 
  Society, former U.S. Ambassador to the Republic of Korea, 
  former Security Advisor to Vice President George Bush, New 
  York, NY.......................................................    48
    Prepared statement...........................................    51
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  

 
                WMD DEVELOPMENTS ON THE KOREAN PENINSULA

                              ----------                              


                       TUESDAY, FEBRUARY 4, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Alexander, 
Sununu, Biden, Sarbanes, Dodd, Feingold, Boxer, Rockefeller, 
and Corzine.
    The Chairman. This meeting of the Senate Foreign Relations 
Committee is called to order. We are privileged to have today 
two distinguished panels, and we will ask that the members 
respect the fact that Secretary Armitage must leave by 11:15. 
So at the conclusion of his statement, we will gauge the number 
of members who have appeared and try to make a calculation, in 
terms of questioning time, so that each member will have an 
opportunity and, at the same time, the Secretary can meet his 
important commitments. Likewise, it is important that we 
proceed in a way in which we have ample time for our 
distinguished second panel, because members will want to 
question them.
    Senator Biden is detained for the moment. And when he 
arrives, the Chair will recognize him for his opening 
statement. I will make an opening statement at this point and 
then recognize Secretary Armitage.
    This is the first of a number of hearings pertaining to the 
Korean Peninsula. In future hearings, we will review food 
assistance, human rights concerns, economic reforms, peninsula 
reunification, and other pertinent issues. Today's hearing will 
review weapons of mass destruction [WMD] on the Korean 
Peninsula.
    In recent weeks, following admissions of North Korean 
officials of their uranium-enrichment program, in violation of 
the Agreed Framework of 1994 and the Nuclear Nonproliferation 
Treaty, the level of public exchange between North Korea and 
the United States has reached a new intensity.
    Unfortunately, we have been at this juncture before. And in 
1994, North Korea was removing spent fuel, which could be 
reprocessed for use in nuclear weapons. Negotiation of the 
Agreed Framework brought a halt to immediate prospects for war.
    In 1998, North Korea launched a ballistic missile over 
Japan. And while the United States had become distracted by 
other international issues, North Korea remained focused on its 
nuclear program. It appears that maintenance of the Agreed 
Framework became policy in itself, its fragility demonstrated 
by the 1998 missile launch by North Korea.
    Last year, I outlined some of my thoughts regarding the 
vulnerability of the United States to the use of weapons of 
mass destruction, whether from terrorist organizations or from 
rogue nations. I stand by my premise that every nation--every 
nation--which has weapons and materials of mass destruction, 
must account for what it has, spend its own money or obtain 
international technical and financial resources to safely 
secure what it has, and pledge that no other nation, cell or 
cause will be allowed access or use. A satisfactory level of 
accountability, transparency, and safety must be established in 
every nation with a weapon of mass destruction program. When 
nations resist accountability, or when they make their 
territory available to terrorists who are seeking weapons of 
mass destruction, our nation must be prepared to use force as 
well as all diplomatic and economic tools at our disposal.
    This doctrine, which I espouse, also applies to North 
Korea. While the United States is and should be prepared to use 
force related to North Korea's weapons of mass destruction, we 
must guarantee to the American public and to Americans serving 
in Korea, that all diplomatic options are being pursued. The 
stakes are high. We must not discount the horrific consequences 
to American, Korean, and perhaps Japanese lives resulting from 
a misunderstanding or a miscalculation on the part of either 
side.
    I would like to recall a partial text of a joint statement 
that Senator Sam Nunn of Georgia, and I issued in 1994 as part 
of a Summary of Findings and Recommendations regarding the 
crisis at that time. And our quote, ``Our policymaking and 
coordination with our allies, the timing of our statements and 
our actions, our responses to developments on the Korean 
Peninsula, and our communication with our diplomatic and 
military leaders in the field must all be sharpened and 
strengthened in the days and weeks ahead. Korean developments 
must be the subject of clear, frequent focus by top Clinton 
Administration officials, including the President. The United 
States should designate a single senior official with access to 
the President, the Secretary of State, and the Secretary of 
Defense to help develop and coordinate United States policy and 
action on Korea. We must speak with one voice on this sensitive 
matter,'' end of quote.
    This recommendation, in my judgment, still applies today. 
While Americans have been deeply concerned about the war with--
potential war with Iraq, many have also considered the Korean 
crisis a more serious situation. In fact, both are very 
serious, both are very dangerous, and both need our full 
attention.
    It is apparent that North Korea has taken several 
provocative actions recently, including steps which could lead 
to production of nuclear weapons in the next few months. I 
believe that United States officials should talk to North 
Korean officials about ending North Korean nuclear weapons 
programs with provisions of comprehensive international 
inspections to ensure a successful clean-up procedure.
    North Korea may mention in these talks its desire for 
nonaggression guarantees, potential commercial relations with 
other countries, and urgent humanitarian food and fuel 
contributions through international agencies to assist the 
North Korean people. We should be prepared to talk to North 
Korea about all of this.
    I ask the administration to address promptly not only the 
importance of international multiparty diplomacy with North 
Korea, but the importance of immediate United States 
leadership, including direct talks between the United States 
and North Korea.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    This is the first of a number of hearings pertaining to the Korean 
Peninsula. In future hearings we will review food assistance, human 
rights concerns, economic reforms, peninsula reunification and other 
pertinent issues.
    Today's hearing will review weapons of mass destruction on the 
Korean Peninsula.
    In recent weeks, following admission by North Korean officials of 
their uranium enrichment program, in violation of the Agreed Framework 
of 1994 and the Nuclear Non-Proliferation Treaty, the level of public 
exchange between North Korea and the United States has reached a new 
intensity.
    Unfortunately, we have been at this juncture before. In 1994 North 
Korea was removing spent fuel which could be reprocessed for use in 
nuclear weapons. Negotiation of the Agreed Framework brought a halt to 
immediate prospects for war. In 1998, North Korea launched a ballistic 
missile over Japan. While the United States had become distracted by 
other intemational issues North Korea remained focused on its nuclear 
program. It appears that maintenance of the Agreed Framework became 
policy in itself its fragility demonstrated by the 1998 missile launch 
by North Korea.
    Last year I outlined my thoughts regarding the vulnerability of the 
United States to the use of weapons of mass destruction, whether from 
terrorist organizations or rogue nations. I stand by my premise that 
every nation which has weapons and materials of mass destruction, must 
account for what it has, spend its own money or obtain international 
technical and financial resources to safely secure what it has, and 
pledge that no other nation, cell or cause will be allowed access or 
use. A satisfactory level of accountability, transparency and safety 
must be established in every nation with a weapons of mass destruction 
program. When nations resist accountability, or when they make their 
territory available to terrorists who are seeking weapons of mass 
destruction, our nation must be prepared to use force as well as all 
diplomatic and economic tools at our disposal.
    This doctrine which I espouse also applies to North Korea. While 
the United States is and should be prepared to use force related to 
North Korea's weapons of mass destruction, we must guarantee to the 
American public and to Americans serving in Korea that all diplomatic 
options are being pursued.
    The stakes are high. We must not discount the horrific consequences 
to American, Korean, and perhaps Japanese lives resulting from a 
misunderstanding or miscalculation on the part of either side.
    I would like to recall partial text of a joint statement issued by 
Senator Sam Nunn and me in 1994 as part of a ``Summary of Findings and 
Recommendations'' regarding the crisis at that time.

          Our policymaking and coordination with our allies, the timing 
        of our statements and actions, our responses to developments on 
        the Korean Peninsula and our communications with our diplomatic 
        and military leaders in the field must all be sharpened and 
        strengthened in the days and weeks ahead. Korean developments 
        must be the subject of clear, frequent focus by top Clinton 
        Administration officials, including the President. The United 
        States should designate a single senior official with access to 
        the President, the Secretary of State and the Secretary of 
        Defense to help develop and coordinate U.S. policy and action 
        on Korea. We must speak with one voice on this sensitive 
        matter.

    This recommendation still applies today. While Americans have been 
deeply concerned about war with Iraq many have also considered the 
Korean crisis a more serious situation. In fact, both are very serious. 
Both are dangerous. Both need our full attention.
    It is apparent that North Korea has taken several provocative 
actions recently including steps which could lead to production of 
nuclear weapons in the next few months. I believe that United States 
officials should talk to North Korean officials about ending North 
Korean nuclear weapons programs with provisions of comprehensive 
international inspection to insure a successful cleanup procedure. 
North Korea may mention in these talks its desire for non-aggression 
guarantees, potential commercial relations with other countries, and 
urgent humanitarian food and fuel contributions through international 
agencies to assist the North Korean people. We should be prepared to 
talk to North Korea about all of this.
    I ask the administration to address, promptly, not only the 
importance of international, multi-party diplomacy with North Korea, 
but the importance of immediate United States leadership including 
direct talks between the United States and North Korea.

    The Chairman. It is a pleasure, as always, to have you 
before the committee, Secretary Armitage, and will you please 
proceed with your testimony.

  STATEMENT OF HON. RICHARD L. ARMITAGE, DEPUTY SECRETARY OF 
STATE; ACCOMPANIED BY HON. JAMES A. KELLY, ASSISTANT SECRETARY 
  OF STATE FOR EAST ASIAN AND PACIFIC AFFAIRS, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Armitage. Thank you, Mr. Chairman. With your 
permission, I will submit my prepared testimony for the record 
and just make a few opening remarks.
    Mr. Chairman, I had the opportunity, following the 
invitation of Senator Frist, to brief all Senators in S-407 on 
16 January. I believe there were 53 or so Members there. But 
for those who were not able to attend, let me briefly, in an 
unclassified way, lay out how we got here and what we have done 
since I met with you on the 16th of January, and then I will 
stop and try to answer any questions.
    The DPRK, North Korea, has desired for decades to have a 
nuclear capability. And in the mid-1980s, following up on a 
Russian technical design, they actually built one themselves, a 
five-megawatt graphite moderated reactor. Also, in 1985, the 
North Koreans decided to join the Non-Proliferation Treaty 
[NPT]. But it took from 1985 to 1992 to complete the 
negotiations with the International Atomic Energy Agency [IAEA] 
surrounding the safeguard process and procedures in North 
Korea.
    The IAEA, after getting safeguard processes negotiated 
successfully, started their look and their investigations into 
Yongbyon and noticed, rather rapidly, an anomaly. That is, 
there appeared to be more reprocessed fuel than the North 
Koreans had noted in their report to the IAEA. The IAEA then 
asked for the ability to have further investigations, which 
drove, apparently, the North Korean Government into a paroxysm 
of rage. As a result, they invited the IAEA inspectors to 
leave, announced a withdrawal from the NPT, started a 90-day 
clock, which is required in the NPT to remove oneself from the 
Non-Proliferation Treaty, halted that clock with one day 
remaining, began a series of intense--in fact, 16-month--
negotiations, intense negotiations, with the United States, 
which culminated in the Agreed Framework of 1994.
    During the time 1994 until the present administration, the 
previous administration had further noticed some anomalies in 
procurement patterns in North Korea, so much so that in 1999 
our concerns were raised with the Nuclear Suppliers Group in 
Vienna. This administration, in June 2002, had a National 
Intelligence Estimate [NIE], which had, as its primary focus, 
to make an assessment how many weapons North Korea could 
possibly possess, and they came out with an estimate of one to 
two weapons, possibly, based on the amount, as they understood 
it, of unaccounted for fuel in 1992 which the IAEA had 
identified. In a very small portion of that NIE in June 2002, 
there was a few comments about a growing belief that North 
Korea had engaged in at least an R&D project for highly 
enriched uranium.
    In July 2002, the administration received very good 
intelligence which made us dramatically change our assessment 
from the DPRK being involved in just an R&D program. And we 
found, for instance, an order of magnitude difference in the 
estimate that we had received of how many centrifuges they 
might be obtaining, vice what we received in new intelligence, 
which showed that they were receiving and acquiring many, many 
more than was originally thought. And it led us to a rather 
intensive study, which resulted, in September 2002, in a memo 
to consumers from the intelligence community, which said that 
in our view, the North Koreans had embarked on a production 
program, no longer an R&D program.
    This rather dramatically changed the presentation that my 
colleague, Assistant Secretary James Kelly, was going to make 
in Pyongyang from a rather bold approach that tried to address 
all the security concerns on the Korean Peninsula in exchange 
for a rather robust new relationship with North Korea, to an 
absolutely necessity for us to confront the North Koreans with 
this information that we had about their program for highly 
enriched uranium, which, of course, Jim Kelly did. And, much to 
our surprise, on the second day of his talks, the first Vice-
Foreign Minister came back and not only acknowledged that there 
was this program, but he said that ``we have even more 
developed weapons,'' which threw us into a bit of a tizzy. We 
did not understand what those weapons might be.
    We have subsequently learned, from foreign envoys who have 
gone to Pyongyang and talked to the North Koreans about that, 
that what they are referring to is the soul and the special 
affection of the Korean people for the army-first policy, 
united behind the direction of Kim Jong Il. So it just means 
the will of the people is united to reject any sort of 
aggression. That is how we got here.
    Now, what have we done since January 16? As we continue to 
say, and the President continues to say, that we believe there 
is a way to solve this diplomatically. Well, the Australians, 
the Russians, and the Republic of Korea have all sent various 
envoys to Pyongyang and have engaged in different discussions. 
A twice-rescheduled IAEA board of Governors is now scheduled 
for 12 February. And Dr. ElBaradei, who is otherwise involved 
for these few days, will be participating in that Board of 
Governors meeting.
    Under Secretary John Bolton and Assistant Secretary James 
Kelly have gone to Seoul to make sure we shored up that 
relationship. It is not a secret that we were experiencing a 
rise, a spike, in anti-Americanism.
    Additionally, the new government is in the process of 
forming. One of the reasons we have been, in some minds, a 
little slow to move off the mark is because, in fact, we do not 
have a new government. President Roh in Seoul, he is busy 
formulating it right now.
    I went to Moscow to meet with the Deputy Foreign Minister 
Losikov, who went to Pyongyang and spent 6 hours in talks with 
Kim Jong Il. The DPRK condemned our President's State of the 
Union Message. The North/South talks began and were completed. 
President-elect Roh has sent an envoy yesterday and today to 
meet with the Vice President, Secretary of Defense, and, this 
morning, right now, with the Secretary of State. And, finally, 
this afternoon, the Secretary is going to meet with Foreign 
Minister Tang of China. And this evening, early evening, he is 
scheduled to meet with Foreign Minister Ivanov to discuss both 
his presentation tomorrow and the question of the North Korean 
situation and the Korean Peninsula. And, finally, on Monday, I 
am meeting in a trilateral meeting with Japanese and 
Australians in a strategic meeting to try to figure out how we 
should move ahead.
    So that is kind of a precise of where we are, and I will 
stop and try to answer your questions, Mr. Chairman, 
colleagues.
    [The prepared statement of Mr. Armitage follows:]

  Prepared Statement of Hon. Richard L. Armitage, Deputy Secretary of 
                                 State

    Mr. Chairman, Members of the Committee.
    Thank you for inviting me to discuss recent developments on the 
Korean Peninsula. Much has happened, even in the short space of weeks 
since the Under Secretary of State for Political Affairs, Marc 
Grossman, briefed your colleagues in the House, and since I briefed 
many of you and your fellow Senators on the 16th of January. I welcome 
this opportunity to complement those closed sessions and to update you, 
as well. We value, as always, your good counsel and will continue our 
close consultation.
    Mr. Chairman, in just a few months, we will mark the 50th 
anniversary of the Armistice that effectively ended the Korean War, 
which had by then claimed some 4 million Korean lives--and the lives of 
more than 34,000 Americans. In the years since, the combined efforts of 
the United States and the Republic of Korea (ROK or South Korea) have 
deterred further conflict and preserved the security of the South 
Korean people.
    The Republic of Korea has without question prospered in this time. 
Indeed, today, we look to South Korea as a key partner in the region--
strategically, but also as a flourishing democracy and a free people.
    Mr. Chairman, I have tremendous faith in the ineluctable force of 
democracy and a liberal economy. I have faith in the basic human 
longing to live free. I have no doubt that if we, working with the 
international community, handle the current situation correctly, that 
the people of Korea will prevail.
    North Korea's (Democratic Peoples' Republic of Korea, or DPRK) 
programs to develop weapons of mass destruction and their means of 
delivery are a fundamental obstacle to that appealing vision for the 
future. They are also a threat to the international community, regional 
security, U.S. interests, and U.S. forces, which remain an integral 
part of stability in the region.
    It is time for North Korea to turn away from this self-destructive 
course. They have nothing to gain from acquiring nuclear weapons--and 
much to lose. Indeed, every day, the people of that country are paying 
a terrible price for these programs in international isolation and 
misspent national resources.
    Mr. Chairman, I know that your constituents and the constituents of 
every Member of this Committee are deeply concerned about this 
situation, particularly when juxtaposed with events in the Middle East. 
So, I want to be clear today on how the President sees the situation 
and the course he believes is correct for the United States.
    President Bush and Secretary Powell have said repeatedly that when 
it comes to defending our nation, all options must remain on the table. 
Both have said that in this case, at this time, we believe that 
diplomacy is our best option. We intend to resolve the threats posed by 
North Korea's programs by working with the international community to 
find a peaceful, diplomatic solution.
    As President Bush said in his visit to South Korea last year, the 
United States has no intention of invading North Korea. Secretary 
Powell reiterated this point most recently in Davos, Switzerland, where 
he also stated that we are prepared to communicate this position to the 
North Koreans in a way that is unmistakable.
    Indeed, we are prepared to build a different kind of relationship 
with North Korea. Last summer, in consultation with South Korea and 
Japan, the United States was ready to pursue a bold new approach with 
Pyongyang. That approach entailed a number of steps toward normalcy in 
our relationship, including political and economic measures to help 
improve the lives of the North Korean people.
    This bold approach was derailed, however, by our discovery of a 
covert uranium enrichment program for nuclear weapons, which North 
Korea had been pursuing for years in egregious violation of its 
international obligations.
    We cannot change our relationship with the DPRK until the DPRK 
changes its behavior. North Korea must abandon its nuclear weapons 
programs in a verifiable and irreversible manner. Specifically, North 
Korea must return immediately to the freeze on activities at the 
Yongbyon complex and dismantle the plutonium program there. Second, 
North Korea must dismantle its program to develop nuclear weapons 
through highly enriched uranium--and must allow international 
verification that it has done so. Third, North Korea must cooperate 
fully with the International Atomic Energy Agency (IAEA). Finally, 
North Korea must comply with the Nuclear Nonproliferation Treaty (NPT) 
and adhere to the safeguards agreement that is part of that treaty.
    The United States will not dole out any ``rewards'' to convince 
North Korea to live up to its existing obligations. But we do remain 
prepared to transform our relations with that country, once it complies 
with its international obligations and commitments. Channels of 
communication between our countries remain open, but ultimately, it is 
the actions of North Korea that matter.
    And North Korea needs to act soon, for the sake of its people. 
Today, conditions in that country are appalling, and millions of North 
Koreans are at immediate risk of starvation. The United States sees 
this as a critical international humanitarian issue, and we are, in 
fact, the most generous donor in the world of food assistance to the 
DPRK. Since 1995, we have provided 1.9 million metric tons of food, 
valued at $620 million. For the 2002 World Food Program (WFP) operation 
in North Korea, the United States contributed 155,000 metric tons of 
food commodities, valued at $63 million, over half of what the WFP 
actually received last year.
    President Bush has stressed that we will continue to provide this 
emergency assistance to the people of North Korea--we will not use food 
aid as a weapon. But we do have concerns and we do face challenges with 
this assistance.
    Specifically, the DPRK places onerous restrictions on the 
distribution of food. The DPRK requires that the WFP provide six-day's 
advance notice of visits to food distribution sites and does not allow 
the WFP to employ Korean-speaking staff. The DPRK also denies access to 
the WFP to about 20 percent of North Korean counties.
    These restrictions prevent us from being certain that the food we 
donate to North Korea is going to the people who actually need it. No 
other nation in the world places such excessive restrictions on food 
aid.
    Mr. Chairman, the United Nations Food and Agriculture Organization 
estimates that as we sit here today, 800 million people around the 
world are going hungry. 38 million people in Africa are facing a hunger 
crisis. There are people here in our own nation who do not have enough 
to eat.
    In addition to meeting the needs of our own people, the United 
States provides food aid to over 80 other countries. We will again 
provide our share of food aid to the North Korean people, but these 
competing demands naturally will have to factor into our decision about 
exactly how much aid to give North Korea. We look forward to close 
consultation with the Committee on this issue.
    We will also keep in close contact with you on the issue of our 
involvement with KEDO.
    We are consulting with our KEDO partners--South Korea, Japan, and 
the EU--about KEDO's future, including the fate of the light water 
reactor project. In the meantime, the Administration has asked Congress 
to appropriate $3.5 million in FY03 to fund the U.S. contribution to 
KEDO's administrative account, should we decide it is in our national 
interest to do so. I want to stress that no part of that funding would 
go to heavy fuel oil shipments, which the KEDO Executive Board 
suspended in October, or to light water reactor construction. But the 
ability to make a contribution to the administrative account will give 
us flexibility in working with our KEDO allies to achieve our shared 
nonproliferation goals. Given the fluidity and dangers of the current 
situation, flexibility is going to continue to be crucial.
    Positive relations with our partners and allies in the region and 
beyond will also continue to be crucial, because the bottom line is 
that this is not a bilateral issue. While the United States is willing 
to talk to North Korea about how to dismantle its nuclear weapons 
program, this is not just a problem between our two nations.
    The threat posed by North Korea's nuclear programs sends ripples of 
instability across the region--and around the globe. The Republic of 
Korea and Japan, but also China, Russia, Australia and the other 
nations of this neighborhood have a direct and pressing interest in 
this matter. We share a concern with all of these nations about North 
Korea's programs and we share a commitment that the Korean Peninsula 
remain free of nuclear weapons.
    While the nations in the neighborhood must play a starring role in 
resolving this problem, this is also an issue of international and 
multilateral interest.
    For example, the Nuclear Nonproliferation Treaty (NPT) requires 
that states and organizations upholding it, notably the International 
Atomic Energy Agency (IAEA), must be involved in this issue. We are 
pleased that the IAEA and its Director, Dr. ElBaradei, continue to 
stress this point.
    Last month, the 35 member nations of the Board of Governors of the 
International Atomic Energy Agency (IAEA) unanimously condemned DPRK 
actions. Specifically, the Board issued a statement ``deploring'' North 
Korea's suggestion that it will resume nuclear activities at the 
Yongbyon complex, its disabling of the monitoring equipment installed 
there, and its expulsion of IAEA inspectors.
    The IAEA also announced that it is no longer able to ``exercise its 
responsibilities under the safeguards agreement, namely, to verify that 
the DPRK is not diverting nuclear material to nuclear weapons or other 
nuclear explosive devices . . .'' The IAEA called on the DPRK to act 
urgently to restore international confidence by complying with 
safeguards and resuming surveillance at Yongbyon.
    Unfortunately, North Korea rejected the IAEA resolution, announcing 
its withdrawal from the Nuclear Nonproliferation Treaty and suggesting 
that the nation may resume flight testing of long-range missiles.
    Unless North Korea takes some immediate action to reverse course, 
the IAEA Board of Directors is likely to find at its next meeting that 
the DPRK is in further noncompliance and report this to the UN Security 
Council.
    We are working with our international partners and allies to make 
North Korea understand the potential consequences of these dangerous 
and provocative actions. Secretary Powell speaks regularly to his 
counterparts in the region, but also in the EU and the P-5, as well to 
his counterparts in other governments. Without exception, they share 
our concerns and our commitment for a nuclear weapons-free Korean 
Peninsula.
    Japan, in particular, has major interests at stake, and we 
coordinate very closely on a bilateral basis, as well as trilaterally 
with South Korea. Japan has stated that it will not complete 
normalization with North Korea without an end to the nuclear weapons 
program.
    Of course, our consultation with South Korea is especially close.
    We will continue to deepen and strengthen our alliance with the 
Republic of Korea. We look forward to having a very close and effective 
working relationship with the new South Korean administration of Roh 
Moo-hyun, as we have had with President Kim Daejung. Indeed, today, 
President-Elect Roh's special envoy, Mr. Chyung Dae Chul, is meeting 
with senior Administration officials to discuss how we can best work 
together to promote our share nonproliferation goals on the Korean 
Peninsula.
    Last month, Under Secretary of State for Arms Control and 
International Security John Bolton and Assistant Secretary of State for 
East Asia and Pacific Affairs James Kelly both had extremely useful 
meetings in South Korea--and in other nations in the region.
    We have communicated consistently our support for dialogue between 
South and North Korea as part of the international community's effort 
to find a diplomatic solution. Most recently, we strongly supported the 
visit to the DPRK by President Kim's Special Envoy, Lim Dong-won. 
During his meetings with North Korean officials last week, Special 
Envoy Lim emphasized the international community's grave concerns about 
the North's nuclear weapons program, and he urged the North to respond 
to those concerns.
    We remain well aware that for South Korea, this is more than a 
matter of contiguity, this is a matter of consanguinity. These two 
nations share a border and blood ties, and we understand that South 
Korea has much to lose from continued DPRK intransigence and 
hostility--and much to gain if the North turns away from its present 
course. We will continue to work closely and consult constantly with 
our partners in the ROK, as well as Japan and our other friends and 
allies in the region, who are most directly affected by North Korean 
decisions and actions.
    We will also continue to work closely with the Members of this 
Committee as we seek a diplomatic solution to this situation. Our 
interests as a country on a matter of such seriousness are best served 
by a concerted U.S. policy, and we are committed to our ongoing 
consultation with Congress.

    The Chairman. Well, thank you very much.
    For the moment we will have a first round with 5 minutes 
and ask the timekeeper to start on my time at this moment, and 
we will go back and forth on both sides of the aisle.
    Secretary Armitage, the description you have made of our 
diplomacy is not only accurate, but it shows its vigor. And my 
quarrel would not be with any of the steps that you have taken. 
It just appears, as I had indicated in my opening statement, 
that other nations are prepared to be helpful, some more so, 
apparently, than others, and we would like to have an 
international solution and a group around the table because of 
the proximity of the neighbors, the danger to them, or the 
potential good that might come from better relations.
    There is a need for direct talks between the United States 
and North Korea. And at least I believe that we ought to 
discuss with the North Koreans the issues that, unfortunately, 
did not get discussed with Secretary Kelly's mission, which 
they might have discussed. It was fully appropriate they be 
apprised of our knowledge that they had a program going. 
Perhaps we should have not been surprised, but we were. But, in 
any event, not much else occurred during that meeting. I would 
hope it might be resumed, and the reason being that it appears 
that, otherwise, while we are very much engaged in diplomacy in 
the Iraq situation and elsewhere around the world with the war 
on terror, North Korea may simply be on hold--at least that is 
an impression that many Senators have, a hope that somehow 
nothing precipitous occurs. But the North Koreans understand 
that, apparently, and, therefore, announce actions 
periodically, and we are left, it seems to me, in a more 
difficult situation without an appreciable change on the part 
of the Chinese or the Russians.
    Perhaps, as you talk to the emissary today from the new 
President, there may be plans of activity there that are 
suggested, and we certainly welcome that emissary's coming to 
the United States.
    Let me just, without pursuing that, ask one more question, 
and that is, What is the value of encouraging other nations to 
receive North Korean refugees? Specifically, there are a great 
number of people in anguish in North Korea. They take desperate 
measures to leave that country. It is apparent that the Chinese 
are taking equally vigorous measures to keep them in.
    It has been apparent for a long time that South Korean 
friends have said to us, ``Hang on. If, in fact, all of the 
North Koreans who want to unite with us come to South Korea 
now, it will be very upsetting to our economy, to our politics. 
We want North Korea reformed inside of North Korea without too 
many others with us, despite our kinship with North Korean 
brothers.''
    It is not clear that the United States has been 
particularly eager to see North Korean refugees here, or made 
provision for that. But my question today, without being 
hopelessly provocative, is, why not? Why do we not recognize--
and the parallels are not precise or the same--that much 
happened in Europe when people began to come out of East 
Germany to West Germany or out of Hungary, out of Poland, out 
of behind the Iron Curtain. This was a major factor in the 
change of life and the change of negotiations and politics. It 
recognized freedom and the fact that people who are suffering 
deserve a chance to live.
    So I would just respectfully ask, even as you are 
considering the tough question of direct talks, which is a 
difficult one, to be thinking about how we encourage countries, 
including our own, to think about receiving North Koreans who 
may come out seeking freedom. I think that might change the 
equation and the conversations.
    Mr. Armitage. Thank you, sir.
    First of all, of course we are going to have to have direct 
talks with the North Koreans. There is no question about it. 
Before we do that, we want to make sure, as I tried to indicate 
on the 16th of January, that we have, one, a strong 
international platform from which to have these talks, and, 
two, we do not want this to become simply a problem between the 
United States and the DPRK.
    As you suggest, Mr. Chairman, there are regional good 
friends of ours, allies of ours, plus two major powers, who are 
intimately involved in this, and we want to make sure this 
thing does not rub off entirely on us to come up with a 
solution. We are part of it, and we are going to have to speak 
to the North Koreans, and we shall, at a point in time when it 
is considered efficacious to move forward.
    In the closed briefing we had on the 16th, sir, Senator 
Brownback made some very heartwarming and, I think, heartfelt 
remarks about refugees in North Korea. And, further, there was 
a rather riveting presentation on 60 Minutes on Sunday evening. 
And, again, Senator Brownback was there.
    Based on our discussions on the 16th, in room 407, I went 
back to the State Department, and we have begun, with our 
International Organizations Bureau, Population, Refugees and 
Migration Bureau and East Asia Pacific Bureau, to work together 
on how we can better manage refugee flows and handle them.
    There are hundreds, who, I am told, have been resettled 
this year in South Korea. We are working hard to--where we know 
about it and find out about it--to stop the Chinese from 
sending back people to God knows what in North Korea.
    But you and I and some others here have been involved in 
other refugee flows, not just Eastern European--in Vietnam, 
where I have sponsored more than 40 of these folks. 
Unfortunately, I was not able to sponsor more, because some 
died on the way out. And we have to be careful what we start. 
And we have got to make sure we are in a situation where we can 
follow through correctly if we encourage greater refugee flows. 
It is not something, I think, to be done just on a whim. And I 
am not suggesting at all you are. But that is the downside that 
worries me and that we have to figure out how to handle.
    The Chairman. I thank you for that response.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing at this important time. And I thank, Secretary 
Armitage, again, for all his cooperation with the committee.
    I would like to follow on the chairman's comments. Some 
statements from some in the administration suggest that the 
United States is resigned to the reality of a nuclear-armed, 
nuclear-weapons-producing North Korea. Given North Korea's 
history of proliferation, I find this posture unacceptable, and 
can you assure me that this is not the case?
    Mr. Armitage. I can so assure you.
    Senator Feingold. Now, when some in the Muslim world 
suggest----
    Mr. Armitage. Excuse me.
    Senator Feingold. Yes, please.
    Mr. Armitage. You will find, I think, that those who make 
this comment are always unnamed. Maybe I am wrong. Maybe there 
is someone out there who is uninformed, but they are generally 
unnamed. And I can so assure you.
    Senator Feingold. Very good.
    When some in the Muslim world suggest that America appears 
to have a higher level of tolerance for North Korean WMD 
development than for Iraqi development, and then further 
suggest that this evidence of hostility toward Islam, how are 
we responding to this? And is this something we are hearing in 
our posts in the Muslim world?
    Mr. Armitage. I have not been informed that we are hearing 
that analogy in the Muslim world, but I know what you are 
talking about. Our view, which some question, is that we have 
given over 12 years of time to try to resolve the situation 
with Iraq, and we have been after finding out about the North 
Koreans cheating on their 1994 agreement. We have only had a 
few months of diplomacy, Senator.
    Senator Feingold. So you have not heard anything from 
Muslim or Arab countries that this is somehow a double 
standard?
    Mr. Armitage. I do not recall, personally. I will not say 
that it has not come in, but I have not been, you know, hit up. 
And I meet with our visitors from the Arab worlds, and I do not 
recall seeing a cable on that. I do recall seeing a certain 
editorial opinion here, more broadly, in the United States 
about that, sir.
    Senator Feingold. Well, I would appreciate any followup 
from the Department on this point. I think, obviously, how we 
are coming off in the Arab and Muslim world is a terribly 
important thing and, as it relates to North Korea, is something 
I am interested in following.
    Mr. Armitage. Yes, sir.
    [A classified response was subsequently received.]
    Senator Feingold. Would you compare for me North Korea's 
history of proliferation with that of Iraq? Which country has a 
more worrisome record of proliferation?
    Mr. Armitage. I think, in strict terms of proliferation, I 
would say North Korea, as I think I indicated to you in our 
briefing last week. It has been, to my knowledge, limited 
entirely to the missile proliferation, and they have 
proliferated to Yemen, to Pakistan, to Iran, Egypt, and other 
places, and we have been very vigorous in trying to stop that 
where we can find it, and we have had some real success in 
Egypt.
    In terms of chemical weapons [CW] and biological weapons 
[BW] proliferation, we do believe that the North Koreans have a 
program, but we have not seen them proliferate that. There are 
technology suspicions that they have proliferated technology 
about nuclear weapons. We have no knowledge and no information 
about fissile material.
    On the question of Saddam Hussein, we know where he was in 
1993. If he had not been interrupted by the gulf war, I think 
most feel that he would have had a weapon by 1993 or so, a 
nuclear weapon. His BW and CW affection will be well documented 
tomorrow, I believe, by Secretary Powell and I do not want to 
overstate it, for the obvious reasons--some intersections with 
various and sundry terrorist groups. And that is our real fear 
with Iraq. I might add, plus the fact that he's used them. He 
has invaded two of his neighbors in the last decade-and-a-half. 
But--so he has had quite an active life.
    Senator Feingold. Is it fair to say that, in terms of the 
discussions we have had about Iraq, that proliferation of these 
weapons is not, in particular, the leading modus operandi of 
that regime? Perhaps the development, the threats, but I would 
argue that we have not heard a lot about this as being a normal 
modus operandi of Baghdad.
    Mr. Armitage. No, you have heard from us, sir, I think, 
that we believe he wants these weapons to dominate, to 
intimidate, and to attack.
    Senator Feingold. In your assessment, how badly damaged is 
the U.S./South Korean relationship at this point? Is it 
reparable?
    Mr. Armitage. Yes, it is. It is clearly reparable. And both 
the outgoing President, Kim Dae-Jung, and the incoming 
President have taken great pains--as well as recent editorial 
opinion--have taken great pains to note the closeness of our 
relationship over the years.
    I acknowledge that there was anti-Americanism, and it is 
understandable. And you know the reasons probably better than 
I. Generational change is part of it. But I think there is one 
more subtle one, and I--we are trying to get a handle on it, 
and it is this: South Korea is a country that has the tenth 
largest economy in the world. They successfully have had the 
Olympic Games. They successfully had the World Cup last year. 
And they are tired of the big boys playing basketball over 
their heads, whether it is China or Russia or the United 
States. So I believe we have a lot of work to do in adjusting 
our own, sort of, presentations and work with the Republic of 
Korea, and I think we are getting it done.
    Senator Feingold. Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank Chairman Lugar and Senator Biden for calling this 
critically important hearing, and I thank all of the witnesses for 
their time and their insight.
    When it comes to North Korea, this administration's response to the 
crisis has involved denial--claiming that there is no crisis--and then 
lurching from one position to another by refusing to talk, then 
offering to talk, then offering to talk and to provide incentives. The 
administration has failed to unify key actors--South Korea, Japan, 
China, and Russia--behind any coordinated response, and has failed to 
defuse the crisis. What's more, I fear that the mixed messages the U.S. 
is sending about North Korea have combined with the administration's 
intense focus on Iraq, unintentionally creating a very dangerous policy 
brew.
    As I mentioned last week, in the State of the Union Address, the 
President seemed to suggest that the lesson to be learned from the 
recent history of the Korean Peninsula is that we must stop potential 
proliferators before they have the means to blackmail the international 
community. I wholeheartedly agree. But given the very different 
approach being taken to Iraq and North Korea, I am concerned that the 
rest of the world is starting to learn the following lesson about U.S. 
policy: if you acquire nuclear weapons you can be free from the threat 
of military action, but if you do not, you may be subject to preemptive 
invasion. This scenario, with its emphasis on preemption, sets out real 
incentives for proliferation and the pursuit of WMD as quickly as 
possible. That cannot possible be in the interest of global stability 
and in the interest of the security of the United States of America.
    This is a terribly difficult and sensitive situation, and of 
course, diplomacy does not lend itself to one-size-fits-all answers. 
But while some may wish to set North Korea aside so that we can focus 
on Iraq, I believe that the danger in this overall policy message is 
growing greater every day. We need clarity now. I hope that we can 
start finding some in this hearing today.

    The Chairman. Thank you very much, Senator Feingold.
    Let me mention, as I should have earlier, that mention has 
been made of the diplomacy of Assistant Secretary Jim Kelly, 
and he is immediately behind the Secretary, and I will call 
upon you, Mr. Secretary, to ask him to help you whenever you 
need to. But we are appreciative of your being here and of your 
service to your country.
    Mr. Armitage. I need plenty of help, Mr. Chairman. No 
question about it.
    The Chairman. I call now on Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Welcome, again Mr. 
Secretary.
    Mr. Armitage. Thank you, Senator.
    Senator Hagel. It is always reassuring to have you up here 
for your weekly briefing.
    It is your pleasing personality that we respond to. You 
enhance the dialog considerably with your charm.
    Mr. Armitage. Thank you, Senator.
    Senator Hagel. Mr. Secretary, you took us through an 
interesting timeframe, I think, beginning back in June of 2002, 
as to what we knew, generally, when, and what we are doing, 
where we are. But I want to go back to an earlier date that was 
referenced in a Washington Post article, which you saw, this 
weekend. And in the Post article, to paraphrase it, it says 
that in November 2001, that we were aware of, according to the 
Livermore National Laboratory people, that North Korea was up 
to something, in fact moving rapidly on development of uranium 
enrichment programs.
    Was that an oversight that you did not mention that, or did 
not it happen, or did you know about it, or did no one know 
about it? Why did we not respond to that, if, in fact, that is 
true?
    Mr. Armitage. I was uninformed about it. I have asked about 
it. I do not think it was true. I think what happened is the 
Livermore Laboratory took part in or was part of a joint energy 
intelligence assessment, and that their contributions, I have 
been informed, confine themselves to research and development, 
not a production of highly enriched uranium [HEU]. I can be 
corrected, and we will research it further, but I--of course I 
looked at that article and was very unhappy that it appeared.
    Senator Hagel. So you do not put much stock in that 
article.
    Mr. Armitage. I do not put much stock in that part. And I--
if I may take advantage, sir, Senator Biden and Senator Levin 
and Senator Daschle sent a letter to Dr. Rice, which, of 
course, she will be answering. But, in it, I think that article 
is referred to, as well as another unnamed administration 
official, who alleged that the administration was keeping quiet 
about recent developments concerning activity at Yongbyon.
    I want to hasten to let the chairman know and let all of 
you know that I called, immediately upon seeing that letter, to 
the Deputy National Security Advisor, who said, ``Of course 
that's not the case.'' And in my own investigations, I know 
that the President's special representative to the DPRK, Jack 
Pritchard, the day before that article came out, had already 
briefed the general counsel to the Senate Budget Committee.
    So I think there is nothing to it, and I want to put a 
spike in it if I can.
    Senator Hagel. So as far as you know, no senior officials, 
from the President on down, were told of this report if, in 
fact, it happened.
    Mr. Armitage. I am uninformed that they were told anything 
more than some suspicions about R&D, which followed on the 1999 
anomalies in procurement, Senator.
    Senator Hagel. Thank you. How much do we know about 
Pakistan's involvement in helping the North Koreans with their 
nuclear program?
    Mr. Armitage. We know it is both ways, and we know a good 
bit about a North Korean/Pakistan relationship. I, myself, 
however, have had conversations, personally, direct with 
President Musharraf, who has assured us these are over and they 
were in the past.
    But, beyond that, with your permission, I think it is a 
classified matter.
    Senator Hagel. Well, there has been an awful lot out in the 
public on this and we should probably pursue this in a closed 
forum.
    Mr. Armitage. Yes, you absolutely should.
    Senator Hagel. You have mentioned, in response to the 
chairman, that we intend to have talks with North Korea. Am I 
correct on what you said?
    Mr. Armitage. That is correct, Senator.
    Senator Hagel. Is there a timetable on that?
    Mr. Armitage. No, there is not. I certainly--it is not 
going to be, I think, before we get a steady government in the 
Republic of Korea, but there is no question--I spoke to the 
Secretary about it this morning--we are absolutely going to 
have to talk with them, bilaterally. We acknowledge that.
    Senator Hagel. Are you concerned that the North Koreans may 
be on an accelerated program here to enrich uranium, and once 
that plutonium is out it could most likely be irretrievable and 
terrorists get their hands on this, far more dangerous maybe 
than what Saddam Hussein may be doing or not doing and so is 
the timeframe not important here?
    Mr. Armitage. Yes, the timeframe is important. I am 
concerned, and I do not think, given the poverty of North 
Korea, that it would be too long after she had a good amount of 
fissile material to do whatever she wanted to do with it, 
first, that she would be inclined to engage with somebody, a 
non-state actor or a rogue state.
    However, I believe there is another major difference 
between Iraq and North Korea. We think we know what Kim Jong Il 
wants, at least the experience of our predecessors in the 
previous administration indicate that he wants some economic 
benefits and things of that nature in exchange for these 
programs.
    It is quite a different situation in Iraq, Senator, where 
we feel that what he wants to do, as I have said, is 
intimidate, dominate, and attack. And we are not quite sure 
that is the motivation of Kim Jong-Il.
    Senator Hagel. He just wants to sell it?
    Mr. Armitage. Oh, I think he wants to use it for economic 
benefit, sell, barter, whatever.
    Senator Hagel. You do not see any connection to the danger 
to the world? That is not a concern to you? Urgency to that?
    Mr. Armitage. Yes, that is a concern. It is an absolute 
concern. I have got several concerns in the world, and that is 
one of them, and we are working it as best we can. I would just 
say that we have been at this for several months, vice the 
other situation where we have been at it for 12 years.
    Senator Hagel. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Boxer.
    Senator Boxer. Secretary Armitage, welcome again. And I 
know the burdens you bear, and I just want to thank you for 
giving so much, because I know it is really hard. And you and I 
have differences, but we are friends, and that is important to 
me.
    Mr. Armitage. Thank you.
    Senator Boxer. I want to report to you, again, having gone 
home again, that the people of my State are very anxious, and 
they are anxious about the economy, they are anxious about 
Iraq, they are anxious about North Korea, and then the horrible 
tragedy where we all saw the faces of the best and the 
brightest, and we worry, and we think, God, are we going to see 
more of this? And it is a tough time.
    I want to go back a little bit to a year ago, when the 
President made his very strong, in a way, angry speech about 
the ``axis of evil.'' Because I am thinking, as I sit here 
today, that that was a mistake, and I want to talk to you about 
it.
    You know about North Korea's history--isolation, a little 
paranoia, mistrustful, and the rest--and you are sitting in 
North Korea, and the President of the only superpower in the 
world lists three countries, and you are the second one on the 
list, and the first one is about to be invaded--and certainly 
some of us hope we can avoid this, but it certainly looks that 
way--in an attack that probably we have not seen in recent 
memory. Now, he is sitting there, and we know he is already 
isolated. He has got horrible economic problems and the rest. 
And he is thinking, ``I'm probably next.''
    Now, he then is trying to escape this, what he considers, 
perhaps, inevitable tragedy for his people, as he sees it, and, 
of course, himself and his legacy, as he sees it. And so he 
turns to this idea of getting the attention of the United 
States and trying to avert this situation.
    And I am just curious. Before the President put North Korea 
into the ``axis of evil,'' did he bring everyone in from the 
State Department? Did he say--because, you know, in diplomacy, 
everything you say has a reaction. Did he talk about this, what 
would be the impact? And, if so, what was the advice, if you 
can tell it to us?
    Mr. Armitage. Well, I have, in previous testimony, and I am 
more than happy to talk about it. But there is one thing that I 
think we have to get right on the record crystal-clear, and 
that is the development of the HEU facility preceded the ``axis 
of evil'' comments by our President. They preceded by a couple 
of years. So let us be clear on that. He was cheating on his 
agreement with our predecessors before the President ever said 
anything about ``axis of evil.''
    Senator Boxer. Yes.
    Now, on the State of the Union Speech, the way we do it in 
this administration is, the top echelons of the Defense 
Department and the State Department do see the State of the 
Union Speech. Secretary Powell and I sat in his office last 
year, had several comments over the State of the Union Speech. 
Both of us--I hesitate to tell you--both of us thought ``axis 
of evil'' was a fitting comment. And the reason we thought it 
was because the states abused--the three named, abused their 
own populations, they were implacable foes of the United 
States, and implacable foes of allies of ours--South Korea, on 
the one hand, and Israel, in the case of Iraq and Iran--and, 
finally, that we felt they, all three, were striving, and had 
strived, historically, for weapons of mass destruction.
    So I hesitate to report to you, but the Secretary and I----
    Senator Boxer. That's all right.
    Mr. Armitage [continuing]. Just passed right by that one, 
and we had other comments.
    Senator Boxer. Well, let me just say to you, I am not 
arguing whether it is fitting, and I could fit some other 
dictators in that list myself. That is not the point I am 
making. I am asking if you discussed what reaction there might 
have been to it, not that it was fitting. But, in diplomacy, 
there are a lot of things we all want to say, and yet, you 
know, you have got to think about how it sounds and how people 
take it.
    But you just felt it was fitting, and you did not really 
get into the reaction.
    Mr. Armitage. That is exactly correct, Senator.
    Senator Boxer. OK, thank you.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman. Welcome, Mr. 
Secretary. It is good to see you again.
    Mr. Armitage. Thank you, sir.
    Senator Chafee. I am curious about what has changed and 
what happened since the optimistic 1994 Agreed Framework. It 
seemed as though we were cooperating and there was a thaw in 
our relationship. Even in 1999, I believe President Clinton 
agreed to lift some sanctions. He said they were ``cheating.'' 
As we look back, what went wrong? What could we have done 
better, as now we see a very difficult situation with nuclear 
weapons there and the grave threat of proliferation? As we look 
back, what could we have done different? It seemed as though 
everything was so optimistic for awhile, even as recently as 
1999, as I said, with the lifting of sanctions.
    Mr. Armitage. That is a great question. I am not sure I 
have a competent answer. I am going to try. First of all, there 
are some good things that happened. I think it is quite clear 
that, from 1994 to now, Yongbyon, itself, did not produce more 
plutonium which could be turned into nuclear weapons. And so 
there are dozens of nuclear weapons that North Korea does not 
have because of the Framework Agreement. And we have to 
acknowledge that, I believe.
    I think, equally, as we have looked back--intelligence 
hindsight, just like our hindsight, is clear--we find that the 
North Koreans were, at least from February 2000, intent on 
going to a full-up production program of HEU. And that, as 
intelligence keeps looking back, they get more and more 
granularity.
    I am not sure what we could have done. Look what happened 
to the South Koreans, who had, I think, the most well-disposed 
leader of South Korea possible in Kim Dae-Jung, who leaned way 
forward to try to accommodate Pyongyang and was basically 
rebuffed. He did get one summit meeting.
    So I think that my view is--and I would defer to my 
colleagues on the following panel and Ash Carter, particularly, 
who had something really to do with the Framework Agreement--I 
think that Kim Jong Il was intent on having it both ways. He 
wanted the economic benefits from the 1994 agreement, but he 
also was intent in his own pace in developing these weapons. 
That is the inescapable conclusion I come to.
    Senator Chafee. And then, consequently, as we look ahead, 
and assuming we will be negotiating future agreements with 
other countries, with the possibility they might be cheating 
also, trying to achieve what you just mentioned, both the 
economic benefits and what is forbidden by the agreement, 
what--you said, in February 2000, I believe was the first sign 
of noncompliance. Looking back but also looking ahead, what do 
we do when we find cheating? What is the proper pressure to try 
and have a cooperative relationship where both sides can 
achieve their aims?
    Mr. Armitage. Well, in some cases, it is one in which we 
simply jawbone and point out the inadvisability of a path that 
is being followed. And I would say, in that regard, South 
Africa springs to the fore, Brazil too. Taiwan, at one time, 
was going to be engaged in a program of nuclear weapons 
development, and they eschewed it because of a lot of 
conversations that the late Gaston Sieger and others had with 
the leadership of Taiwan for their own self-interest.
    In other cases, such as ones that the Members of the 
Congress are very well aware of, we have been able to retard 
the development of these through sanctions and through various 
legislation. Pakistan comes to mind in this regard.
    So I think it is very much sui generis, and I know how 
unsatisfying that is as an answer, but I think it is the case, 
sir.
    Senator Chafee. And, last, you mentioned some that are 
cooperating--Brazil and others. Are there any countries out 
there that we fear might be developing nuclear programs that 
are hostile?
    Mr. Armitage. We are always looking at Libya. I am unaware 
right now, that Syria poses a concern in this regard, but we 
keep our eye on her, but Libya is one.
    Senator Chafee. And any advice on how we deal with that? 
What are we doing to prevent a North Korea?
    Mr. Armitage. Without trying to wiggle off the hook, I 
would request to handle that in classified or closed session, 
sir.
    Senator Chafee. Thank you, Mr. Secretary.
    Mr. Armitage. Thank you, Mr. Chafee.
    The Chairman. Thank you, Senator Chafee.
    Senator Biden.
    Senator Biden. Mr. Chairman, I would ask unanimous consent 
that my opening statement be placed in the record as if read.
    The Chairman. So ordered.
    Senator Biden. And so I will just briefly refer to it. I 
would suggest and highly commend to my colleagues the report 
that Secretary Armitage--commend the Armitage report to my 
colleagues. And the report--there are some key suggestions that 
spark discussion.
    ``We have to regain the diplomatic initiative. The U.S. 
policy toward North Korea has become largely reactive and 
predictable, with U.S. diplomacy characterized by a cycle of 
North Korean provocation or demand and American response.'' 
Good idea. But even now the Bush administration claims the ball 
is in North Korea's court. North Korea says it is in our court. 
From where I sit, the ball is sort of stuck in a net somewhere, 
Mr. Secretary.
    ``A new approach,'' he went on to say, ``must treat the 
Agreed Framework as the beginning of a policy toward North 
Korea, not as the end of the problem. We should clearly 
formulate answers to two key questions. First, what precisely 
do we want from North Korea, and what price are we prepared to 
pay? Second, are we prepared to take a different course if, 
after exhausting all reasonable diplomatic efforts, we conclude 
that no worthwhile accord is possible?'' Another great 
question. You have answered. I think State has answered. But, 
all due respect, I do not think the administration has answered 
that question, at least I do not quite know the answer. You 
also point out that ``The U.S. point person should be 
designated by the President in consultation with congressional 
leaders and should report directly to the President,'' another 
good idea.
    Mr. Kelly is a fine, fine guy, but I do not know that that 
has been in consultation with us. I do not know how far that 
has gone. And, in no way, Mr. Secretary, am I suggesting that 
you are not fully up to the job. But it raises the profile, it 
raises the issue here in this body, if, in fact, it has been 
one that is more engaged at the front end. I think it is a 
point being made by--I hope I am not mischaracterizing, but a 
point made by Senator Hagel about this should be a little 
higher profile, because we keep--we sound like we are 
downplaying it.
    I will not go through the rest of the report, but I really, 
truly--I agree with what you say in the report. I know there 
are--I should not say ``know''--it is my impression that there 
is some--not disagreement, but some nuance differences--a word 
I know the President does not like when I use it with him, 
``nuance''--differences within the administration on how to 
proceed.
    Which leads me to the essence of my statement, which is 
that, as I understand, the chairman indicated that we should be 
talking, and talking now, and be prepared to discuss all issues 
now, and need to have direct talks. I think he is dead right. I 
have shared that view from the outset, enunciated it early on.
    And I have a few questions, if my--start the clock ticking 
on my 5 minutes now, since I did not make the whole opening 
statement.
    I am a little--let me just put it this way. How does the 
equation change in the minds of the administration, in terms of 
moving this from an important issue to a crisis, if it is--
would be moved by it? How does the equation change if North 
Korea uncorks that stuff, reprocesses the material, gets the 
additional plutonium, and goes from having one or two nuclear 
weapons to having six to eight, which is, in the near term, a 
capability they posses--how does that--how do we view that?
    I mean, obviously, we do not view that as good. It is a bad 
idea. But do we view that as materially changing our security 
relative to North Korea? If the Lord Almighty came down and sat 
in the middle of this room and said, ``Look, they're going to 
eight, but that's all they're going to do,'' what is the change 
between one to two, and six to eight?
    Mr. Armitage. Yes, sir. First of all, thank you for the 
comments on that bipartisan report, which I chaired, and even a 
member of your staff participated in. And you will note that--
--
    Senator Biden. I think he is the one that recommended I 
read it.
    Mr. Armitage. I thought he would.
    That the basic recommendations in that bipartisan report 
were the basis for the so-called ``bold approach'' that 
President Bush authorized Assistant Secretary James Kelly to 
convey to Pyongyang. And you will note that the so-called 
Armitage report is not very far from the excellent job that 
Bill Perry and Ash Carter--and they will speak about it more 
astutely than I in a few minutes--engaged in, where you gave 
North Korea a choice of two branches--one, good things follow; 
and the other, bad things follow. He didn't necessarily say 
that we were going to war, but that you would face a much more 
negative military equation than you face at the present time.
    The big change in going from two to eight weapons would be 
on the danger of proliferation for the United States.
    Senator Biden. Proliferation of the actual weapon.
    Mr. Armitage. Of the fissile material, sir.
    Senator Biden. The fissile material.
    Mr. Armitage. Right now, the 8,000 fuel rods, if they were 
reprocessed--if they are taken out of the ponds, if they move 
to the reprocessing facility--you can harvest, as I understand 
it, 25 to 30 kilos of plutonium, which would be enough for four 
to six weapons, which would then add up to your eight. So I 
think--in several months.
    Senator Biden. All right. Now, so we worry that they would 
divert the plutonium to some other source, whether it is a non-
state actor or a state actor, as opposed to putting it in new 
nuclear warheads that they would produce.
    Mr. Armitage. Let me explain my reasoning on this, Senator. 
First of all, the Republic of Korea is already under as much 
threat as they can stand, when they have 40 percent of their 
population and 60 percent of the GDP under the guns and the 
rockets of the forward-deployed army of North Korea. So I do 
not think another nuclear weapon or two in that regard 
dramatically changes their equation.
    Where it's changed, in the first instance, is with Japan, 
and this is where our equities are very high, and particularly 
if the North Koreans continued to develop their missiles. So 
it's the marriage of Taepo Dong capabilities, No Dong 
capabilities, extended, where the threat to our allies comes 
in, and then laterally. Right now, we know that their Taepo 
Dong fired to 3,800 miles or so, based on the 1998 test. And if 
that reached our shores, then, of course, the threat goes up to 
us dramatically.
    But we really are pushing back on the notion of ``crisis,'' 
not because it has anything to do with Iraq, but because why 
tell the other guy he's gotten your attention so much?
    Senator Biden. Well, the only reason is if he got your 
attention because you are materially disadvantaged by what he 
is about to do. But, OK, how--this notion of multilateral/
bilateral, I think we all agree--I may be wrong--that if we can 
do this multilaterally, in talking with the North Koreans, it's 
a much better way to do it. But, in my discussions with the 
Japanese and the South Koreans, they're saying, ``Multilateral 
is good, count us in, but don't wait. We recommend you do it 
bilaterally.'' Now, am I wrong? Are they not recommending that?
    Mr. Armitage. No, they are, indeed, suggesting that. And 
our suggestion is not quite that we handle these talks 
multilaterally, but we have a multilateral umbrella of any 
sort.
    Senator Biden. No, I understand that. No, I understand 
that. But this is a matter of, maybe, form over substance right 
now, and--but you're saying--so everybody understands, because 
I do understand it, and the Secretary has been kind enough to 
lay it out for me, as well--is that you're just looking for an 
umbrella so that we--not ``just''--but looking for an umbrella 
where you have the Chinese, the Russians, the South Koreans, 
the Japanese, and anyone else, who--and us--who sponsors a 
meeting somewhere, whether it's New York or wherever else, and 
that that's the rationale for the meeting, but once in the 
meeting, you and/or the Secretary or old Kelly back there are 
going to sit down with these boys and talk turkey one to one.
    Mr. Armitage. I suspect Mr. Kelly has blunted his lance 
with the North Koreans for awhile.
    Senator Biden. Yes, and----
    Mr. Armitage. We might need someone else.
    Senator Biden. But, seriously, I understand that's the 
rationale. But what--the reason I pressed the first point--I 
realize my time is up, and I'll cease, Mr. Chairman--but one of 
the reason why I asked the first question about how, 
materially, does--do things change, in terms of our flexibility 
and our security and our concerns if we go from two to eight, 
because that's what we're talking about there. Once they uncork 
this, you have, as you point out, x number of kilos of 
plutonium that not only can be used to build those weapons, but 
also used to export to terrorists, if they were so inclined. 
And that's going to happen pretty soon, based on--or it may 
very well happen pretty soon, based on some intelligence data 
that has been made public, as well as what hasn't been made 
public.
    And so I--we're not going to have a chance--I won't have a 
chance in a second round, because you're going to have to go, 
but I really hope we do not let, you know, form impact so 
significantly on substance here.
    Mr. Armitage. The Secretary told me about your phone 
conversation with him over the weekend, sir. He took it very 
seriously. We discussed it on Sunday.
    Senator Biden. And I appreciate his----
    Mr. Armitage. I know he laid out for you our views.
    Senator Biden [continuing]. His point of view. Speaking for 
myself, not him, there is always the chance that this is a 
bluff, that they really aren't going to go forward and, to use 
the phrase being used now, ``uncork'' this and that we have 
time.
    What I wanted to ask, and maybe someone else will, is, What 
is the downside? What's the downside for us--for example, us 
signing a nonaggression pact, for example? I mean, what is the 
downside, if that's one of the demands? You don't have to 
answer it now, because my time's up. Maybe someone else will 
want to speak to that.
    I thank you very much.
    The Chairman. Thank you, Senator Biden.
    Why don't you proceed to answer the question?
    Mr. Armitage. I will try. I mentioned this in S-407. I got 
a lot of nods from the Senators who were there assembled. I 
said that our estimation was there was a zero chance, under the 
present circumstances, of being able to get a treaty of 
nonaggression through the U.S. Senate. And the North Koreans 
had started out stating they just wanted to document it in some 
fashion, a nonaggression pledge, and the Secretary responded 
that we would be able to accommodate that. But now they're 
saying they want a treaty that is ratified by the U.S. 
Congress, and, of course, by the Senate is what they mean. And 
it is our estimation today that there's zero chance of that 
being possible.
    Senator Biden. If the President of the United States said 
he wanted it, I'll bet you a million dollars they would change. 
But that's up to him.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, it's easy to have a feeling of deja vu today. North 
Korea's pursuit of nuclear arms, in clear breach of its international 
treaty obligations and bilateral commitments, has brought Pyongyang to 
the edge of the same precipice it approached in 1994.
    Our challenge is clear: we must stop North Korea from going into 
serial production of fissile material and nuclear weapons.
    If we do not, we will face many dangers:

  <bullet> The North could become a Plutonium or Uranium factory, 
        selling fissile material or weapons to the highest bidder. They 
        have an established track record as one of the world's worst 
        proliferators already, with customers like Iran, Libya and 
        Syria.

  <bullet> The North could spark a nuclear arms race in Northeast Asia, 
        with Japan, South Korea, and even Taiwan forced to reconsider 
        their own commitment to remaining non-nuclear states. That, in 
        turn, could cause China to add to its arsenal, and then India 
        and Pakistan to do the same.

  <bullet> And of course in the event of a war on the peninsula, we 
        would confront a much more dangerous enemy, with every nuclear 
        weapon magnifying the risks.

    The threats are real, but our options are few.
    Some support a military strike to take out the North's nuclear 
facilities. I don't think we should ever rule out force, but in this 
case it is hardly an attractive option--it must be a last option. Even 
if we could destroy the North's nuclear facilities--and I would note 
parenthetically that we don't even know where many of them are--the 
risk of sparking a general war on the peninsula would be very real.
    And that war would not be characterized by neat explosions viewed 
through the gun camera of an F-15 Strike Eagle as broadcast on CNN. It 
would be messy and bloody. The North's forward-deployed artillery tubes 
can hit Seoul without warning from hardened firing positions.
    There are also political obstacles to a military strike. U.S. 
allies South Korea and Japan strongly oppose any attempt to use 
military force to compel North Korea's nuclear disarmament.
    As for sanctions, we don't have many arrows left in that quiver. We 
have already cut off the North's access to international loans and to 
U.S. technology. Moreover, the North's largest trading partners, China 
and South Korea, are opposed to pressure tactics.
    Wise handling of this evolving North Korean challenge must 
therefore rely on diplomacy.
    We must make every effort to convince North Korea's leader Kim 
Jong-il that his pursuit of nuclear weapons makes him less secure, not 
more secure. We must try to convince him that if North Korea behaves 
responsibly, it will find true peace on the Korean Peninsula, and its 
people will enjoy the benefits of that peace.
    That's going to be a tough sell.
    The Bush Administration has basically pursued a policy of malign 
neglect of North Korea for the past two years. Its failure to 
articulate a clear, consistent Korea policy, its skepticism of 
President Kim Dae-jung's Sunshine Policy, and its gratuitous rhetorical 
broadsides against Kim Jong-il and the North Korean state, all have 
diminished the prospects for a diplomatic solution.
    North Korea is responsible for this crisis, but we are responsible 
for doing everything we can to find a way out of it. If we fail, all of 
us will have to deal with the repercussions, perhaps for generations to 
come.
    So what should we do? There is still time for the Administration to 
adopt the core elements of the North Korea policy drafted by a working 
group led by Deputy Secretary Armitage back in 1999. In addition to our 
lead witness today, that group included current Deputy Secretary of 
Defense Paul Wolfowitz, former Deputy Assistant Secretary of Defense 
Peter Brookes, and current Assistant Secretary of Intelligence and 
Research Carl Ford, among others.
    Mr. Secretary, your report called for a policy of hard-headed 
engagement developed in close coordination with our allies and backed 
by a credible threat of military force--much like the Perry Initiative.
    I highly commend the Armitage report to my colleagues who are 
struggling, as I am, to figure out how we got into this mess and how we 
might still get out of it. Let me quote a few of the reports key 
suggestions to spark discussion:

  <bullet> ``Regain the diplomatic initiative. U.S. policy toward North 
        Korea has become largely reactive and predictable, with U.S. 
        diplomacy characterized by a cycle of North Korean provocation 
        (or demand) and American response.''

    Good idea. But even now the Bush Administration claims the ball is 
in North Korea's court. North Korea says it is in our court. From where 
I sit, the ball is stuck in the net and somebody better go get it

  <bullet> ``A new approach must treat the Agreed Framework as the 
        beginning of a policy toward North Korea, not as the end of the 
        problem. It should clearly formulate answers to two key 
        questions: first, what precisely do we want from North Korea, 
        and what price are we prepared to pay for it? Second, are we 
        prepared to take a different course if, after exhausting all 
        reasonable diplomatic efforts, we conclude that no worthwhile 
        accord is possible?''

    Great questions. But the Administration hasn't answered them yet.

  <bullet> ``A U.S. point person should be designated by the President 
        in consultation with Congressional leaders and should report 
        directly to the President.''

    Another good idea. But President Bush down-graded the special envoy 
position and had him report to the Secretary of State, thereby assuring 
that we could not gain access to Kim Jong-il--the only man in North 
Korea who has the authority to cut a deal.

  <bullet> ``Offer Pyongyang clear choices in regard to its future: on 
        the one hand, economic benefits, security assurances, political 
        legitimization, on the other, the certainty of enhanced 
        military deterrence. For the United States and its allies, the 
        package as a whole means that we are prepared--if Pyongyang 
        meets our concerns--to accept North Korea as a legitimate 
        actor, up to and including full normalization of relations.''

    Good idea, but the Bush Administration has made clear that it 
considers North Korea to be part of an ``Axis of Evil,'' and has all 
but ruled out normalizing relations.

  <bullet> ``The notion that buying time works in our favor is 
        increasingly dubious.''

    How prophetic this was in 1999! How then, do we explain the 
Administration's muted response to the world's worst proliferator 
taking concrete steps that could permit it to build a nuclear arsenal? 
We can't afford to put this problem on the back burner.
    If we do all of these things, will it work? Will the North change 
course? I don't know. It's impossible to know for sure until we try.
    As we move ahead, I'm very concerned that the Administration has 
not done an adequate job communicating critical information to 
Congress. Consider what we have learned over the past few days thanks 
to the New York Times and The Washington Post--and no thanks, as far as 
I can tell, to briefings from the Administration.
    On Friday, the Times reported and the Administration confirmed that 
the U.S. Government has evidence that North Korea is moving its 
stockpile of nuclear fuel rods out of storage, potentially in an effort 
to produce additional nuclear weapons. Asked why the Administration had 
not revealed this information, unnamed senior administration officials 
told the Times it is because the Administration wants to avoid a crisis 
atmosphere and avoid distracting international attention from Iraq.
    On Saturday, the Post reported that the Administration knew in 
November, 2001, that North Korea had begun construction of a uranium 
enrichment plant and that key information was coming from Pakistan. Yet 
the Administration did not brief Congress or confront North Korea with 
this information until nearly a year later.
    Our witnesses today have vast experience with the challenge posed 
by North Korea's pursuit of nuclear weapons. I look forward to their 
sage advice at this difficult hour.

    The Chairman. Thank you very much, Senator Biden.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you, 
Secretary Armitage, again, for appearing here and giving us 
your perspective.
    Mr. Chairman, I want to associate myself with your remarks 
and comments as far as the refugees from North Korea. The 
United States is a country that has always been on the side of 
people escaping for freedom and finding a way to do it. And I 
know the Secretary has personal experience in that regard.
    This, Mr. Secretary, is a time of much concern across 
America and all around the world. Today we're commemorating the 
lives lost on the Columbia and continuing to comfort the 
families, and we'll be making strategic decisions regarding 
NASA. We're continuing a war on terrorism, in Afghanistan, 
specifically. Your office and Secretary Powell are pursuing 
action to disarm Saddam Hussein, who clearly does possess 
weapons of mass destruction, specifically in the form of 
biological and chemical weapons, as well as missile 
capabilities, or trying to develop the missile capabilities to 
deliver weapons of mass destruction. As well as their 
association with terrorism.
    Then we focus here in this hearing on North Korea, a 
country that clearly has chemical weapons, has biological 
weapons, clearly has developed nuclear capabilities as well as 
the missile capabilities to hit U.S. interests and those of our 
allies.
    The point is not that you just focus on one or the other on 
all these different things. We don't have to be standing there 
without actions. We need to make specific plans that are 
specific to the challenge or the danger to our country and our 
interests. And I think that you're showing that capacity and 
capability, and I know that the Senate has the ability to focus 
on more than one crisis or one challenge.
    In these tactics or challenges as we face North Korea, 
these are not issues of first impression. The 1994 Agreed 
Framework negotiations with North Korea, the United States 
agreed to finance and supply North Korea with the two light-
water reactors in exchange for internationally monitored 
freezes and dismantling of their nuclear infrastructure, as I 
understand it. But notably absent from this agreement was any 
restriction on North Korea's proliferation activity. And we've 
mentioned here that North Korea, seemingly freely--has 
transferred ballistic missile technology to belligerent, 
dangerous countries such as Iran, Syria, Libya and Yemen. And, 
in fact, the Defense Department's January 2001 report or 
publication, ``Proliferation Threat and Response,'' 
characterize North Korea as a major proliferator of ballistic 
missiles and related technologies and warned that the sale of 
No Dong missile technology to Iran has created an immediate, 
serious, and growing capability to target U.S. forces and our 
allies in the Middle East.
    Now, this clearly is a grave danger to the United States 
and our allies. And given our President's commitment to resolve 
the current standoff with North Korea through diplomatic means, 
will you assure us that the United States will include the 
suspension of North Korean missile sales in any negotiated 
agreement that it has reached?
    And, followup question to that, what are we doing, in 
concrete tangible steps, to the extent that you can share that 
with us, to make sure that this proliferation of missile 
technology and nuclear capabilities is not transferred to 
belligerents elsewhere?
    Mr. Armitage. Senator, a slight tweak, if I may, on your 
opening comments. In the 1994 Agreed Framework, you are correct 
that in the opening paragraph, in fact, in the opening 
sentence, we commit ourselves and the DPRK commits themselves, 
to negotiate an overall resolution of the nuclear issue on the 
Korean Peninsula. It does not mention missiles. However, we did 
not commit to fund the light-water reactors. We committed to 
form a consortium. And South Korea pays approximately 70 
percent, Japan pays about 22 percent, and there is an 8 percent 
funding gap in the light-water reactors.
    We did commit to fund heavy fuel oil, sir, which was 
estimated to be what would replace the energy development at 
that Yongbyon reactor.
    Senator Allen. Nevertheless, we allowed it to go forward, 
and we were complicit in it.
    Mr. Armitage. Well, I am just trying to lay out the facts 
Senator. I do not want to confuse the issue.
    Senator Allen. Right.
    Mr. Armitage. I mean, whether we fund the light-water 
reactors--I think there is some confusion on Capitol Hill about 
that--and we don't.
    Senator Allen. OK.
    Mr. Armitage. And we haven't.
    Senator, on the question of missiles, the whole essence of 
the so-called bold approach that Mr. Kelly was going to present 
not only tried to encompass the remaining nuclear issues and 
the missile area, but the conventional area and human rights on 
the peninsula. That was the essence of our approach for the 
bold approach, to try to wrap them all up. Because, as I 
indicated earlier, if you're threatened from a nuclear weapon 
or you're threatened from approximately 11,000 tubes of 
artillery forward-deployed, you're threatened in the same way. 
You're going to die if the bubble goes up. So we wanted to 
encapsulate all our concerns with North Korea, and that's what 
Jim Kelly was sent to do. And, on the way to Pyongyang, it was 
derailed by the revelations about the HEU.
    I can assure you that we're not going to try to let that 
slip again. I'm not making a criticism of the previous 
administration. They went after the nuclear issue, and, as I've 
indicated, they made a difference for a number of years in the 
weapons that could be available to Pyongyang.
    On the proliferation of which I'm aware of, North Korea is 
primarily missile. There has been nuclear technology, but it's 
primarily missile. We stop it where we can, and they are not 
party to the MTCR. We sanction individual companies, which 
we've done in North Korea, and to recipients, and we continue, 
where possible, to break the linkages between certain countries 
and North Korea, whether it's just on Scud missiles or on any 
other development. And we can--and I'm happy to provide, in a 
classified provision, to the members, a list of, country by 
country, where we've done this.
    [A classified response was subsequently received.]
    Senator Allen. Thank you, Mr. Secretary.
    Mr. Armitage. Thank you, Mr. Allen.
    The Chairman. Thank you very much, Senator Allen.
    Some members have arrived, some have left, since we began 
the hearing. Let me just indicate that Secretary Armitage will 
be leaving us at about 11:15. Therefore the Chair, and now with 
the concurrence of the ranking member, has declared a 5-minute 
question time for each member, and each is being recognized in 
order of seniority. I mention that because of, well, fairness 
issues and timeliness issues.
    And I want to call now on Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. Mr. 
Secretary, welcome.
    Mr. Armitage. Good morning, sir.
    Senator Sarbanes. What am I to make of this story in the 
Washington Post this morning with the headline, ``U.S. Bombers 
Put On Alert For Deployment In Pacific''?
    Mr. Armitage. That's a prudent military planning procedure, 
and as far as I know, nothing has moved forward. It's an alert 
to be available to move forward.
    Senator Sarbanes. And what is the event it's designed to 
address?
    Mr. Armitage. A contingency that North Korea would, in some 
fashion, try to take advantage of our focus on Iraq, Senator.
    Senator Sarbanes. What is the nature of the advantage you 
would anticipate they might try to take?
    Mr. Armitage. My understanding of this is that Admiral 
Fargo has requested this and has not further specified whether 
it would be conventional. We think it probably would. But we 
have no further information. It's just prudent military 
planning.
    Senator Sarbanes. This would be a move against South Korea?
    Mr. Armitage. If he moved against South Korea.
    Senator Sarbanes. Is that what your answer----
    Mr. Armitage. Yes, or other interests, like Japan. That's 
right.
    Senator Sarbanes. Now, what's the view of the South Koreans 
on this issue, on the Korean Peninsula and the conduct of North 
Korea?
    Mr. Armitage. I think, given the fact that they were so 
rebuffed recently, that there is some real soul searching going 
in Seoul about just how to handle the North Korean situation we 
have. The envoy of the President-elect Roh, who met with the 
Secretary a few minutes ago, and he met with--he's meeting 
with--the Vice President and the Secretary of Defense. And I 
can't give you his reaction, but I know the editorial opinion 
in Seoul.
    Senator Sarbanes. Which is what?
    Mr. Armitage. Which has been that South Korea was rebuffed, 
and it's an embarrassment to the Republic of Korean Government, 
and that North Korea is not playing fair at all after all the 
efforts that the previous government and administration had put 
forward to try to resolve the North/South issues.
    Senator Sarbanes. Have the South Koreans indicated to us 
what approach or course they would like to see the United 
States follow as we deal with the North Korean situation?
    Mr. Armitage. Yes. Generally, they have said they want us 
to talk to the North Koreans directly. We have agreed with 
them, and it is a question of when we're going to do it and 
how.
    Senator Sarbanes. And how long have we been agreed on the 
notion that we will talk to them?
    Mr. Armitage. For at least a month, perhaps more, we have 
indicated to the South Koreans that we will talk to them, once 
we're sure of our international base. And we are still, as I 
answered earlier, sir, trying to not have this become simply a 
bilateral issue. There are several nations in the world that 
have real interest there, including two great powers, China and 
Russia.
    Senator Sarbanes. Well, this assurance of the international 
base leads me to the next headline that's in this morning's 
paper. It says, ``China's Reluctance Irks U.S., Beijing Shows 
No Inclination To Intervene in North Korea Crisis.'' What's the 
situation there?
    Mr. Armitage. Secretary Powell will be meeting with Foreign 
Minister Tang of China this afternoon in New York. I think it's 
a fair description of their, sort of, schizophrenic approach to 
North Korea. They are very unhappy with the possibility of 
nuclear developments on the peninsula. They are also, they tell 
us, quite aware of the North Korean paranoia, and they treat 
things very gingerly.
    It's very instructive to look at the Korean war period, and 
particularly Chinese assistance to the North Koreans, where 
Chinese veterans or Chinese military, the People's Army, in my 
view, saved the situation for North Korea, and then the Chinese 
were treated just horribly immediately thereafter by the North 
Koreans, and it's something that China has never come to grips 
with, and they are quite schizophrenic about.
    Senator Sarbanes. Well, they are providing considerable 
support to North Korea, are they not?
    Mr. Armitage. Yes, sir. It's about half, I think, of their 
foreign-aid budget goes to North Korea.
    Senator Sarbanes. Now, before my time expires, let me 
exhaust the other headline in this morning's paper, ``North 
Korea Said To See Opportunity In Iraq Crisis.'' That's the 
headline, and it reads, ``North Korea, convinced that the 
United States is distracted by the prospect of war with Iraq, 
is attempting to convert the situation into an opportunity to 
force long-sought negotiations by intensifying its nuclear 
weapons standoff with Washington.'' Is that how you see that 
situation?
    Mr. Armitage. I think that's a fair assumption, and I tried 
to refer to in my answer to your question about military alert 
orders, sir.
    Senator Sarbanes. Would you regard the threat posed by 
North Korea as greater than the threat posed by Iraq?
    Mr. Armitage. Not at this point, I would not. It was--
potentially, it could be a very serious threat, particularly 
the threat of proliferation.
    The reason I do not see it in the same regard, Senator 
Sarbanes, is because there has been a rough stability on the 
peninsula of Korea, for 50 years, as unpleasant as that has 
been and as much sacrifice as that has meant in South Korean 
coffers and our own, that's quite a dramatically different 
situation from Iraq, sir.
    Senator Sarbanes. But it must have affected our thinking in 
that regard when Ambassador Kelly got in effect, that outright 
challenge when he went to North Korea in October, did it not?
    Mr. Armitage. Yes, we realized we were dealing with a 
problem, a big problem.
    Senator Sarbanes. A big problem.
    Mr. Armitage. A big problem.
    Senator Sarbanes. Would you label it a ``crisis''?
    Mr. Armitage. No, I wouldn't, Senator, and I spoke earlier 
about that. And the reason I wouldn't label it a ``crisis,'' I 
think we have got some time to work this. We have been working 
it for several months, not 12 years, like in Iraq. It could 
develop into a crisis, but it's not there now.
    Senator Sarbanes. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Alexander.
    Senator Alexander. Mr. Secretary, thank you for being here.
    Mr. Armitage. Thank you, Senator.
    Senator Alexander. We've been talking about this big 
problem, mostly in terms of the direct effect of a North Korean 
attack or action against someone else. I'd like to ask you to 
help us understand, in a little different context this morning, 
the long-term effect of nuclear arms in North Korea on all of 
Asia. I mean, some of it, I suppose, is obvious.
    What does North Korea have to do to cause Japan to change 
its attitude about nuclear weapons, for example? And if Japan 
were then to change its attitude about nuclear weapons, most of 
us can imagine how the rest of Asia might feel, and then China 
would take, possibly, further steps. There would be increased 
pressure on the United States in connection with Taiwan. You 
mentioned Taiwan a little earlier.
    So it seems to me that this big problem that we're talking 
about is perhaps not as big a problem as the long-term 
possibility of a domino game that would turn into an Asian arms 
race. And how are you evaluating that as you think about how to 
deal with this big problem?
    Mr. Armitage. In 1981, sir, the United States and Japan 
decided on a roles-and-missions approach to our bilateral 
alliance, and in that roles-and-missions approach, it was the 
United States who took responsibility for the nuclear umbrella 
over Japan.
    And my view is that as long as the United States continues 
to provide the nuclear umbrella, Japan will not arm in a 
nuclear fashion. If, however, Japan begins to question our 
affection or our alliance, then it would lead to the rather 
destabilizing situation to which you refer.
    I believe that the arms race in North Korea pales next to 
the possibility of proliferation, which is our major fear, from 
North Korea, that she would pass on fissile material and other 
nuclear technology to either transnational actors or to rogue 
states.
    Senator Alexander. In the same kind of domino-game 
connection, we haven't talked this morning about our troops in 
South Korea. And how does the big problem in North Korea affect 
the long-term planning of the American presence in South Korea? 
Because what happens there seems to make more difference in 
other countries than it might make in Korea itself.
    Mr. Armitage. Yes, Senator, it refers back, I think, to 
the, sort of, spike in anti-Americanism that exists. I know 
that Secretary Rumsfeld and his colleagues are reviewing our 
troop presence, not so much with an idea to moving them out of 
South Korea, but perhaps to reconfiguring them and perhaps 
moving them out of the capital a bit to, sort of, lower the 
profile. But that's a work in progress that will take place 
with the Korean Government and with the Government of Japan's 
witting accomplice and knowledge.
    If I may, I want to take the opportunity to point out that 
we often talk about the 37,000 U.S. forces that are in Seoul. 
We talk, much less, about the 30,000 businessmen, Americans who 
are mainly in Seoul, but not entirely, or the average of 44,000 
American tourists. And so, year by year, American visitors to 
Seoul, month to month, go from 20,000 to a high of 66,000. So 
we are really talking about citizens of the United States in 
Seoul of about 120,000 to 140,000 people. So we have got a huge 
investment.
    And that brings into play what our former colleague, 
General Tilelli, calls the ``tyranny of proximity,'' proximity 
to the DMZ in the forward-deployed forces.
    Senator Alexander. Very quickly, you've mentioned anti-
Americanism. As we look at South Korea and that phenomenon and 
Europe in connection with Iraq today, do you see any echoes of 
Europe in the early 1980s as we put nuclear-tipped weapons 
there and the intense anti-American feeling that seemed to 
develop there because of our forwardness in facing a threat?
    Mr. Armitage. I think there is a little bit of difference. 
I am not sure I am qualified--I am not a Europeanist, but I 
know that the more recent reason for the spike in North Korea--
or South Korea, excuse me, sir--has to do with the generational 
change, the fact that we had that terrible event where two 
young schoolgirls were run over by U.S. military equipment--and 
to the South Korean mind, there was not sufficient punishment 
meted out in that regard; no one ``took responsibility,'' to 
use the Asian phrase--and it also, I think, reflects a 
frustration that the South is having in dealing with the North.
    And, finally, what I referred to earlier, a country of 
almost 50 million people who's got the tenth largest economy in 
the world is a little frustrated in having others play, in my 
words, ``basketball over their heads,'' making decisions that 
really affect them and that they're not fully and totally a 
part of, and I indicated we've got to do a better job in that 
regard.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Alexander.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. Let me 
thank you once again for holding these, what are very important 
hearings, and the agenda you're got is a very, very good one.
    I'd just like to ask quickly, if I could--the last time we 
had before, Mr. Secretary--and I appreciate your being here 
today----
    Mr. Armitage. Thank you, sir.
    Senator Dodd [continuing]. I raised the question of whether 
or not we might hear from Secretary Powell prior to his 
appearance tomorrow before the United Nations so that we would 
at least be aware, and maybe in a closed-door session so as not 
to get into the sources-and-methods issues. I wonder, Mr. 
Chairman, if you might comment on what the situation is 
regarding that briefing?
    The Chairman. Well, certainly, those requests, including my 
own, were conveyed to the Secretary. A decision was made that 
the Secretary will brief the chairman, me, Senator Biden, the 
ranking member, our counterparts in the House committee, and 
leadership of the Senate, ten Members of the Congress and the 
House in all, at 7 o'clock tomorrow morning at the White House 
before Secretary Powell flies to the United Nations.
    Mr. Armitage. If I may, Mr. Chairman, my understanding is a 
little bit different. Mr. Powell is going to New York to meet 
with Foreign Minister Tang and Foreign Minister Ivanov today, 
and my understanding is the President and Dr. Rice are going to 
hold that briefing for the leadership, sir.
    The Chairman. Secretary Powell will, in fact, be in New 
York, but the President will conduct the briefing?
    Mr. Armitage. That is correct. That is my understanding, 
sir.
    Senator Dodd. Well, thank you, Mr. Chairman. And I--let me 
just, once again, express that I appreciate the chairman's 
efforts, who, as early as last week, indicated he strongly felt 
that we should hear from the Secretary prior to the 
presentation. And I appreciate the time constraints and the 
pressures the administration is under. And my only purpose in 
raising the question, as you know, is just that I felt, since 
many of us here need to answer questions we're getting 
ourselves, that, in addition to briefing world leaders, that 
Members of Congress ought to be fully briefed, as well, as to 
what facts and information they're going to use to support the 
administration's position regarding Iraq. And I will just 
express my disappointment that we're not going to have that 
chance before the presentation tomorrow. But possibly the 
meeting with the President may help, Mr. Chairman, in that 
regard in the morning, and I look forward to the briefing from 
the Chairs of the committee.
    Let me, if I can, quickly turn--I'd just like to pick up on 
Senator Sarbanes' point here. The question he raised about how 
you prioritize--and this is not just an academic exercise, 
because obviously resources and attention are going to be 
important. And, again, I'll restate the obvious here, at least 
for my part. That is that I think Iraq does pose serious 
threats. I've felt that from the very beginning, felt it for a 
long time. I don't retreat at all from that position.
    But as we try to compare the immediacy of these threats, I 
look at Iraq and where it is in its accumulation of weapons of 
mass destruction, and I look at where North Korea is, and I see 
North Korea, where it's expelled the IAEA inspectors, it's done 
all the necessary preparations for a nuclear facility--and 
you're nodding your head in agreement with this.
    As of this morning, the North Koreans may have already 
begun, once again, to reprocess plutonium. The North Koreans 
may well be on their way to building additional nuclear weapons 
to destabilize the region. We know that they posses nuclear and 
chemical weapons. And North Korea has one of the worst records 
when it comes to selling ballistic weapons to other 
governments.
    How do you draw the conclusion--and I, by the way, to the 
best of my knowledge, while Iraq may have some of these, or 
we've all at least been told that the nuclear arsenal is--
might--may exist, but the ability to deliver is some time away, 
and there's no record, that I know of, of them selling. Now, at 
least there may be some the Secretary's going to present 
tomorrow. But if you start comparing these two records--and I 
acknowledge the threat posed by Iraq, and yet nothing like this 
or similar to this, with regard to Iraq, has made accusations. 
How do you draw the conclusion that the North Korean problem is 
not a more serious crisis than Iraq?
    Mr. Armitage. For several reasons you may, in fact, and I 
suspect you will disagree with. One has to do with how long 
we've been working diplomatically to try to resolve the North 
Korean situation, months rather than years, as in Iraq. Second, 
that although it's been unpleasant, there's been a rough 
regional stability with North Korea that has not existed with 
Iraq, who has invaded her neighbors twice. Third, we do believe 
we have an understanding of what Kim Jong Il is after, and that 
is some sort of economic relief and assistance, vice Saddam 
Hussein, and we believe that is not at all his motivation; it's 
domination, intimidation, and the ability to attack.
    On the question of proliferation, you're right. I don't 
think that Saddam Hussein has been a major proliferator. Our 
fear has been, as we've tried to explain, the nexus of his 
weapons, his bloody-mindedness, and terrorists, some of which, 
as I indicated last week, Senator, the Secretary will lay out 
tomorrow.
    But that is not the major presentation of Secretary Powell 
tomorrow. His major presentation, as I stated, is to try to 
fill in the blanks in why Dr. Blix said what he said, and 
denial, deception, and things of that nature.
    Senator Dodd. Let me ask this on a--there's a couple of 
very specific questions, but let me get the question out, so it 
isn't just one question.
    The Bush administration undertook a review of the U.S. 
policy toward Korea shortly after it assumed office. I'd like 
to know, sort of, when that review was completed. And following 
that review, didn't the State Department hold out the 
possibility of talks with North Korea as early as June of 2001?
    The reason I raise that with you, because it was a year-
and-a-half later, almost a year-and-a-half later, when Mr. 
Kelly went to North Korea, and I am curious that had the North 
Koreans not announced during that visit--and maybe I should ask 
Mr. Kelly. I don't know if he's going to be talking here or 
not. I've got, sort of, questions for you, but I'm asking Mr. 
Armitage.
    What if that announcement had not been made in North Korea? 
What was the intention of the administration as a result of 
your review--why did it take so long, a year-and-a-half almost, 
to then go? And then had they not made this announcement--what 
was the point of your visit? I mean, you could have found out 
the answer to the question of whether or not they were already 
going to break these early agreements without having to travel 
to North Korea, so I presume the visit in October of last year 
had more significance than just merely going to be told 
something that we probably were aware of already.
    Mr. Armitage. The review of Korea policy was completed in 
June 2001, Senator, and, almost immediately, the Secretary of 
State indicated that we're ready to sit down and talk with the 
North Koreans. It took them, by my recollection, until April 
2002 to come forward and say they wanted to meet. Secretary 
Powell then met at Brunei with the DPRK Foreign Minister and--
to set the groundwork for Mr. Kelly's subsequent visit.
    It was about a month or so in front of Mr. Kelly's visit to 
Pyongyang that we got what we felt was incontrovertible 
evidence of a production program of highly enriched uranium, 
which very much changed his presentation.
    Mr. Kelly. I would just add, Senator, that in July--or, 
rather, June 29, 2002, there was a naval shootout in the Yellow 
Sea to the west of the Korean Peninsula, and so that 
interrupted the prospect of talks for a month or a month-and-a-
half, so that most of the period of time between the 
President's announcement of June 6, 2001 and when I went to 
Pyongyang on October 3, 2002 was because the North Koreans 
weren't ready to receive a group.
    When I did go in October, it was to both describe the bold 
approach that the President had approved, but also to note, 
with sadness and in privacy and confidentially, that we knew 
that North Korea had this uranium enrichment program going on 
covertly and that we hoped that they would find some way to end 
it, because this was a very serious impediment to all the 
things that we felt that we could begin to do with North Korea.
    Senator Dodd. Mr. Chairman, my time is up.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Secretary Armitage, I want to begin by just getting a 
little clarity on missile capacity, the ability to launch 
ballistic missiles. Could you comment on the current range of 
the North Korean's missile technology and what the implications 
are for neighboring countries?
    And then, second, what's your best thinking right now as to 
the next generation of missile and how much additional range 
that will give the North Koreans?
    Mr. Armitage. There are, in an unclassified session, 
primarily three missiles, Scud missiles, which are well known, 
and we believe there are approximately 500 in their inventory; 
No Dong missiles, which have, we believe, about a 1300-
kilometer range, so you can draw that arc, and that's the 
longest-range ballistic missile that North Korea has deployed; 
and then there's the Taepo Dong, which is a multiple-staged 
ballistic missile that may actually be capable--may be 
capable--of reaching some portions of the United States.
    Senator Sununu. And I imagine this also causes concern 
among the Pacific rim neighbors, whether it's China, Taiwan, 
going so far south as Indonesia. And are you equally concerned 
about the proliferation of this technology as you are about the 
nuclear technology, or is this a genie out of a bottle?
    Mr. Armitage. First of all, our major concern in this 
regard is Japan, where we have such a heavily invested 
relationship across the full range of cultural, political, 
economic, and military aspects. But it is--the missiles have 
been--the whole problem of missile proliferation has been one 
of the major intersections of U.S. policy for successive 
administrations, and we've spent a considerable amount of time 
trying to subvert, interrupt, stop, and jawbone people out of 
these type relationships with North Korea, with varying amounts 
of success, sometimes quite successfully.
    Senator Sununu. I want to come back to the issue of 
proliferation and cooperation on proliferation. But first, 
while you underscore that that's our greatest concern right 
now, our national security concern here, and I would hope the 
concern of other countries in the region, that's what makes it 
a multilateral problem. That's what makes it the world's 
problem, not just the United States' problem, is the 
proliferation of--the nuclear technology, the proliferation of 
ballistic missile technology. But from the perspective of those 
in the Pacific rim themselves, do you believe they're more 
concerned about proliferation, or are they more concerned about 
a nuclear weapon changing the strategic profile of neighboring 
countries?
    Mr. Armitage. Clearly, Japan is more concerned about the 
latter, changing the profile. I think the Russian and the 
Chinese attitudes are slightly different. The last thing they 
want is this paranoid, difficult neighbor which borders them to 
be involved in a contretemps with the United States, or, at 
worst, some sort of military conflict which might ultimately 
end up with U.S. forces 25 or 30 kilometers from their border. 
Now, I'm not suggesting that at all, and let me reiterate that 
diplomacy is the preferred option, but it's that specter in the 
back of the mind, I think, of Chinese and Russian political 
leadership types that really bothers them. They're not as 
concerned about proliferation.
    Senator Sununu. Well, speaking of Russia and China, 
specifically, and the issue of the proliferation of ballistic 
missile technology, do you believe that those two countries 
have truly been helpful in dealing with this area of 
proliferation, or to what extent have they provided dual-use 
technology to North Korea that's made dealing with ballistic 
missile proliferation more difficult?
    Mr. Armitage. If I may, Senator, that's, sort of, two 
different questions. On the first half, generally, because of 
fears of difficulty with the United States, China and Russia 
have attempted to be helpful. Dual-use technology, however, 
comes from a variety of sources and is not limited at all, 
because of the dual-use nature, to Russia and China. There are 
many, many countries who have been involved--Germany, for 
instance.
    Senator Sununu. Have we been successful in placing any 
limitations or encouraging our allies to put limitations on the 
technology that's provided that might fall into the dual-use 
category, either for ballistic missiles or for nuclear?
    Mr. Armitage. We have, indeed, when we catch folks involved 
in this. And it's primarily a matter of intelligence giving us 
information on who's doing this, and then we try, through 
diplomatic means, to stop the transaction.
    Senator Sununu. So those limitations are already in place--
--
    Mr. Armitage. Yes.
    Senator Sununu [continuing]. But they're being violated, 
you believe, in Germany, they're being violated in Russia----
    Mr. Armitage. No, I mean----
    Senator Sununu [continuing]. They're being violated by the 
Chinese?
    Mr. Armitage. Well, our dual-use concerns, I'm saying there 
are many, many countries who have been involved in the 
provision of dual-use equipment. And, of course, by its very 
nature, it can be used for a very benign situation or it can be 
used for a less benign. And in some of the cases, we've found, 
they're--the end users are listed as a benign end user, but, 
indeed, they're subverted and converted to military use.
    Senator Sununu. But the question on my mind would be 
whether dual-use technologies are being provided in violation 
of agreements that we might have with Germany. Germany was the 
example that you gave.
    Mr. Armitage. Yes, I do not believe so, Senator.
    Senator Sununu. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Sununu.
    Senator Rockefeller.
    Senator Rockefeller. I would yield to Senator Corzine.
    The Chairman. We'll go momentarily to Senator Corzine, then 
back to Senator Rockefeller.
    Senator Corzine. Thank you, Senator Rockefeller. And I 
appreciate, Mr. Chairman, this hearing and the Secretary's 
testimony.
    I want to return to a line of questioning that was asked 
earlier about the February 1 ``Nuclear Plans Were Held Secret'' 
that was in the Washington Post, and I want to restate--re-ask 
the question. You are saying the Livermore report was not 
delivered to the White House and was not exposed to the 
administration?
    Mr. Armitage. No, I didn't say anything about the White 
House, sir. I said that it was not delivered to me. And my 
understanding, after investigating over the last couple of 
days, was that the Livermore effort was part of a more general 
gathering of intelligence for the Energy Department, and it was 
primarily, if not exclusively, limited to the R&D program, 
which we and the previous administration had some concerns 
about.
    Let me hasten to add that I'm not going to hang my hat on 
that, because I only know what I know, and that's what I've 
found out thus far. And if there's a change in that, I'll 
certainly get back to the committee.
    Senator Corzine. When we were in the midst of debating the 
use-of-force resolution with respect to Iraq, was the 
information, as I'm led to believe, with regard to the efforts 
to produce--or reprocess spent uranium, was that known? And was 
that a concern to the administration in the kind of context 
that you talk about, prudent military alert, today on the 
Korean Peninsula, in light of the Yemeni's shipment of 
missiles, in light of the battle that was spoken about in the 
west of the peninsula? Why wasn't that information useful or at 
least an important element with respect to our debates on what 
our priorities should be?
    And since the information was available, I'm concerned and 
troubled by not having that as part of the considerations we 
take into account when we're facing major issues about 
allocation of military resources.
    Mr. Armitage. Senator, the information about the production 
program of HEU was available in a memo to consumers. It was 
briefed, according to what the CIA tells me, to the 
Intelligence Committee. I know Jim Kelly--I had some 
conversations with some of the members of this committee 
immediately after Jim's trip to Pyongyang, and Jim--and I have 
met a whole host of contacts he had with members of the staff 
of this committee, and others, where--we made it very clear our 
view of the status of the HEU production program and what we 
had heard in Pyongyang. It was prior to your consideration of 
House Joint Resolution 114.
    Senator Corzine. That's certainly a limited number, but 
not, certainly, all of the Senate, I would presume.
    Mr. Armitage. No, I don't believe all the Senate, but it's 
quite a full list of staff and members who were briefed either 
by me, Mr. Kelly, or others, sir.
    Senator Corzine. Could you comment on a statement by, I 
believe, Mr. Bolton, with regard to North Korea's chemical and 
biological weapons, that they're using utmost efforts to 
produce chemical weapons, has one of the most robust offensive 
bio-weapons programs on earth, and how we feel about that as a 
risk to the United States, since North Korea has shown its 
proclivity for proliferation? And how do we compare that with 
the risks that are associated with Iraq?
    Mr. Armitage. We do believe that they--the North Koreans 
have both a robust biological program as well as a chemical 
program. We do not have good information about the 
weaponization of those programs. We have a real gap in our 
knowledge.
    North Korea is a signatory to the Biological Weapons 
Convention and not to the Chemical Weapons Convention, and I've 
just exhausted the sum total of my knowledge of that subject, 
sir.
    Senator Corzine. I would repeat one of the, sort of, 
framing of questions that I mentioned to you last week. 
Disarming weapons of mass destruction seems to be one of our 
policy objectives in Iraq. Proliferation is one of our policy--
or stopping proliferation is one of our policies that we are 
espousing in Iraq. Efficacy of the United Nations in 
international agreements under a law is one of those 
connections to terrorists. One at least has a reason to 
question why the analysis on one doesn't fit with the other and 
where our priorities are.
    Mr. Armitage. Sir, with all due respect, I think the only 
difference we have between the Iraq situation and the North 
Korea situation has to do with the nexus of terrorists and 
terrorism, where it's much more pronounced in the Iraq 
situation than it is in North Korea.
    It is true, quite true, that North Korea is on the 
terrorist list. And the reason that they're on the terrorist 
list is because they have not provided or given up the Red Army 
faction who has been hiding in Pyongyang--we have, and the 
international community has a lot of questions about that in 
the unique and very tragic situation of the abductees from 
Japan.
    But in terms of the rest of it, I think there's perfect 
analogy--indeed, to include the United Nations--because if we 
have the IAEA Board meeting on the 12th of February, as it is 
scheduled, that Board will then report to the Security Council 
their findings. So it's following a very similar track to the 
question of Iraq, thus far.
    Senator Corzine. Proliferation to Iran, as Senator Allen 
spoke about in his question, and Iran's connections with other 
terrorist organizations, transnational organizations, certainly 
would lead one to infer that there may be greater risks.
    Mr. Armitage. Yes, sir.
    Senator Corzine. Thank you.
    The Chairman. Thank you very much, Senator Corzine.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Mr. Armitage. Thank you, sir.
    Senator Rockefeller. It's been posited a bit that the 
Korean situation is disturbing, troubling, not necessarily a 
crisis. I look at--you look back at what happened in 1994, when 
Kim Il Sung--two extraordinary things--one, actually, he turned 
to his wife and said, ``What do you think about the MIAs,'' and 
she said, ``I think you ought to do it,'' and he said, ``It's 
done.'' Now, that was some time ago.
    In the meantime, things have gotten a lot worse in Korea, 
economically--North Korea--and you know, the reports are that 
soldiers coming back from--that are seen by our people, the 
South Koreans, may be 100, 115 pounds, kids are half the size 
of what they ought to be--and that the system is generally 
breaking down. Now, you know, that's been said.
    From that, you then have to compare the mind of Kim Il Sung 
to Kim Jong Il, and that we can't do very well, because we 
don't have, presumably, the assets on the ground to be able to 
penetrate that kind of thinking.
    I always think it's the better part of wisdom to assume 
that he's desperate. Why wouldn't he be? He has the United 
States putting him on the ``axis of evil.'' He has pressures 
from all around. He has a fading economy. He is in his 60s; he 
has a legacy to worry about. He's not in touch with the rest of 
the world, watches CNN, video, et cetera, but that really 
doesn't help the influence that his military brings upon him.
    And so my general approach would be that if--would be to 
start out--that it's safest, from the United States' foreign 
policy, to start out by assuming that this is a real crisis, 
which you said it was. You used the word ``crisis.'' Why not?
    In other words, if the fuel rods are moved, and if they're 
moved by truck, we won't detect it--who knows where they'll go. 
That could be happening as we talk. It could be happening in 
the next two or three things.
    So, two things. One is, time is not on our side. We may 
have a very, very short time window if Kim Jong Il is in a 
certain state of mind, he feels threatened, rebuffs the South 
Korean Foreign Minister for whatever reason, and, you know, the 
Chinese aren't putting a lot of pressure on him, nobody's 
putting a lot of pressure on him, such that we are, and he's 
got the bomb. Now, that's--Iraq doesn't have the bomb, at least 
as--reportedly. And he does. That's all he's got. That's all 
he's got for his people. That's all he's got to leverage for 
his people, what he desperately has always wanted.
    And back in 1994, I think it was about $5 billion coming 
from the South Koreans, the Japanese, and the European economic 
community; now it's--and coming from the Japanese for previous 
wrongdoings, and could be more. The prospect of a treaty with 
the United States--I agree with Joe Biden, I think if the 
President said this is important, if the American people began 
to understand, which I think they could do pretty quickly, 
particularly if those fuel rods are moved, the implications are 
well understood, that this could develop very, very quickly, 
perhaps on the same time track with Iraq, maybe just a little 
bit afterwards, but, anyway, very uncomfortably for the United 
States, not something to be put off.
    So my instinct is always to try to open the box, make the 
box larger, not smaller; give more opportunities, not fewer; 
take risks of diplomacy, as opposed to, sort of, holding back 
and saying we'll just wait, or we won't talk with them, or we 
won't talk with them unless they do such and such.
    Now, if you held out an agreement, a peace treaty 
agreement, with them--you ask them to verifiably stop what they 
are doing on a nuclear basis--but they had all of this economic 
aid, world approval, a sudden change of their position, the 
status that perhaps Kim Jong Il has sought all these years 
privately--we don't know. We don't know what's in the mind of 
either him or Hussein, in some respects, two of the people that 
we know the least about.
    Why is it not worth considering, sort of, a grander plan 
once again? It might be rejected. On the other hand, in the 
offering of it, we gain or we may cause him to think. And he 
needs the money, and his people are starving, and that time is 
running out for him.
    Mr. Armitage. I think it is a very provocative and very 
worthwhile question. If I can, however, I want to set the stage 
a bit.
    First of all, you are absolutely right, we have never seen 
what's theoretically impossible; that is, production of Marxist 
monarchy which we have here, as Kim Il Sung morphed into Kim 
Jong Il. So we're dealing with a creature we haven't had any 
experience with.
    There is--and you would know from your Intelligence 
Committee participation, sir--there's a very interesting 
personality profile of Kim Jong Il, and I call it to you and 
your colleagues' attention.
    Having said that, there is nothing wrong with considering 
the bold approach again. But this is not something--first of 
all, to set the stage again, when he, Kim Jong Il, was in the 
middle of his economic reform package, which he thought, 
apparently, was going to reap some benefits for his nation, he 
was also developing the HEU at the same time a previous 
administration, in perfect good faith, was trying to move 
forward with him.
    So he is--I don't gainsay that he is desperate right now, 
but part of the desperation has been he has failed, he has been 
found out. We know what he was up to. He was trying to have it 
both ways.
    Now, having said--I'd like to set the stage there, at least 
for my side--the question of whether to pursue a bold approach 
or not again is certainly on the table. It is not something, 
however, that an administration could do without setting a lot 
of groundwork in motion, not the least of which is up here. 
Because at the end of the day, there are real different views 
up here about the proper way to move forward, at least as my 
telephone logs would show. We get a lot of advice, all of it 
well-meaning, all of it sincere, but it's not in one direction 
or another.
    You've offered a provocative question, which I think is a 
good one, and it's not one that the administration is going to 
push and dismiss out of hand at all, seeing last year we were 
fully ready to have Jim Kelly move forward on just that type of 
approach.
    Senator Rockefeller. Thank you, Mr. Chairman. Thank you, 
Mr. Secretary.
    Mr. Armitage. Thank you, Senator.
    The Chairman. Thank you, Senator Rockefeller.
    It is 11:15, and we appreciate very much your time, Mr. 
Secretary. Likewise, on Thursday. You were very generous for 
over 3\1/2\ hours discussing Iraq. We look forward to your 
return.
    Mr. Armitage. It's both our duty and an honor to be here, 
Senator, and I thank you.
    Senator Biden. Mr. Chairman? Sorry, you go ahead and finish 
up.
    The Chairman. I would just say, parenthetically, that a 
comment has been made about taking the temperature of Capitol 
Hill and the Senate and our views, and I think that is 
important. Literally, if the thought that our negotiations, in 
some way, are inhibited by an informal vote count that the end 
result of this might not pass muster, that's a serious issue.
    My guess is, listening at least to the 13 colleagues who 
have addressed you this morning, that we are very concerned 
about the success of diplomacy, and specifically the diplomacy 
of our government and strongly backing what you and Secretary 
Kelly, others who may be in the field, are attempting to do. So 
please stay closely in touch, as I know you always do.
    But I just make this comment having at least caught the 
drift that perhaps Capitol Hill was an obstacle to this. I 
think, for the moment, we are intent upon seeing this as a very 
serious, very dangerous problem, without arguing its 
equivalence with Iraq or other issues, something that really 
has to be seized. And we appreciate your description of how 
you're doing that.
    Mr. Armitage. May I add--well, I want to correct the 
record, but I'd like to try to be a tiny bit more articulate on 
this. I agree with you that an informal poll of Capitol Hill 
should not inhibit the development of good, sound policy, but I 
want to hasten to make it clear that whatever course of action 
the administration finally sets upon, it is incumbent upon us 
to be very much in lockstep with the majority, and that takes--
with Members of the Congress--and that takes our willingness 
and ability to consult rigorously and throughout with you and 
your colleagues and on the House side, sir.
    The Chairman. Senator Biden.
    Senator Biden. Very briefly, Mr. Chairman.
    Back in the old days, when I was chairman of the Judiciary 
Committee, after a couple of fairly high-profile hearings on 
the Supreme Court a practice emerged whereby administrations, 
successive administrations, Democrat and Republican, I am told, 
would school the prospective nominees on how to appear before a 
committee. And they would watch tapes of how the committee, 
Judiciary Committee, functioned and witnesses before the 
committee, nominees, and how they responded.
    I respectfully suggest the administration should put out a 
tape of how you respond to questions. It would be a very good 
measure for the rest of the administration when they come and 
testify.
    Mr. Armitage. Thank you much, Senator.
    The Chairman. A high compliment, well deserved.
    Mr. Armitage. Thank you for you inspiration, sir.
    The Chairman. Thank you very much.
    We call now upon our distinguished panel of Ashton Carter, 
Stephen Bosworth, and Donald Gregg to come to the witness 
table.
    Gentlemen, we're very pleased that you are with us today. 
Let me introduce this panel more completely. And I will ask you 
to testify in the order that I introduce you and to please 
limit your initial testimony to 10 minutes, if possible, and 
then we'll proceed with questions of our Senate colleagues.
    The first to testify will be the Honorable Ashton B. 
Carter, who is now co-director of the Preventive Defense 
Project. He is former Assistant Secretary of Defense, and 
professor of Science and International Affairs at Harvard 
University in Cambridge, Massachusetts.
    And let me just say, as a point of personal privilege, Ash 
Carter was instrumental in providing to Sam Nunn and to me and 
to other Senators information with regard to Russian nuclear 
weapons, weapons of mass destruction, that formed the 
foundation for our legislation that has become known as the 
Cooperative Threat Reduction Program, and Ash Carter, himself, 
helped administrator that program in the Defense Department. 
It's a real privilege to have him here before us today.
    Our next witness will be the Honorable Stephen Bosworth, 
who is now dean of the Fletcher School of Law and Diplomacy at 
Tufts University. He is the former United States Ambassador to 
the Republic of Korea, and, equally importantly, in my 
judgment, our former Ambassador to the Philippines, and was the 
instrumental official at the time of the Philippine election of 
1986 in working with Secretary Schultz, with the President of 
the United States, and with the visiting American delegation 
that witnessed that election.
    Let me say that our third witness--and he has temporarily 
left us, but he will return, I suspect, shortly--is Donald 
Gregg, who is president and chairman of the Korea Society. He 
is our former United States Ambassador to the Republic of Korea 
and former Security Advisor to Vice President George Bush.
    Gentlemen, we welcome you, and we look forward to your 
comments.
    Secretary Carter.

  STATEMENT OF HON. ASHTON B. CARTER, CO-DIRECTOR, PREVENTIVE 
    DEFENSE PROJECT, FORMER ASSISTANT SECRETARY OF DEFENSE, 
    PROFESSOR OF SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD 
                   UNIVERSITY, CAMBRIDGE, MA

    Dr. Carter. Thank you, Mr. Chairman, members. Mr. Chairman, 
thank you for those kind words.
    I would like to share my recollections of the previous two 
crises involving North Korea, 1994, 1998, and some thoughts 
about the crisis in which we find ourselves today.
    I'm not an expert on North Korea. I'm fond of saying that 
there are no real experts on North Korea. There are 
specialists, but the specialists don't have much expertise.
    My knowledge of North Korea and Korean affairs came in, 
sort of, seat-of-the-pants fashion when I was serving as an 
Assistant Secretary of Defense in 1994, when, very similarly to 
now, North Korea was preparing, at that time, to remove from 
the research reactor at Yongbyon, the fuel rods containing five 
or six bombs worth of plutonium. The United States was trying 
to deal diplomatically with that threat, but we were also, at 
that time, considering military options.
    The then-Secretary of Defense, Bill Perry, ordered the 
preparation of a strike plan on Yongbyon, and we prepared a 
plan of that sort, which we were very confident would be 
successful at destroying the research reactor, entombing the 
plutonium at Yongbyon, destroying the reprocessing facilities 
and the other facilities there with a strike of conventional 
precision air-delivered weapons. We were, in fact, even 
confident that we could destroy an operating nuclear reactor of 
that kind while it was operating without creating a Chernobyl-
type radiological plume downwind, obviously an important 
consideration. Such a strike, had we carried it out, would have 
effectively set back North Korea's nuclear program many years.
    But while surgical in and of itself, the overall effect of 
a strike of that kind would hardly have been surgical. The 
likely result of that, or certainly a possible result of it, 
would have been the unleashing over the DMZ of North Korea's 
antiquated but very large ground force, a barrage of artillery 
and missile fire on Seoul and its suburbs.
    We and our allies, South Korea and Japan, would very 
quickly, in our estimation then, and I believe that's still 
true now, within weeks, have destroyed North Korea's military 
and destroyed its regime. Of that, we were as confident as we 
were confident that we could destroy Yongbyon in the first 
place.
    But a war there would take place in the crowded suburbs of 
Seoul, and the attendant intensity of violence and loss of 
life--ours, South Korean, North Korean, combatant, 
noncombatant--would have been greater than any the world has 
seen since the last Korean war and I think would shock the 
world with its violence and intensity.
    Fortunately, at that time--now, this is 1994--that war was 
averted by the negotiation of the Agreed Framework. Now, the 
Agreed Framework was controversial, it remains controversial, 
so it's important to know what it did and didn't do.
    What it did do was freeze operations at Yongbyon for 8 
years, until just a few weeks ago, verified by onsite 
inspection. The six bombs worth of plutonium was not extracted 
from the fuel rods then, and, for the subsequent 8 years, and 
no new plutonium was created in the reactor during that period. 
Had the freeze not been operating during that period, North 
Korea would have been able to produce enough plutonium for an 
additional 50 nuclear weapons.
    The Agreed Framework did not eliminate Yongbyon, but froze 
it. In later phases of the agreement, Yongbyon was to be 
dismantled, but we never got to those phases. Nor could or 
should the Agreed Framework be said to have eliminated North 
Korea's nuclear weapons program. For one thing, while the 
freeze was verified, there was no adequate verification going 
on elsewhere in North Korea that there wasn't a Los Alamos-like 
laboratory preparing the other wherewithal than fissile 
material required to make a nuclear weapon or a hidden--a 
uranium enrichment facility, which, as it turns out, there was.
    In addition--this was mentioned by Secretary Armitage--way 
back in 1989, North Korea extracted plutonium from some fuel 
rods. The amount's unknown. It could be as much as two bombs 
worth, as Secretary Armitage said. No one outside of North 
Korea knows where that plutonium is or how much of it there is. 
No technical expert, nobody in the physics community, my 
community, would doubt that North Korea has the intellectual 
wherewithal to make a bomb or two out of it if it had it. And, 
therefore, it could have a starter kit toward a nuclear 
arsenal. And, again, later phases of the Agreed Framework 
called for North Korea to cough this material up, but we never 
reached those later phases.
    So from a threat perspective, the Agreed Framework produced 
a profoundly important result for our security over 8 years, a 
thaw that is disastrously--I mean, a freeze, which is 
disastrously thawing as we speak. But it was an incomplete 
result, as events 4 years later--that is, 1998--would show. In 
that year, North Korea launched a ballistic missile over Japan.
    President Clinton, I think rightly, concluded that the 
United States, relieved, I suppose, over the freeze at 
Yongbyon, had moved on to other crises, like Bosnia, Haiti, and 
so forth. Not so, the North Koreans. And he judged that the 
United States had no overall strategy toward North Korea, 
toward dealing with this funny place. He asked Secretary of 
Defense--former Secretary of Defense Bill Perry to conduct an 
overall policy review and come up with an overall strategy, and 
Bill Perry asked me to be his senior advisor.
    We looked--we did exactly what you all would do--we looked 
at all of the logical alternatives. One alternative was to 
undermine the North Korean regime and try to hasten its 
collapse. And we looked at that very carefully. We could not 
find evidence of significant internal dissent in this rigid 
Stalinist state--however, certainly nothing like Iraq, let 
alone Afghanistan--that could provide a U.S. lever for an 
undermining strategy.
    And then there was the problem of mismatched timetables. 
Undermining seemed a long-term prospect, at best; whereas, our 
weapons of mass destruction difficulties were near-term.
    Finally, our allies would not support such a strategy. 
Since an undermining strategy is precisely what North Korea's 
leaders fear most, suggesting it is U.S. strategy without a 
program to accomplish it seemed to us doubly counterproductive.
    Another possibility we looked at was to advise the 
President to base his strategy on the prospect of reform in 
North Korea. Maybe Kim Jong Il would do in his country what 
Deng Xiaoping did in China, open the country up and encourage a 
more normal positioning in the international community for 
North Korea. One can certainly hope that, but hope's not a 
strategy. We needed a strategy. We needed a strategy for the 
near term. So we set that aside, as well.
    Summing up the first two options, our report, which is 
available in unclassified form, stated, and I quote, ``U.S. 
policy must deal with the North Korean Government as it is, not 
as we might wish it to be.''
    Another possibility was buying our objectives with economic 
assistance, and our report said that we could not offer, I 
quote again, ``North Korea tangible rewards for appropriate 
security behavior. Doing so would both transgress principles 
the United States' values and open us up to further 
blackmail.''
    In the end, we recommended that the United States, South 
Korea, and Japan all proceed to talk to North Korea, but with a 
coordinated message and negotiating strategy. After many trips 
to Seoul, Tokyo, and even Beijing to coordinate our approaches, 
in May 1999, Bill Perry and I and an interagency group, went to 
Pyongyang and presented North Korea with two alternatives. 
These are the two paths that Secretary Armitage, who was 
working outside of government along the same lines at the same 
time, referred to earlier.
    On the upward path, North Korea would verifiably eliminate 
its nuclear missile programs. And, in return, the United States 
would take political steps to relieve its security concerns, 
the most important of which was to affirm that we had no 
hostile intent toward North Korea. We would also help to 
dismantle its weapons facilities. Working with us and through 
their own negotiations, South Korea and Japan would expand 
their contacts and economic links.
    On the downward path, the three allies would resort to all 
means of pressure, including those that risked war to achieve 
our objectives. We concluded the policy review in the summer of 
2000, and I stepped down from my advisory role.
    Over the next 2 years, North Korea took some small and 
reversible steps on the upward path. Whether it would have 
taken further steps on this path is history that will never be 
written.
    And, finally, Mr. Chairman, and in closing, that brings us 
to today's crisis. News reports late last week indicated that 
not only is the freeze no longer on at Yongbyon, but North 
Korea might be trucking away the fuel rods where they can be 
neither inspected nor entombed by an air strike. This is the 
disaster we faced in 1994. But as this loose-nukes disaster 
unfolds and the options for dealing with it narrow, the world 
does nothing.
    This is especially ironic as the world prepares to disarm 
Iraq of chemical and biological weapons by force, if necessary. 
What is going on at Yongbyon as we speak is a huge foreign 
policy defeat for the United States and a setback for decades 
of U.S. nonproliferation policy. Worse, 17 months after 9/11, 
it opens up a prospect of nuclear terrorism.
    There are no fewer than five reasons why allowing North 
Korea to go nuclear with serial production of weapons is an 
unacceptable threat to U.S. security. First, as has been 
mentioned, North Korea might sell plutonium. Second, in a 
collapse scenario, loose nukes could fall into the hands of 
warlords or factions or whomever is around. Now, the half-life 
of plutonium 239 is 24,400 years. What's the half-life of the 
North Korean regime? Third, even if the bombs remain firmly in 
the hands of the North Korean Government, they're a huge 
problem. Having nukes might embolden North Korea into thinking 
it can scare away South Korea's defenders--us--weakening 
deterrence and making war on the Korean Peninsula more likely. 
Thus a nuclear North Korea makes war more likely. Fourth, a 
nuclear North Korea could cause a domino effect--this was said 
also earlier--in East Asia as South Korea, Japan, and Taiwan 
ask themselves if their non-nuclear status is safe for them. 
That's not a question we want them asking themselves or really 
that they want to ask--or they wish to have to ask themselves, 
but they might have to. And fifth and finally, if North Korea, 
one of the poorest and most isolated countries in the world, is 
allowed to go nuclear, serious damage could be done to the 
global nonproliferation regime. So that's five reasons, any one 
of which is riveting.
    What should we do at this juncture? Let me sum up with some 
suggestions--some factors that the administration might keep in 
mind as it attempts, as we tried to do in 1999, to formulate an 
overall strategy to head off this disaster.
    The first is, of course, that we have to make clear to 
North Korea that the concealment or a reprocessing of these 
fuel rods poses an unacceptable risk to U.S. security.
    The second thing we should bear in mind is that no American 
strategy toward the Korean Peninsula can succeed if it's not 
shared by our allies, South Korea and Japan. Their national 
interests and ours are not identical, but our interests do 
overlap strongly. And they can provide vital tools to assist 
our strategy, and they can also undercut and undermine our 
strategy if they're not persuaded to share it.
    Third, the unfreezing of Yongbyon is the most serious, 
urgent problem. In comparison to what they might have done back 
in 1989 as the starter kit, this moves them to a new plateau of 
serial production and a real arsenal. In comparison to the 
uranium program, which is a dribbling out of material in the 
years ahead, this is a big bang of immediate possession of a 
substantial cache of nuclear weapons. So the freezing of 
Yongbyon is the most serious problem.
    Fourth, President Bush has indicated that he intends to 
seek a diplomatic solution to this crisis. It's possible that 
North Korea can be persuaded to curb its nuclear ambitions, but 
we have to understand it might be determined to press forward.
    So whatever we do on the diplomatic front I think we have 
to view as an experiment. And in any diplomatic discussion, the 
United States must ultimately--our goal must be to obtain the 
complete and verifiable elimination of North Korea's nuclear 
program.
    Now, there's much debate over what the United States should 
be prepared to give in return and an aversion, which I share, 
to giving North Korea tangible rewards that its regime can use 
for its own ends. But it does seem to me that there are two 
things that the United States should easily be prepared to do.
    First, I indicated earlier that there's little reason to 
have confidence that North Korea will collapse or reform or 
transform soon, and little prospect that the United States can 
accomplish either result in a timescale required to head off 
loose nukes in North Korea.
    That being the case, a U.S. decision not to undermine the 
regime could be used as a negotiating lever. Much as we object 
to its conduct, we can tell the North that we do not plan to go 
to war to change it. Only the U.S. can make this pledge, which 
is why direct talks are required. We can live in peace, but 
that peace will not be possible if North Korea pursues nuclear 
weapons. Far from guaranteeing security, building such weapons 
will force a confrontation--that's what we need to argue to 
them.
    We can also argue that since North Korea has enough 
conventional firepower to make war a distinctly unpleasant 
prospect to us, as I noted earlier, it doesn't need weapons of 
mass destruction to safeguard its security. This ``relative 
stability''--and I believe that was a phrase the Secretary used 
earlier--in turn, if restored, this relative stability on the 
Korean Peninsula, can provide the time and conditions for a 
relaxation of tension and eventually improved relations if 
North Korea transforms its relations with the rest of the 
world.
    The second thing we should be able to offer is some 
assistance, with dismantlement, because at some point, Yongbyon 
has to be dismantled, as must the centrifuges for enriching 
uranium, the ballistic missiles and their factories, and the 
engineering infrastructure that supports them. The United 
States can surely suggest to North Korea that we participate in 
this process, both to hasten it and to make sure it takes 
place. This assistance would be similar to the Nunn-Lugar 
Program's historic efforts to prevent loose nukes after the 
cold war.
    Mr. Chairman and members, let me close with one final 
thought. Once nuclear materials are made, either plutonium or 
enriched uranium, they are exceedingly difficult to find and 
eliminate. These are not visible or highly radioactive 
materials. They last for thousands of years. In the case of 
uranium, 715 million years is the half-life. There is no secret 
about how to fashion them into bombs. They can fall into the 
hands of unstable nations or terrorists for whom cold war 
deterrence is a dubious shield, indeed.
    These facts describe America's and the world's dominant 
security problem for the foreseeable future. It's of the utmost 
importance to prevent the production of nuclear materials in 
the first place. Therefore, the main strategy for dealing with 
the threat of nuclear war--weapons must be preventive. And our 
most successful prevention program, such as Nunn-Lugar, have 
been done in cooperation with other nations, and maybe there's 
that possibility with North Korea. But, in exceptional cases, 
and maybe that's the case with North Korea, it may be necessary 
to resort to the threat of military force to prevent nuclear 
threats from emerging.
    Thank you.
    [The prepared statement of Dr. Carter follows:]

 Prepared Statement of Hon. Ashton B. Carter, Co-Director, Preventive 
    Defense Project, John F. Kennedy School of Government, Harvard 
                               University

                     THREE CRISES WITH NORTH KOREA

    Mr. Chairman and members of the Committee on Foreign Relations, 
thank you for inviting me to appear before this Committee to share my 
recollections about two previous crises with North Korea, and my 
suggestions regarding the current crisis.
1994
    I am not an expert on North Korea. I am fond of saying that there 
are no real experts on this strange place, only specialists, and they 
don't seem to have much expertise. I became acquainted with Korean 
affairs in seat-of-the-pants fashion when I was serving as Assistant 
Secretary of Defense for International Security Policy in 1994, when 
the first of the recent crises over North Korea sprang up.
    That spring North Korea was planning to take fuel rods out of its 
research reactor at Yongbyon and extract the six or so bombs' worth of 
weapons-grade plutonium they contained. The United States was trying to 
deal diplomatically with this threat, but in the Pentagon we were also 
exploring military options. Secretary of Defense William J. Perry 
ordered the preparation of a plan to eliminate Yongbyon with an 
airstrike of conventional precision weapons. We were very confident 
that such a strike would eliminate the reactor and entomb the 
plutonium, and would also eliminate the other facilities at Yongbyon 
that were part of North Korea's plutonium infrastructure. In 
particular, we were confident that we could destroy a nuclear reactor 
of this kind while it was operating without causing any Chernobyl-type 
radioactive plume to be emitted downwind--obviously an important 
consideration. Such a strike would effectively set back North Korea's 
nuclear ambitions many years.
    While surgical in and of itself, however, such a strike would 
hardly be surgical in its overall effect. The result of such an attack 
might well have been the unleashing of the antiquated but large North 
Korean army over the Demilitarized Zone, and a barrage of artillery and 
missile fire into Seoul. The United States, with its South Korean and 
Japanese allies, would quickly destroy North Korea's military and 
regime--of that we were also quite confident. But the war would take 
place in the crowded suburbs of Seoul, with an attendant intensity of 
violence and loss of life--American, South and North Korean, combatant 
and non-combatant--not seen in U.S. conflicts since the last Korean 
War.
    Fortunately, that war was averted by the negotiation of the Agreed 
Framework. The Agreed Framework was and remains controversial, so it is 
important to know what it did and did not do. It froze operations at 
Yongbyon for eight years, verified through onsite inspection, until 
just a few weeks ago. The six bombs' worth of plutonium was not 
extracted from the fuel rods, and no new plutonium was created during 
that period. Had the freeze not been operating, North Korea could now 
have about fifty bombs' worth of plutonium. It is worth noting that 
under the NPT, North Korea is allowed to extract all the plutonium it 
wants provided it accounts for the amount to the IAEA. I felt strongly 
in 1994 that the United States could not accept an outcome of 
negotiations with North Korea that only got them back into the NPT, 
still letting them have what would be in effect an inspected bomb 
program. Our able negotiator's instructions in fact were to tell the 
North Koreans they had to close Yongbyon. If they asked, ``Why can't we 
just abide by the NPT and make plutonium, inspected by the IAEA, like 
the Japanese do?'' the U.S. replied, ``Because you pose a special 
threat to international security.'' So the Agreed Framework went well 
beyond the NPT.
    The Agreed Framework did not eliminate Yongbyon, but only froze it. 
In later phases of the agreement, Yongbyon was to be dismantled. But we 
never got to those phases. Nor could, or should, the Agreed Framework 
be said to have ``eliminated North Korea's nuclear weapons program.'' 
For one thing, while the freeze was perfectly verified, there was no 
regular verification that elsewhere in North Korea there was not a Los 
Alamos-like laboratory designing nuclear weapons, or a hidden uranium 
enrichment facility--which North Korea has in fact recently admitted to 
having. In addition, way back in 1989 North Korea extracted plutonium 
from some fuel rods. The amount is unknown but could have been as much 
as one or two bombs' worth. No one outside of North Korea knows where 
that plutonium is. No technical expert doubts that North Korea could 
make a bomb or maybe two out of it--a ``starter kit'' towards a nuclear 
arsenal. Again, later phases of the Agreed Framework called for North 
Koreans to cough up this material, but these phases were never reached. 
Finally, the Agreed Framework did not stop the development, deployment, 
or sale of North Korea's medley of ballistic missiles.
    So from a threat perspective, the Agreed Framework produced a 
profoundly important result for U.S. security over a period of eight 
years--the freeze that is disastrously thawing as we speak. But it was 
an incomplete result, as events four years later would show.
1998
    In August 1998, North Korea launched a ballistic missile over Japan 
and into the Pacific Ocean. The launch produced anxiety in Japan and 
the United States and calls for a halt to the implementation of the 
Agreed Framework, principally the oil shipments that were supposed to 
replace the energy output of the frozen reactor at Yongbyon (in actual 
fact the Yongbyon reactor was an experimental model and was not used to 
produce power). If we stopped shipping oil, the North Koreans would 
unfreeze Yongbyon, and we would be back to the summer of 1994.
    President Clinton recognized that the United States, relieved over 
the freeze at Yongbyon, had moved on to other crises like Bosnia and 
Haiti. Not so the North Koreans. The President judged, correctly in my 
view, that the United States had no overall strategy towards the North 
Korean problem beyond the Agreed Framework itself. He asked former 
Secretary of Defense William J. Perry to conduct a policy review, and 
Perry asked me to be his Senior Advisor.
    We examined several options.
    One was to undermine the North Korean regime and hasten its 
collapse. However, we could not find evidence of significant internal 
dissent in this rigid Stalinist system--certainly nothing like in Iraq, 
let alone Afghanistan--that could provide a U.S. lever. Then there was 
the problem of mismatched timetables: undermining seemed a long-term 
prospect at best, whereas the nuclear and missile problems were near-
term. Finally, our allies would not support such a strategy, and 
obviously it could only worsen North Korea's near-term behavior, 
prompting provocations and even war. Since an undermining strategy is 
precisely what North Korea's leaders fear most, suggesting it is a U.S. 
strategy without any program to accomplish it is doubly 
counterproductive.
    Another possibility was to advise the President to base his 
strategy on the prospect of reform in North Korea. Perhaps Kim Jong Il 
would take the path of China's Deng Xiaoping, opening up his country 
and trying to assume a normal place in international life. But hope is 
not a policy. We needed a strategy for the near term.
    Summing up the first two options, our report--which is available in 
unclassified form \1\--stated, ``U.S. policy must deal with the North 
Korean government as it is, not as we might wish it to be.''
---------------------------------------------------------------------------
    \1\ ``Review of United States Policy Toward North Korea: Findings 
and Recommendations,'' Office of the North Korea Policy Coordinator, 
United States Department of State, October 12, 1999. [also available 
at: http://bcsia.ksg.harvard.edu/publication.cfm?program=CORE&
ctypebook&item--id]
---------------------------------------------------------------------------
    Another possibility was buying our objectives with economic 
assistance. Our report said the United States would not offer North 
Korea ``tangible `rewards' for appropriate security behavior; doing so 
would both transgress principles the United States values and open us 
up to further blackmail.''
    In the end, we recommended that the United States, South Korea, and 
Japan all proceed to talk to North Korea, but with a coordinated 
message and negotiating strategy.
    The verifiable elimination of the nuclear and missile programs was 
the paramount objective. Our decision not to undermine the regime could 
be used as a negotiating lever: much as we objected to its conduct, we 
could tell the North that we did not plan to go to war to change it. We 
could live in peace. But that peace would not be possible if North 
Korea pursued nuclear weapons. Far from guaranteeing security, building 
such weapons would force a confrontation.
    We could also argue that since North Korea had enough conventional 
firepower to make war a distinctly unpleasant prospect to us, it didn't 
need weapons of mass destruction to safeguard its security. This 
relative stability, in turn, could provide the time and conditions for 
a relaxation of tension and, eventually, improved relations if North 
Korea transformed its relations with the rest of the world.
    After many trips to Seoul, Tokyo and also Beijing to coordinate our 
approaches, in May 1999 we went to Pyongyang. We presented North Korea 
with two alternatives.
    On the upward path, North Korea would verifiably eliminate its 
nuclear and missile programs. In return, the United States would take 
political steps to relieve its security concerns--the most important of 
which was to affirm that we had no hostile intent toward North Korea. 
We would also help it dismantle its weapons facilities. Working with us 
and through their own negotiations, South Korea and Japan would expand 
their contacts and economic links.
    On the downward path, the three allies would resort to all means of 
pressure, including those that risked war, to achieve our objectives.
    We concluded the policy, review in the summer of 2000, and I 
stepped down from my advisory role. Over the next two years, North 
Korea took some small steps on the upward path. It agreed to a 
moratorium on tests of long-range missiles. It continued the freeze at 
Yongbyon. It embarked on talks with South Korea that led to the 2000 
summit meeting of the leaders of North and South.
    The North also began the process of healing its strained relations 
with Japan, making the astonishing admission that it had kidnapped 
Japanese citizens in the 1970's and 80's. And it allowed United States 
inspectors to visit a mountain that we suspected was a site of further 
nuclear-weapons work, a precursor of the intrusive inspections needed 
for confident verification. Whether North Korea would have taken 
further steps on this path is history that will never be written.
Today
    Mr. Chairman and members of the Committee, that brings us to 
today's crisis.
    News reports late last week indicated that not only is the freeze 
no longer on at Yongbyon, but North Korea is trucking the fuel rods 
away where they can neither be inspected nor entombed by an airstrike. 
This is the disaster we faced in 1994. But as this loose nukes disaster 
unfolds and the options for dealing with it narrow, the world does 
nothing. This is especially ironic as the world prepares to disarm Iraq 
of chemical and biological weapons, by force if necessary. What is 
going on at Yongbyon as we speak is a huge foreign policy defeat for 
the United States and a setback for decades of U.S. nonproliferation 
policy. Worse, seventeen months after 9/11 it opens up a new prospect 
for nuclear terrorism. There are no fewer than five reasons why 
allowing North Korea to go nuclear with serial production of weapons is 
an unacceptable threat to U.S. security.
    First, North Korea might sell plutonium it judges excess to its own 
needs to other states or terrorist groups. North Korea has few cash-
generating exports other than ballistic missiles. Now it could add 
fissile material or assembled bombs to its shopping catalogue. Loose 
nukes are a riveting prospect: While hijacked airlines and anthrax-
dusted letters are a dangerous threat to civilized society, it would 
change the way Americans were forced to live if it became an ever-
present possibility that a city could, disappear in a mushroom cloud at 
any moment.
    Second, in a collapse scenario loose nukes could fall into the 
hands of warlords or factions. The half-life of plutonium-239 is 24,400 
years. What is the half-life of the North Korean regime?
    Third, even if the bombs remain firmly in hands of the North Korean 
government they are a huge problem: having nukes might embolden North 
Korea into thinking it can scare away South Korea's defenders, 
weakening deterrence. Thus a nuclear North Korea makes war on the 
Korean peninsula more likely.
    Fourth, a nuclear North Korea could cause a domino effect in East 
Asia, as South Korea, Japan, and Taiwan ask themselves if their non-
nuclear status is safe for them.
    Fifth and finally, if North Korea, one of the world's poorest and 
most isolated countries, is allowed to go nuclear, serious damage will 
be done to the global nonproliferation regime, which is not perfect but 
which has made a contribution to keeping all but a handful of nations 
from going nuclear.
    Therefore, the United States cannot allow North Korea to move to 
serial production of nuclear weapons. As the U.S. attempts to formulate 
a strategy to head off this disaster, I would suggest that we keep four 
factors in mind:

          1. No American strategy toward the Korean peninsula can 
        succeed if it is not shared by our allies, South Korea and 
        Japan. Their national interests and ours are not identical, but 
        they overlap strongly. They can provide vital tools to assist 
        our strategy, or they can undermine our position if they are 
        not persuaded to share it. Above all, we must stand shoulder-
        to-shoulder with them to deter North Korean aggression.

          2. The unfreezing of Yongbyon is the most serious urgent 
        problem. North Korea also reprocesed fuel rods at Yongbyon way 
        back in 1989. In that period, it obtained a quantity of 
        plutonium that it did not declare honestly to the IAEA, as it 
        was required to do. How much is uncertain, but estimates range 
        as high as two bombs' worth. Whether North Korea has had a bomb 
        or two for the past fifteen years is not known. But for sure it 
        is today only a few months away from obtaining six bombs. The 
        North Koreans might reckon that's enough to sell some and have 
        some left over to threaten the United States and its allies. 
        North Korea also admitted last October that it aims to produce 
        the other metal from which nuclear weapons can be made--
        uranium. It will be years, however, before that effort produces 
        anything like the amount of fissile material now being trucked 
        from Yongbyon.

          3. President Bush has indicated that he intends to seek a 
        diplomatic solution to this crisis. It is possible that North 
        Korea can be persuaded to curb its nuclear ambitions, but it 
        might be determined to press forward. Therefore we need to view 
        diplomacy as an experiment.

          4. In any diplomatic discussion, the United States must 
        ultimately obtain the complete and verifiable elimination of 
        North Korea's nuclear program. There is much debate over what 
        the United States should be prepared to give in return, and an 
        aversion, which I share, to giving North Korea tangible 
        rewards, that its regime can use for its own ends. But it would 
        seem to me that there are two things the United States should 
        be prepared to do.

          First, I earlier indicated that there is little reason to 
        have confidence that North Korea will collapse or transform 
        soon, and little prospect that the U.S. can accomplish either 
        result in the timescale required to head off loose nukes in 
        North Korea. That being the case, a U.S. decision not to 
        undermine the regime could be used as a negotiating lever: much 
        as we object to its conduct, we can tell the North that we do 
        not plan to go to war to change it. We can live in peace. But 
        that peace will not be possible if North Korea pursues nuclear 
        weapons. Far from guaranteeing security, building such weapons 
        will force a confrontation. As noted above, we can also argue 
        that since North Korea has enough conventional firepower to 
        make war a distinctly unpleasant prospect to us, it doesn't 
        need weapons of mass destruction to safeguard its security. 
        This relative stability, in turn, can provide the time and 
        conditions for a relaxation of tension and, eventually, 
        improved relations if North Korea transforms its relations with 
        the rest of the world.

          Second, at some point Yongbyon must be dismantled, as must 
        the centrifuges for enriching uranium, the ballistic missiles 
        and their factories, and the engineering infrastructure that 
        supports them. The U.S. can surely suggest to North Korea that 
        we participate in this process, both to hasten it and to make 
        sure it takes place. This assistance would be similar to the 
        Nunn-Lugar program's historic efforts to prevent loose nukes 
        after the Cold War.

    Mr. Chairman and members of the Committee, the terrorist attacks of 
September 11 make clear that if nuclear weapons are controlled by a 
country enmeshed in social and political turmoil, they might end up 
commandeered, bought or stolen by terrorists. Who knows what might 
happen to North Korea's nuclear weapons as that state struggles to 
achieve a transformation, possibly violent, to a more normal and 
prosperous nation.
    Once nuclear weapons materials are made--either plutonium or 
enriched uranium--they are exceedingly difficult to find and eliminate. 
They last for thousands of years. There is no secret about how to 
fashion them into bombs. They can fall into the hands of unstable 
nations or terrorists for whom Cold War deterrence is a dubious shield 
indeed. These facts describe America's--and the world's--dominant 
security problem for the foreseeable future. It is of the utmost 
importance to prevent, the production of nuclear materials in the first 
place. Therefore the main strategy for dealing with the threat of 
nuclear weapons must be preventive. Our most successful prevention 
programs (such as the Nunn-Lugar program) have been done in cooperation 
with other nations, but in exceptional cases it may be necessary to 
resort to the threat of military force to prevent nuclear threats from 
maturing.

    The Chairman. Thank you very much, Dr. Carter, for that 
very important testimony.
    I understand that the witnesses have conferred and that 
Ambassador Gregg should proceed at this point. And so I 
recognize you, Ambassador. We're delighted that you are here 
with us.

 STATEMENT OF HON. DONALD P. GREGG, PRESIDENT AND CHAIRMAN OF 
 THE KOREA SOCIETY, FORMER U.S. AMBASSADOR TO THE REPUBLIC OF 
 KOREA, FORMER SECURITY ADVISOR TO VICE PRESIDENT GEORGE BUSH, 
                          NEW YORK, NY

    Ambassador Gregg. Thank you, Mr. Chairman.
    I have submitted testimony, which I assume will be in the 
record.
    The Chairman. It will be placed in the record in full.
    Ambassador Gregg. I listened with great interest to the 
questions directed at Secretary Armitage, and I very much agree 
with you, Senator Biden, that he's a terrific witness.
    I wanted to address a question that Senator Chafee asked. 
He's no longer here, but he said, ``What went wrong after 
1994?'' And I may have a somewhat unusual perspective on that 
since I went to North Korea twice last year, spent about 20 
hours talking with both military and political leaders, and I 
have some sense of what's on their minds.
    First of all, I would say that I think, although Kim Jong 
Il is in control, he has to work at that, and he works at it by 
his military-first policy. I think his hope to eventually 
develop North Korea into a more normal state is very much under 
suspicion on the part of his military and the hardline 
Communist/Marxist leaders.
    The North Koreans were full of questions in April, when I 
first went. ``Why is George Bush so different from his father? 
Why does George Bush dislike Bill Clinton so much? Why does 
this administration use such harsh rhetoric in describing us?''
    Senator Biden. Are you going to tell us the answers?
    I'm curious what you said.
    Ambassador Gregg. Well, I had one rule in the talks, and 
that was that I would not criticize my President any more than 
I would expect them to criticize their chairman.
    So my answer to the first question was, George W. Bush is a 
Texan, and his father was a New Englander. And my answer to the 
second question is that, George Bush doesn't like Bill Clinton 
because Bill Clinton defeated his father in 1992, and how would 
Kim Jong Il feel about somebody who had done something similar 
to that to his father?
    Why is the rhetoric so harsh? We're at war. We are very 
angry. We have seen horrible things happen in our cities. And 
that was really the reason that I wrote a letter to the 
chairman and said, ``It's imperative that our two countries 
talk.''
    My take on what I heard from them is that, from their 
signing of the 1994 Agreed Framework, they had hoped that this 
would be the start of a new era, but that with the election 
results of 1994, where there was a change in the leadership in 
at least--I've forgotten, was it both in the House and the 
Senate or both?
    Senator Biden. I haven't forgotten.
    The Chairman. Substantial.
    Senator Biden. Substantial change.
    Ambassador Gregg. There was a great deal of skepticism 
voiced about the Agreed Framework by the newly ascendant 
Republican leadership and some of the ancillary agreements 
designed to improve the overall relationship between North and 
South--North Korea and the United States were not--were not 
followed up.
    The terrific work that Dr. Carter and Secretary Powell did 
in 1998 headed off a second crisis, and things progressed very 
rapidly when North Korea sent Vice Marshal Jo Myong Rok to 
Washington. He was invited to the White House. He went there in 
uniform, which was quite a sight. He invited President Clinton 
to visit North Korea, and President Clinton sent Secretary of 
State Madeleine Albright to check that out.
    She came back, invited about 30 Korean specialists to 
dinner, and said, ``What do you think? Should President Clinton 
go?'' Two of the members there said, ``No, under no 
circumstances.'' About three said, ``Yes, you should, under any 
circumstance.'' The rest of us were spread out in the misty 
flats saying, ``Only go if certain things are settled.''
    Well, President Clinton almost went. And I was approached 
by his senior North Korean policy advisor in December 2000, who 
asked my advice on that. And I said, ``Well, I won't give 
advice, but I'll certainly listen to where you are.''
    I said, ``Do you have a missile deal?'' And she said, 
``Almost.'' She said, ``There were two or three very key 
questions that we are trying to get out of the North Koreans in 
Kuala Lumpur, but we can't get them to answer. We think they 
know the answer, but they won't answer.''
    I said, ``I think what Kim Jong Il is doing is holding 
those in reserve to give as presents to President Clinton if he 
goes.'' And the question, then, ``Does the American President 
go hat in hand to North Korea with the hope and expectation 
that he will get a missile deal?'' And I said, ``That's his 
choice.'' And in the end, he decided that he would not go.
    I think that the North Koreans had every expectation, 
because their overt behavior had not changed in any way, that 
there would be more continuity between Clinton and the incoming 
Bush administration than there was. Kim Dae-Jung came to 
Washington, I think in March 2001, had a very bad meeting, was 
told that a policy review was going to be undertaken.
    That was completed in June. The agenda from the policy 
review had changed. It was a much more difficult one for the 
North Koreans to come to grips with. Then came 9/11, which 
changed the world. And then came the State of the Union speech 
with the ``axis of evil'' rhetoric.
    After that, Jim Kelly prepared a bold approach. That was 
delayed by the sea skirmish between North and South Korea in 
the western Yellow Sea in June. And then we learned of the 
secret North Korean uranium enrichment program with the 
Pakistanis. And there were those in the administration who 
insisted that that be the No. 1 issue on Kelly's agenda when he 
went to North Korea. So here were the North Koreans, who had 
hoped for the start of a dialog, and all they got was 
confrontation.
    I'd like to say a word about the Pakistani connection. They 
have had a long and intimate association with the Pakistanis. 
They have dealt with Pakistani nuclear scientists and 
technicians, and I think, from those men, they have gathered 
the sense of security which Pakistan thinks it has accrued to 
itself by acquiring nuclear weapons. And I think that that has 
had a seductive impact on certain aspects of the North Korean 
regime.
    And so here we are. The hardest thing for me to explain is 
why they cheated on the Agreed Framework. And the best answer I 
can come up with is that they have not heard much support for 
the Agreed Framework from the administration. Some of its 
ancillary stipulations were not implemented. And the body 
language from this administration was very tough.
    I think they correctly assessed President Bush as a very 
effective, tough wartime leader. I think they expect the war 
with Iraq, if it comes, to be short. And I think that they have 
a heavy expectation that they are next. And I think that that 
accounts for their drive toward nuclear weapons.
    Can it be stopped? Don Oberdorfer, who accompanied me on my 
second trip, in November, is doubtful that it can be. I am more 
optimistic, because on two occasions I have seen last-minute 
interventions--the first by Jimmy Carter in 1994, which turned 
around a very dangerous situation; and the second, the 
intervention by Ash Carter and Bill Perry.
    I think the North Koreans want a security guarantee from 
the United States. They know that only we can give it, and that 
is why they are insisting on talks with us. And I was very 
relieved to hear that Secretary Armitage says these talks will 
take place.
    A word on South Korea. The South Koreans are, sort of, in 
shock at looking at who have they elected for President. And as 
Armitage said, it was a generational shift. Younger South 
Koreans have forgotten that they are suppose to be eternally 
grateful to us for 1950 and are more interested in their 
relations with North Korea than they are in maintaining 
relations with the United States which they feel have gone 
stale.
    Why do they feel that? I think they feel that, because 
although we have absolutely legitimate global concerns about 
proliferation, we have not been accurate in calibrating how 
those concerns impact in a regional context. And the South 
Koreans have heard much more about U.S. policy toward Asia from 
proliferation specialists, who know a great deal about 
proliferation, but know zero about Asia. They have seen far 
less of Mr. Kelly than they should have, and far more of other 
officials, who I think have not advanced our regional concerns.
    So I still am somewhat optimistic. I think the meeting 
between President Bush and the newly elected President Roh is a 
very important one. I think the South Koreans very much want to 
have our troops remain. I think they very much want to have us 
perceived as being in favor of reconciliation on the Korean 
Peninsula, and they have lost their clarity on that issue. So I 
think if we are somehow able to reassure them that we are 
interested in reconciliation, that we are not set on regime 
change in the north, they will be very much reassured.
    It's very difficult to sit here making any kind of a case 
for Kim Jong Il. Those of you who saw 60 Minutes two nights ago 
or saw the Newsweek cover 2 weeks ago, called Dr. Evil, I sort 
of, feel almost like a Quisling in saying we ought to deal with 
this guy. And yet I think that is our best option, and that, I 
think, is the unanimous view of North Korea's neighbors, and I 
think we ought to take that very seriously.
    Thank you very much, Senator.
    [The prepared statement of Ambassador Gregg follows:]

 Prepared Statement of Amb. Donald P. Gregg, President and Chairman of 
  the Korea Society, Former U.S. Ambassador to the Republic of Korea, 
         Former Security Advisor to Vice President George Bush

    There is a ``perfect storm'' brewing near the Korean Peninsula--it 
is not a typhoon but a political-military upheaval that is threatening 
to turn a 50-year-old relationship with South Korea on its head, and to 
bring about a radical change in the balance of military power in the 
region through North Korea's acquisition of nuclear weapons.
    In South Korea, where a presidential election was held in late 
December 2002, the candidacy of Roh Moo Hyun was supported decisively 
by younger voters who clearly showed that their top priority was the 
improvement of relations with North Korea, not the maintenance of 
longstanding ties to the U.S., which over the past several years have 
seemed to grow stale. The over-fifty set who preponderantly voted for 
Lee Hoi Chang are deeply upset by his defeat in this pivotal election, 
but the broad outlines of the policies enunciated by the president-
elect are unlikely to be reversed.
    I have never met president-elect Roh, but from what I hear he has a 
natural instinct for politics that makes him acutely sensitive to the 
changing dynamic on the Korean Peninsula. He is already positioning 
himself to be taken seriously when he makes his first trip to the 
United States following his inauguration later this month, and I feel 
confident that the Bush administration understands the importance of 
this visit and will treat him with all due courtesy. At the same time, 
there is no gainsaying the fact that there are significant underlying 
differences in perspective and strategy related to North Korea policy 
between the Bush administration and the incoming Roh administration. 
These differences will not be easily bridged without a concerted effort 
by both sides to accommodate each other's views.
    The challenge posed by North Korea is both very complex and highly 
dangerous. North Korea has always been a very difficult intelligence 
target, and our knowledge and understanding of the actions and 
motivations of its leaders are seriously deficient. What we do know is 
that they are deeply committed to their own world view and strongly 
resistant to the countervailing world views of outsiders--including 
those of their most immediate neighbors in the region. They also are 
notoriously tough negotiators who seem almost to relish taking a 
dangerous issue right to the brink.
    I visited North Korea twice in 2002. My first visit took place in 
early April after I had written directly to Chairman Kim Jong Il, 
saying that in the wake of 9/11 the U.S. government's heightened 
concerns about North Korea's weapons of mass destruction needed to be 
discussed frankly to avoid the eruption of dangerous misunderstandings 
between Pyongyang and Washington. During that visit I had about ten 
hours of discussions with a vice minister of foreign affairs and a very 
tough three star general posted along the DMZ. In the course of those 
discussions, I formed a distinct impression that the general's world 
view was notably different from that of the vice minister, which raises 
at least the possibility of something less than a monolithic point of 
view among the leadership of North Korea.
    The North Koreans were full of questions, mostly about President 
Bush. Why is he so different from his father? Why does he hate 
President Clinton? Why does he use such insulting rhetoric to describe 
our country and our leaders?
    The general, in particular, was very cynical about the U.S. He 
showed little trust in dialogue, and was harsh in his criticism of our 
implementation of the 1994 Agreed Framework. Still, at the end of our 
meeting he thanked me for coming such a long way, and said our talks 
had been, in part, beneficial.
    The vice minister bemoaned the lack of high-level talks with the 
U.S., such as had been held at the end of the Clinton administration. 
He expressed regret that President Clinton had not visited Pyongyang, 
asserting that a visit at that level would have solved many difficult 
issues. He said to me: ``You and I cannot solve the problems between 
our countries. Talks have to be held at a much higher level.''
    Upon my return to Washington, I strongly recommended that a high-
level envoy carrying a presidential letter be sent to Pyongyang to get 
a dialogue started. A Korean-speaking foreign service officer had 
accompanied me, and was most helpful in assuring that information from 
our visit was disseminated within the governmemt.
    Later, on October 3, I received a written invitation to return to 
Pyongyang. The invitation also indicated that the North Koreans had 
accepted my suggestion, made in April, that the USS Pueblo be returned 
as a good will gesture to the American people. The Pueblo was seized by 
the North Koreans in 1968, and had been converted into a sort of anti-
American museum, moored along the bank of the Taedong River in 
Pyongyang.
    From mid to late October, the U.S. government released information 
on Assistant Secretary of State Kelly's visit to Pyongyang that had 
taken place in early October. The visit had not gone well from the 
North Korean point of view as Kelly had confronted them about the 
development of a secret highly enriched uranium program using equipment 
acquired from Pakistan. I thought that this might mean that my visit 
would be cancelled, but it held firm and I went into Pyongyang in early 
November accompanied by the historian Don Oberdorfer, and Fred 
Carriere, vice president of The Korea Society, who is proficient in 
Korean.
    Our opening meetings were with the same two officials. Both men 
were deeply chagrined that the Kelly visit had been little more than a 
confrontation, but seemed upbeat about the improvements in their 
relations with South Korea and Russia. The general spoke effusively 
about ``cutting down fifty year old trees'' in the DMZ to facilitate a 
restoration of North-South rail connections, and said he was developing 
amicable relations with his South Korean counterparts. The vice 
minister told me that the return of the Pueblo was ``off the table.'' I 
went down to the river to see it. It had been moved. An old man who was 
exercising on the bank at the spot where the Pueblo had been moored 
told us that it had been moved to Nampo for ``repairs.''
    In all of our conversations, we made the point that the highly 
enriched uranium program was a violation of several agreements North 
Korea had signed with both South Korea and the U.S. When we asked the 
general ``when and why'' the program had been started, he blandly 
responded: ``I am not required to answer that kind of question.''
    In our meetings with the vice minister, we stressed the need for 
North Korea to stop its HEU program, which was of great concern to the 
U.S. and to all of North Korea's neighbors. We were told that ``all of 
the U.S.'s nuclear concerns will be cleared if the U.S. agrees to sign 
a nonaggression pact, shows respect for our sovereignty and promises 
not to hinder our economic development.''
    Toward the end of our visit we also met with First Deputy Foreign 
Minister Kang Sok Ju, who is probably Kim Jong Il's closest foreign 
policy advisor. Minister Kang said that Chairman Kim had referred 
positively to President Bush's statement in South Korea that the U.S. 
has no intention of attacking North Korea, and urged that the United 
States respond boldly to North Korea's requests as stipulated in our 
previous discussion with the vice minister.
    Don Oberdorfer and I reported directly to the White House upon our 
arrival in the U.S. a few days later, after a brief stopover in Seoul. 
We urged that a positive dialogue with North Korea be started. In 
response, we were told only that initiating a dialogue would serve only 
to ``reward bad behavior'' on the part of the North Koreans. On 
November 15, the U.S. and its KEDO allies announced a cut-off of future 
oil shipments to North Korea. North Korea was quick to respond by 
evicting IAEA inspectors, shutting off surveillance cameras, announcing 
its withdrawal from the NPT and making a number of other moves 
suggesting that they may have decided to develop a nuclear weapons 
capacity--most notably, the recent indications of a possible movement 
of spent fuel rods from the containment pond at Yongbyon.
    Why has this happened? I believe it is because the North Koreans 
take seriously the harsh rhetoric applied to them by many prominent 
Americans, including leading members of the Republican Party since the 
congressional elections of 1994 and the Bush administration since 2000. 
From their long association with Pakistani nuclear scientists and 
technicians, the North Koreans have most probably observed the sense of 
security that Pakistan derives from its nuclear weapons. In addition, 
the North Koreans appear to perceive President Bush as a tough and 
effective war leader, and probably assume that the Iraq war will be 
short, leaving North Korea next in line for military action.
    Can this North Korean lunge for nuclear weapons be stopped? Some 
experts think it is too late. I am not quite so pessimistic. Less than 
ninety days ago, the North Koreans wanted to talk. Today we are in the 
bizarre position of saying ``we're not going to attack you, but we 
won't negotiate with you.'' This gives North Korea no incentive to do 
anything but proceed to build a nuclear weapons capacity.
    The ``perfect storm'' I mentioned at the beginning of this 
testimony may destroy the balance of power in Northeast Asia, or it may 
escalate rapidly to a point of real danger as it did in 1994. I still 
believe that it may be turned aside by the establishment of meaningful 
dialogue with North Korea. We'll never know what might have been 
avoided, unless we talk. In my view, it would be a miscalculation of 
unprecedented proportions if we failed to pursue the only viable option 
to change the course of a morally repugnant regime, and avoid a 
catastrophe on the Korean Peninsula, solely out of an understandable 
but ultimately shortsighted refusal to ``reward had behavior.''

    The Chairman. Well, thank you very much, Ambassador Gregg, 
and I express, I am sure, the feeling of all the members of my 
committee to you and your colleagues at the table that you have 
been important friends of the South Koreans and, likewise, 
important interlocutors with the North. And we appreciate the 
wisdom from those experiences you've just told so well.
    Ambassador Bosworth.

  STATEMENT OF HON. STEPHEN W. BOSWORTH, DEAN OF THE FLETCHER 
  SCHOOL OF LAW AND DIPLOMACY, TUFTS UNIVERSITY, FORMER U.S. 
AMBASSADOR TO THE REPUBLIC OF KOREA, EXECUTIVE DIRECTOR OF THE 
 KOREAN PENINSULA ENERGY DEVELOPMENT ORGANIZATION, MEDFORD, MA

    Ambassador Bosworth. Thank you very much, Mr. Chairman.
    First of all, it is a pleasure to be here with the 
committee. I look forward to having the opportunity, perhaps, 
to respond to some of your questions.
    I just, for the purpose of the record, I would note that, 
in addition to my service in Korea as Ambassador, I was also 
the first executive director of the Korean Peninsula Energy 
Development Organization, the body that was charged, for better 
or for worse, with building light-water reactors in North 
Korea, and I served in that position from 1995 to 1997, during 
which time I had extensive contacts with North Korean 
negotiators and learned how difficult they can be, which 
tempers any remarks I might make here this morning.
    This is an extraordinarily difficult problem. It has 
bedeviled successive American administrations. And I think it 
would be unfair for anyone to sit here before this committee 
and say, ``Well, there is a simple solution to this,'' an 
easily identifiable formula through which can deal with this 
extraordinary complex of very tough and dangerous issues.
    I am going to make just a few brief points about North 
Korea, what might be its motivation, and then comment briefly 
on South Korea and the U.S./South Korean relationship.
    First of all, I think the best way to think about North 
Korea and what it is doing is to bear very much in mind that 
every act it takes has a connection to its desire to survive as 
a regime. It has no friends. It, in its view, has no meaningful 
connection with countries around it, nothing that it is not 
willing to sacrifice, and it has no shame, nor any guilt. Its 
only objective is regime survival.
    Now, that means, on the one hand, that it is 
extraordinarily desirous of economic assistance to take account 
of the fact that its economy is not just collapsing; its 
economy has collapsed. Industrial production is 20 to 30 
percent of what it was 10 years ago. Energy output has fallen 
by a similar measure. We know they cannot feed their 
population. This is a country whose economy has collapsed.
    However, at the same time, I think we should not 
underestimate the extent to which a desire for a peculiar form 
of international respect also motivates North Korea. And there 
is, difficult as it may be for us to understand or, certainly, 
to explain, a sense in North Korea that they want to be 
respected. They want to be taken seriously by the outside 
world. And I suspect that, to some extent, the nuclear program 
is designed to ensure that they are taken seriously in one 
measure or another.
    I do not know what North Korea's goal is with regard to its 
nuclear program. I have been of the view for some time, even 
when the Agreed Framework was still in place, before we knew, 
certainly, about the enriched uranium program--many of us had 
suspected that North Korea had retained some vestige of a 
nuclear-related program, if only as part of a hedging strategy. 
And when the HEU program was first unveiled, that was my 
assumption, that it was--we had found their hedge.
    They have subsequently, of course, taken this step-by-step 
process of breaking out of the Agreed Framework, and they are 
now reactivating their plutonium program, which, as Dr. Carter 
has pointed out, is a much more threatening activity, because 
it is much more imminent.
    But I do not know whether they really want to become a 
nuclear power. Do they see that now as the key to their 
regime's survival? Or is it possible that they still consider 
this nuclear program, the Yongbyon program, as they did in 
1994, something that they are willing to bargain away? The only 
way we will know that is to talk to them and test it.
    In dealing with North Korea, as has been said here, it is 
absolutely essential that we do so in lockstep with the 
Republic of Korea. We must have a common strategy, and we must 
have an agreed allocation of responsibility in terms of how we 
deal with North Korea in the negotiating, both through a mix of 
carrots and sticks. Many of the carrots can only come from 
South Korea. And, at the same time, many of the sticks must 
come from South Korea in the form of withdrawn carrots, if you 
will.
    South Korea now has established a position of some economic 
leverage over the North. And unless South Korea is willing to 
put that out on the table, our effectiveness in dealing with 
the North Korean regime is going to be very limited, indeed.
    Now, what is the problem with South Korea? I think, 
basically, the problem with South Korea is, first, 
generational. Yes, it is true, as Ambassador Gregg has said and 
others have said today, that those South Koreans under the age 
of 50 have no acute memory of--firsthand memory of the Korean 
war, and their sense of gratitude to the United States has 
perhaps eroded a bit.
    Moreover, I think there is no question that a large number 
of South Koreans perceive that this administration has been 
employing what they term politely a hard-line policy toward 
North Korean. And that bothers them, because they see that as 
being diametrically opposed to the efforts of their own 
government, the ones still serving and the one they have just 
elected, to pursue a policy of reconciliation toward North 
Korea.
    So they have come to view--some, and some have told me this 
explicitly--come to view the United States no longer as just 
part of the solution, but as, indeed, part of the problem. And 
I think that is a matter that requires urgent consultation to 
resolve.
    There is also, I think, an asymmetry in terms of South 
Korea's assessment of the threat and the risks of dealing with 
that threat, as compared with our assessment of the 
relationship between the threat and the risks of dealing with 
it.
    For us, the threat of North Korea as a nuclear power is a 
global concern. It has to do with other states. It has to do 
with non-state actors. It is, in some ways, the only 
perceptible threat to American national security--not just from 
North Korea, but weapons of mass destruction in the hands of 
people who would threaten their use--is really the only, last 
threat to American national security. So we are willing to pay 
a very high price to ensure that that threat does not grow. 
Indeed, the discussion of coercive diplomacy that some have 
engaged in is simply a euphemism for saying, ``Yeah, we're 
willing to use military force if absolutely necessary.''
    For South Korea, the threat it not a global threat, and 
many South Koreans do not perceive that their security would be 
severely worsened by North Korea's development of nuclear 
weapons. Yet they accurately perceive that an effort to deal 
with that threat that went beyond diplomacy would impose a very 
heavy burden on them. So they accept or incur what, from their 
point of view, is an unacceptable level of risk in trying to 
combat a threat, which they see also as a threat, but they do 
not see it in the same way that we do. And we see the risk as 
involving essentially the Korean Peninsula and northeast Asia.
    So I think that it is essential that the administration, 
that this government, reinforce its efforts to try to come to 
grips with and tackle the differences between ourselves and the 
Republic of Korea.
    I am convinced that the new administration in South Korea 
very much wants a stable, good relationship with the United 
States. I think they are eager to begin a process of close 
consultation with the objective of doing in 2003 what we did in 
1998 in the exercise that Bill Perry led, and that is come to a 
common assessment of the facts, come to an agreement on what a 
desirable strategy would be for dealing with those facts, and 
then allocate responsibilities between the two of us and with 
other countries in the region.
    But in order for that to happen, the United States, I 
believe, has to move very quickly to engage directly with North 
Korea. Yes, it is very desirable to have a multilateral 
framework within which those bilateral contacts take place, but 
there is no substitute in the current constellation of forces 
in northeast Asia, nor, indeed, in the one that is likely to be 
present in the future, for direct, active leadership by the 
United States.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Ambassador Bosworth.
    Let me commence my line of questioning by indicating that 
we welcome the special envoy of the incoming President of South 
Korea, who is here visiting with Secretary Powell this morning, 
even as we speak. It will be my privilege to see him this 
afternoon, and I look forward to that opportunity. He will be 
seeing other Senators, I am certain.
    And in those conversations, I hope that we will be able to 
convey to the incoming President, as well to the outgoing 
President, that we are good listeners, we are partners, and we 
are strong allies, but, likewise, try to discover, as all three 
of you tried to illuminate, what has gone wrong in the 
relationship, because it is extremely important that 
relationship be made stronger and very, very promptly, in terms 
of the interests of our two countries as well as others who are 
counting upon us, the South Korean responsibility being that 
which you have talked about, and ours, likewise.
    I think the chairman and I and others today have tried to 
emphasize our feeling that direct talks between North Korea and 
the United States are important and urgent. And Secretary 
Armitage pointed out that we have been waiting for the new 
administration to come in, to get its feel of the situation, 
and so forth. But as Secretary Carter pointed out, while that 
wait proceeds, so may the nuclear proliferation threat which he 
has described so accurately and which he has been describing 
for the last decade, really, with very specific detail. That 
may get beyond the point of control by either South Korea, the 
United States, or our friends who are involved. So there is a 
special urgency here.
    My question, I suppose, to the three of you is, if you were 
visiting, and you may, with the special envoy, how are we able 
to make the point to the South Korean administrations, present 
and future, that the urgency of hearing about trucks going 
along the road, about the potential lifting of rods, the 
building of weapons even as we think about this, why is that 
that important?
    As you have pointed out, Ambassador Bosworth, the South 
Koreans could calculate that a North Korea with nuclear weapons 
is certainly not a good thing, but, on the other hand, all 
things considered, that our feelings, the United States' 
feelings, about our security, weapons of mass destruction, the 
intersection with terrorists, is our situation, and they may 
sympathize with that, but they are not really clear that is all 
that big of a deal as far as they are concerned.
    I do not depreciate that, but I would suggest that we have 
two different timetables going on here, I think. Those of us 
who are genuinely worried, and I hope all of us are, about 
weapons of mass destruction, or materials that bring about 
those weapons falling in to the hands of terrorists of other 
regimes, of trades and transactions, that this is our national 
security, this is the ball game. Now, that is proceeding, even 
day by day, and yet it seems to me, in terms of our diplomatic 
strategy, the timetable is much less precise, and, as a matter 
of fact, does not exist at all, except stability for the new 
regime in South Korea. We hope somehow the Chinese come to a 
different point of view, the Russians might be more helpful, 
ditto for the Japanese, everybody, with the North Koreans, it 
seems to me, precisely rebuffing each of these entrees, 
indicating, ``We're not interested in you. We're interested in 
the United States.'' That is the talk we want to have.
    How do we get this together with the South Koreans quickly, 
because for us to proceed in these direct talks, as all of us 
are advising, we run the dangers still of perhaps not having 
the sensitivity we need toward the South Korean viewpoint, 
which may be distinctly different, or falling through the 
transition of the administrations, or various other things. 
And, as you pointed out, Ambassador Bosworth, from your own 
experience with these negotiators from North Korea, it is very 
discouraging.
    It is all well and good for us to talk about having talks. 
I have not had nearly so many with difficult people in the 
world as the three of you have had, but we have talked to a lot 
of very difficult people, dangerous people, people that are not 
good people, people that are evil. And we have talked to all 
these people because we thought, conceivably, something good 
for the United States and the world might come from that.
    Can you offer some more enlightenment, any of the three of 
you, in response to this plea, really, for assistance?
    Dr. Carter. I would just--two observations. It is an 
excellent question, and it is a particularly timely one, 
because, as I think everyone here has been emphasizing, we 
cannot succeed with our objectives unless we are together with 
the South----
    The Chairman. With South Korea.
    Dr. Carter [continuing]. Koreans. And the same thing is 
true of them. So what is the basis? Our interests do not 
coincide. They overlap, but they do not coincide.
    I would make two arguments to the South Koreans in that 
regard. The first one is that the pursuit of nuclear weapons by 
North Korea does make war on the Korean Peninsula more likely. 
It is not just a matter that they can fall into the hands of 
terrorists or get out and, thereby, come back at the United 
States, but not at South Korea. That is true, too, but it is 
also true that South Korea has enjoyed, prospered, grown its 
economy, democratized against a background of stable deterrence 
on the Korean Peninsula. Pursuit of weapons of mass destruction 
by North Korea can disrupt that stability which they have 
enjoyed for decades by convincing North Korea that it has 
something more than its conventional army, that it can change 
the equation in some way. So that does threaten South Korea's 
security.
    But the other part of the answer, I think, has to be to 
them--and this is something that we always try to remember in 
talking to the South Koreans and the Japanese--when we go to 
the table with the North Koreans, we cannot just go to the 
North Koreans with what we want. We have to go to the table 
with what the Japanese and the South Koreans want, also; and, 
likewise, they, when they go to the table with the North 
Koreans, need to go with what we want.
    So when we talked to the North Koreans, we always mentioned 
the abductee issue. That was not an American issue; it was an 
allied issue. And if we want the Japanese to back us and want 
what we want, we have to want what they want to some extent. 
There has to be a common portfolio of desires and then a common 
portfolio, as Ambassador Bosworth said, of carrots and sticks 
put forward.
    So they need to back us a little bit where our interests 
overlap but do not coincide, and we need to do the same for 
them.
    The Chairman. Ambassador Bosworth.
    Ambassador Bosworth. Very briefly. I think that, in terms 
of South Korea, we need basically two things. One, we need a 
process which does not appear to the South Korean public that 
the United States is dictating to its new government.
    This is a newly assertive South Korea, and the electorate 
will insist, as they demonstrated during the election itself, 
that its government stand up to the United States. Now, it is 
sad to say that we are at that point, but they have a deep 
suspicion that the United States is going to try to dictate a 
policy to their new government which responds to American goals 
and objectives and interests and does not respond to theirs. So 
we need a process which avoids that. And I think, personally, 
until we have gone a lot further in discussing these issues 
with the new government in South Korea, it might be just as 
well not to try to be precipitate about a meeting between the 
two chiefs of state.
    The other thing is that we need a U.S. policy. What is it 
we are trying to convince South Korea to do? I mean, as someone 
who follows this all very carefully, if I had to go back over 
the last 2 years and say, ``This is what we've been attempting 
to do,'' it would be very difficult for me. So I think that we 
have to have a policy that we can ask the South Koreans to 
coordinate with us on.
    The Chairman. Do you have a further thought, Mr. Gregg.
    Ambassador Gregg. Just a couple. I had breakfast yesterday 
morning with the chairman of one of South Korea's leading 
corporations. They make microchips, a multi-billion-dollar 
success. They have some very basic concerns. One, they are 
worried that--the new President, when he comes--will not be 
received with the proper courtesy. I assured them that he would 
be. Second, they are worried that our President is focused on 
regime change rather than working with North Korea as it is, as 
repulsive as it is. And this may be the voice of old Asia, to 
paraphrase Secretary Rumsfeld's statement but they were saying 
that if you want to remove a leader in Asia, if you want to 
remove the mandate of heaven from him, that has to be done by 
his own people. And so they said, ``Help us to open up the 
windows in North Korea. And then if he still has the mandate of 
heaven, we can work with him.''
    And then, finally, they said Roh Moo Hyun is a lawyer and 
that everything that the President says to him must stress 
logic and evidence.
    The Chairman. Well, I thank you, all three of you, for this 
advice. I gleaned that you would say to the South Korean 
emissary, first of all, that we believe that these talks 
between our two countries are tremendously important. They need 
to be constant. We really have to go into a crash course of 
learning where we are now.
    But as Secretary Carter has pointed out, make the point to 
the South Koreans that nuclear weapons in North Korea probably 
caused them a cause for alarm, in terms of their own stability 
they may or may not have perceived--fully perceive this. But at 
least I think that is an important point, that we are going to 
talk, if we have these talks, for all three of us, the Japanese 
abductees issue and others that may come into the thing. But 
then to recognize that we have some work to do with our own 
policy, as Ambassador Bosworth has pointed out.
    We have to determine what we want. Now, I think what we 
want is a termination of the weapons of mass destruction 
program, really a cleanup of the whole lot, international 
inspections so that we are convinced.
    It seems to me that that is clearly what we want, but that 
is--may be just a personal preference. I think it is such an 
extraordinary point, though, with regard to our overall war 
against terrorism, the overall security of the United States, 
as we have talked about, that this may very well be a point 
that others could agree upon.
    And, finally, I appreciate the point that Secretary Carter 
has made. Whether it is called a Nunn-Lugar program or not, 
there may come a time in which the cleanup is expensive. If you 
were to go about rendering safe all of this, the resources are 
probably not there in North Korea to do it any more than they 
are in the former Soviet Union. And we still have trouble 
making that point annually with regard to chemical weapons or 
other situations that we are working through. But it is 
probably important to start, because if, in fact, there is to 
be safety for the North Koreans, the South Koreans, for us, for 
everybody else, that probably is going to require a very 
concerted effort on our part, including technicians, finances, 
and a multi-year training to get the job done.
    Senator Biden.
    Senator Biden. The Senator has a time constraint so I will 
yield to Senator Dodd.
    The Chairman. OK. Senator Dodd.
    Senator Dodd. Well, thanks, Senator Biden. Thanks to my 
colleague, Joe, very, very much.
    And I said at the outset of my remarks awhile ago, in front 
of Secretary Armitage, how important these hearings were. And 
let me say again Mr. Chairman, how much I appreciate it.
    This has been an incredibly informative hour or so 
listening to these three gentlemen, who I have known and dealt 
with, to some degree, over a number of years. I remember being 
in the Philippines, I think, with Ambassador Bosworth about the 
same time you were, Mr. Chairman, going back to the mid-1980s 
and the catastrophic events and the tremendous job you did 
there. And, as well, Ambassador Gregg, your work over the years 
and Secretary Carter, as well.
    So I thank you immensely. This testimony has been 
tremendously worthwhile.
    I am disappointed more of our colleagues are not here to 
hear this. There are reasons. Today there is a delegation on 
its way to Houston to participate in the memorial services. And 
so those watching this may wonder why more members are not here 
to listen to what you had to say. That had something to do with 
it.
    But I would hope that members will pay attention to this 
and to listen very carefully to what you had to say. Your 
testimony has been tremendously informative.
    Let me pick up the point that Senator Lugar was making, 
again, and that is, I think all of us, at least those of us 
here, I think agree that we need to have this conversation 
pretty quickly, these talks with North Korea, and that any 
delay in that is foolhardy.
    But obviously, before that can happen, the point that 
Senator Lugar was raising is, we have to decide what we want. 
And I get the sense, once again, as I watched the debate going 
on within the administration about Iraq, I have a sense that is 
occurring. I think a debate within the administration is 
healthy. I am not suggesting they should not be. But I am 
concerned and I want to ask you about this.
    In your mind, is this a significant debate that goes beyond 
just what we want out of North Korea, but what we want, in a 
larger sense, between the factions who advocate arms control or 
a Nunn-Lugar approach, or those who advocate a missile defense 
approach?
    I am concerned that what I am watching here is this debate 
that almost--and I use these words very guardedly--but almost 
welcomes, to some extent, this renewed threat. It gives cause 
and justification for a whole new approach to dealing with the 
geopolitical problem, and that is of a proliferation of 
weaponry and your response to it. And I am very worried that 
there are those who--when I begin to look over the last couple 
of years, I can accept the fact that some poor choice of words 
is in a speech. Lord knows, every one of us on this side of the 
table is engaged in that at one time or another. I can accept 
the fact that you want to have a review of a policy decision. I 
can accept a litany of these things. But after awhile, you 
begin to wonder if there is not a pattern here that goes beyond 
just, sort of, a series of accidents and begins to look like 
something more planned and well thought out in terms of what 
you are ultimately trying to achieve.
    And I am worried, in a sense here, that those who advocate 
an approach that would commit us to a massive missile defense 
system are prevailing in this debate, and, hence, the 
reluctance to have these kind of talks and to deal more 
forthrightly with this problem.
    And so what do we want? What does the administration want? 
Are my suspicions about this debate accurate, in your view? Do 
you think that there is a larger debate going on here beyond 
North Korea that is holding up a decision on how to deal with 
this? Or is that an exaggerated view of mine? And if it is, I 
want you to tell me so.
    Ambassador Bosworth. Well, Senator, for myself, I would 
only say that having served in various administrations of both 
parties, I am somewhat reluctant to comment on what may be 
going on inside, because I think they are very much like a 
marriage, and unless you are on the inside, you really do not 
know. And even when you are on the inside, you may not know 
everything that is going on.
    My sense is that, at one point, perhaps, the arguments you 
make or the observation you make may have been actually quite 
correct. But I think when this goes beyond just a missile 
problem and becomes a problem of, as Ash Carter says, ``loose 
nukes'' in northeast Asia that that should, sort of, take care 
of the argument about whether or not we use this as 
justification for national missile defense.
    It seems to me that there is a deeper sort of question 
here, and that is the--how does this country, as powerful as we 
are, how do we deal with bad things in the world and bad 
people? And I think there is--as objectively as I can state 
this, there is a tendency, on some issues, to approach them 
from a perspective of what one might describe as moral 
absolutism rather than from the perspective of how you can 
manage the problem. And that brings you to things like regime 
change as an ultimate goal.
    I have no willingness or desire to see the regime of Kim 
Jong Il continue any longer in North Korea, but I am concerned 
about how you bring that about, and I think that is the 
question that has to be constantly reexamined.
    Senator Dodd. Secretary Carter.
    Dr. Carter. Ambassador Bosworth just touched on the point--
a precise point I was going to make. In dealing with North 
Korea, there is kind of a threshold question, given the 
behavior of the government with respect to its own people. And 
I remember the famine days of 1996 to 1998, and that was truly 
upsetting, I think, to any human being who has children and 
sees children in the condition that North Korean children were 
in because of the inability of their own government to give 
them what they need.
    And we are talking about dealing, as I quoted from the 
Policy Review report, with the government as it is, not as we 
wish it was, and you really--I think that is a threshold for us 
all. I got over that threshold by considering whether we had 
any realistic prospect of changing it, and also by considering 
the damage that it could do for the period when it lasts.
    I think logic, human nature, all tell you that this cannot 
go on forever, what you see in North Korea, but I cannot 
produce for you the kind of evidence that you would require 
that you can base your strategy on the prospect that they will 
collapse before they cause lasting damage to our security. And 
what that means is, you have to swallow hard and go deal.
    And I do not have any insight, particularly, into the 
administration, but I read the Bob Woodward book and so forth, 
and I think that is a threshold question for any President, and 
it is perfectly understandable that it is a threshold question. 
It is one you have to reason your way through.
    Ambassador Gregg. I think a coincidence contributed to what 
you speak of, Senator, and that was the issue of the Rumsfeld 
report on anti---or missile threats to the United States in 
1998, and then, I think, within 60 days, the firing of the 
North Korean Taepo Dong missile, which they claim was something 
designed to launch a satellite that would have played music 
praising Kim Jong Il. But whatever the case, it took us aback, 
because it was more sophisticated and more long range than we 
thought possible.
    And so North Korea became the poster child for missile 
defense, and I think that when the Bush administration came 
into office, that that was certainly a mindset that applied 
very strongly in certain parts of the administration to North 
Korea.
    I think the President--I have been very interested to see 
how he--how consistent his statements have been on North Korea 
since the Kelly visit. He has never wavered from saying we are 
going to find a peaceful solution to this through dialog.
    And I welcome that. I think he is realizing that some of 
these ideological wish lists run afoul of reality in the world 
and that the stakes are huge in northeast Asia. And so I think 
he is very much now on the side of a diplomatic solution. It 
just has to be worked out by the rest of the administration 
what shape that takes.
    Senator Dodd. Sooner the better. And let me say, by the 
way, I am not--it is not a question. I think there is an 
argument that can be made--in fact, a need--for us to develop a 
missile defense system. I am not suggesting that it is 
necessarily a choice between one or the other, but it sometimes 
looks simplistic as I watch the pattern here and as time goes 
by and as that clock continues to tick on this question. And it 
is--and the longer we wait in engaging this in a diplomatically 
aggressive way, it seems to me, then the greater the dangers 
are, as all of you have pointed out here, as each day goes by.
    And the notion--one of you made the point of having some 
real specialists on Asia, some real experts on Asia, involved 
in this--is going to be critically important, and I think there 
is a bit of a vacuum on that particular point, as well.
    Mr. Chairman, I thank you immensely. And I thank Senator 
Biden for his generosity.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Gentlemen, I think this is some of the best 
testimony I have heard in the long time I have sat here. You 
each sort of--I do not know whether you got together, but you 
each asked and spoke to and answered a different question that 
is on the minds of all our colleagues.
    Ash, you laid out how we got to where we are, in terms of 
what actually was negotiated, was anticipated, the context in 
which it was done, the decision process, which basically came 
down to what you just said a moment ago--if there was a way to 
change the regime, it was not going to be more catastrophic for 
the short-term, and our friends around the region short-term 
and maybe long-term, then that was an option that would warrant 
being considered. But the conclusion was that that was not the 
best option, and you chose another option, which I 
wholeheartedly agree with.
    And I should note, for those who may be listening, we are 
not talking to, you know, a uniform group of three specialists 
and experts who all come from the same political perspective 
here.
    Ambassador Gregg, I do not want to in any way damage your 
credibility, but I thought your explanation and exposition on 
what you think went wrong was brilliant, absolutely brilliant. 
I mean, who knows for certain, but I was talking to Senator 
Hagel--I think it is the single most succinct and accurate and 
most probable explanation of us never being able to read 
someone else's mind as to how a series of a chain of events and 
circumstances brought us to this point, without in any way 
making apologies for the regime in the North and being pretty 
hard-baked about it.
    And Ambassador Bosworth, you being in another 
administration, and Ambassador Gregg, if I am not mistaken, not 
that you speak for any Bush, but you had a fairly close 
relationship with the first Bush, you are a very well-known 
Republican.
    So I just want the audience to know, who may be listening, 
that this is not somehow a panel that we put together, or you 
put together, Mr. Chairman, that was decided to come at it from 
one political perspective. And I thought your explanation about 
essentially what went wrong in the South, Mr. Ambassador, 
Ambassador Bosworth, was equally as cogent.
    But it leads me to a couple of questions and a few generic 
observations. One is that I do believe that, early on, the 
biggest issue that this administration occupied itself with in 
terms of foreign policy, slash, strategic policy, slash, 
defense policy its first year, was--and I, in turn, occupied 
myself with it--was the issue of national missile defense, its 
nature, how broad it would be, how necessary it was.
    And to put it in raw political terms, if there had been a 
fundamental transformation, if there had been a revolution in 
the North and the present regime was overthrown and a 
democratic republic was put in place, there would have been no 
rationale for national missile defense based on what was being 
suggested at the moment, in terms of its urgency. So we should 
all not kid ourselves that whether or not that moved the 
administration to be empathetic or sympathetic to a crisis 
occurring, I am not suggesting that, but without North Korea, 
there is a pretty lame--pretty lame--rationale of the urgency 
for and the pitifully small but incredibly expensive national 
missile defense program that has come forward from the 
administration.
    And then, on top of that, I do not think we--I mean, I have 
been here for--well, I have been here as long as you guys. I 
have been a United States Senator for 31 years. I have dealt 
with seven Presidents. And I say ``dealt with.'' I have served 
here with seven different Presidents, probably only dealt with 
four in a real sense. And the fact of the matter is, I have 
never seen an administration as fundamentally divided as this 
administration is on our place in the world and how to deal 
with it. And we are kidding each other.
    I know you all say, and you are all diplomats, and you are 
all not going to go in and suggest that you know what is his 
thinking and the administration, how--but this is a fundamental 
divide that exists, not on Korea, but on the issue of the moral 
certitude and what response we take to that. And there is a 
legitimate case.
    And I think we all make a big mistake if we do not go back 
and read the writings of the intellectual right on this notion 
in the foreign policy establishment for the last 10 years. 
There is a consistency. This is not something--I mean, we all 
make a mistake of not reading, you know, the think-tank guys 
downtown. There is a genuine consistency to a very different 
road to be taken, a different path suggested, and has been 
being suggested, since the late 1980s.
    And we have an administration now that is divided as to 
whether or not that path is the one to take, which I will, at 
another time and place, not here, characterize in detail by 
quoting and reading the people who have been your counterparts 
on the other side of this equation who have been making a very 
sound, from their perspective, and intellectually defensible 
argument. I think they are wrong, but this is not something 
that is just a little bit of a difference on tactics within 
this administration.
    The thing that has startled me is--``startle'' is the wrong 
word--has interested me is, it tends to be a combination of the 
civilian military, the civilian defense, and the politicos in 
the White House exempting the President, because I do not think 
he has made up his mind--at least I pray to God he has not made 
up his mind yet--and, interestingly enough, the uniformed 
military and the State Department. I mean, I find this an 
unusual coalition in the way that things have broken down in 
past Democrat as well as Republican administrations.
    And so the reason I bother to suggest this is that I do not 
think it is unreasonable for anyone--anyone--in any country who 
loves us, hates us, fears us, has an incredibly warm feeling 
about us, to not acknowledge that. They wonder whether or not 
we have set upon a path of regime change, not just here, and 
not just in Iraq or--how about Iran or North Korea? There is--
we would be lying to the American people--there are people in 
this administration--and they are good people; they are bright 
people, they are honorable people--they are acting out of what 
they think is the best interest of the United States of 
America. And there are our colleagues here who think regime 
change is the only answer.
    So for us to sit down and assume that all North Koreans are 
stupid and they have not--they cannot detect that, is not to 
suggest that that is the reason they have acted the way they 
have, not suggesting they would have acted better if it did 
not--if that were not part of the division of the 
administration, but there are a lot of things that aid and abet 
in the confusion.
    My greatest worry, Ambassador Gregg, is that I do not think 
that Kim Jong Il is as much of an imbecile as he is made out to 
be, by any stretch of the imagination. Not by you, but, I mean, 
you know, the caricature of him. But I do worry that he is 
isolated. I do worry he will make the mistake that is often 
made, as we make it as well, between U.S. policy and Asian 
policy, generically, of misreading--misreading--miscalculating 
what the response of the United States may be and/or the world 
may be to his actions. I do not think he has a very keen 
antennae for that part of--that requirement of a leader. I am 
not sure he is accurately assessing what may happen.
    And the only conflict worse than one's intent--one that is 
intended is one that is unintended. And I see this as a--I was 
thinking earlier, Mr. Chairman, of being a sophomore in 
college, as a history major, listening to a professor talk 
about how when the Russian army mobilized in World War II along 
the border, it never intended that it was going to end up in a 
war, and that--and Germany responded, and how we got very 
rapidly to a point of no return very quickly that maybe history 
could have avoided, depending on the misreading of one another 
and our intentions. And that is my greatest concern with regard 
to Kim Jong Il. That is my greatest concern, misreading us 
here.
    Now, none of us can divine--at least I cannot, and you have 
all said you cannot, although you are more qualified to do it 
than we are--what the final intention--if there has been a 
final judgment made by Kim Jong Il now as to whether or not he 
has concluded his security, if you will, his stability in power 
rests upon the acquisition of more nuclear weapons, or whether 
it is still not too late to work something out. I do not know 
the answer to that question.
    And I also do not know the answer to the question of how in 
charge--is he in charge? One of you said you thought that he 
was--he had to pay, he thought, significant--he is still 
working out control--I think it was you, Mr. Ambassador--and 
that the military is part of that issue, and they are not 
particularly enamored with the prospect that there may be a 
diplomatic way to maintain their present position.
    And so this prelude here leads me to a couple of questions. 
I had the privilege of the President, without revealing it, 
confiding in me asking me what I thought went wrong with his 
meeting with Kim Dae-Jung. And I was interested, genuinely, as 
to the President's wondering why this went wrong, why things 
did not go very well in that meeting.
    Well, I think part of where we are now is that I think the 
administration, if not the President, was betting that 
President Roh was likely to lose, and they would have a very 
different South Korea to deal with, Mr. Ambassador, which is 
part of, I think, their being perplexed now as to how to 
respond.
    The one thing, Ash, you and Secretary Perry did so--I think 
the single most underestimated contribution you made, beyond 
the fact we don't want 50, 60, or 100 more, depending on the 
calculations, nuclear bombs or weapons out there, is that you 
made sure--I remember talking to you throughout this and to 
Wendy and to the Secretary--you made sure that North Korea--I 
mean, excuse me--South Korea, Japan, and us were on the same 
page. As my recollection was there was no daylight. None. No 
daylight.
    And which leads me to why I am a little perplexed about one 
aspect of your testimony, and that is that although I think you 
think that should be reestablished if you can, Secretary 
Bosworth points out that South Korea, particularly in light of 
what they need to be--and I just returned from South Korea, as 
well, with Senator Sarbanes and Senator Specter. We met with 
the outgoing leadership. We went to the DMZ. We spent time 
there. We met with the South Korean generals. And I got the 
same questions you got, Ambassador Gregg, in the North, I got 
those same questions in the South. And I share your commitment. 
I have never abroad ever criticized the President, and I will 
not do that. I think it is totally inappropriate. And my 
answers were not as succinct and as insightful as yours were, 
and as diplomatic. So I did not give many answers. I listened.
    But we are in slightly different paths, Ambassador 
Bosworth, in terms of what we view to be our--what is 
inimicable to our interest and what is most inimicable to our 
interest. And it is clear that it is going to be a little more 
difficult to put Humpty-Dumpty back together here. He has not 
fallen off the wall completely, but, boy, the cracks and 
fissures are visible of him sitting up on the wall right now.
    And so, Ash--I apologize, Mr. Secretary, for keep calling 
you Ash--Mr. Secretary, I would like to----
    Dr. Carter. That's fine.
    Senator Biden [continuing]. To ask you, if, in fact, the 
course of action which you broadly outlined and with some 
specificity as to how you think we should proceed from here--if 
that fails, either in its failure of not being initiated or 
fails in its execution--it is initiated and is not able to be 
executed--you talk about the need to have a--essentially a red 
line here--my term, not yours.
    In light of what Ambassador Bosworth said, I see no 
realistic prospect in the near-term that we can credibly lay 
out a red line, which is, ``If you do not ultimately, North 
Korea, cease and desist, with legitimate consideration being 
provided by the United States''--in a contract, you need 
consideration on both sides--``if you do not cease and desist, 
we keep the military option on the table.'' I think South Korea 
has moved so far that how in the devil do you keep that 
incredible option unless you first and fundamentally repair the 
relationship with South Korea? That's my first question.
    Dr. Carter. If I can take a crack at that, it is an 
excellent question, and it is an issue of sequencing here. I 
think they go hand in hand. In other words, we cannot repair 
our relationship with South Korea until and unless--and I think 
Steve Bosworth made this point--we show that we are on top of 
this issue. ``On top of this issue'' means we have a strategy. 
We have arrived at that strategy and are conducting that 
strategy in a process that includes them in a respectful way as 
befits the people who actually live there. And with that 
strategy, we can then go forward to the North.
    So these two things have to proceed in parallel. I do not 
think we can repair our relationship with South Korea and say, 
``Let's repair that first and then we'll go North.'' Part of 
the repair is to be indicating that we have a strategy for the 
North that includes them.
    A final comment. I think red line is the right word. Red 
line is the right word. I think North Korea needs to be made to 
understand, and we need to understand, ourselves, that going 
further than the freeze, taking those fuel rods out and putting 
them where we cannot get at them, doing irreparable harm to the 
status of the freeze----
    Senator Biden. By definition----
    Dr. Carter [continuing]. Is something the United States 
cannot live with.
    Senator Biden. Is, by definition, your definition of 
``going beyond''--and that is to begin to reprocess?
    Dr. Carter. Absolutely.
    Senator Biden. That is a red line.
    Dr. Carter. Yes.
    Senator Biden. That is a fault line, right?
    Dr. Carter. Correct.
    Senator Biden. Now, I am going to ask you a question I 
understand you may not wish to answer, because it is--I am 
going to ask it in a way that I think that most Americans would 
understand it--presumptuous of me to say that, but--
hypothetically, if the President of the United States, in his 
State of the Union Message, in which he was very somber and 
straightforward--if, in his State of the Union Message, he 
said, ``Notwithstanding the fact that I do believe an `axis of 
evil' exists, it is not my policy to change the regimes in 
those countries. It is my policy to be prepared to act if those 
evil regimes take actions inimicable to our interests,'' would 
that have changed the mindset at all, or some version of that, 
if the President were to enunciate and speak directly to it?
    I just got back from Davos. Every world--I mean, 
literally--I did not speak to every world leader who was there 
and every head of state, but I spoke to one heck of a lot. You 
guys have been there. And the phrase, as if it were equivalent 
to the Monroe Doctrine, that everyone was familiar with, 
whether it was an African Foreign Minister or the head of state 
from a European country or the Middle East or Asia, was they 
all knew the phrase ``regime change.'' They all believe, 
whether--they either--they moved from either questioning, 
wondering, and/or being certain that this administration is 
driven by the notion that is borne out of an ideological 
purity, a moral certitude, that regime change is its obligation 
and mission, that it will not do it willy nilly, it will not do 
it if the price is too high, but that is the goal.
    Now, how does that play? I mean, it is one thing--am I 
making any sense here? Can you speak to that a little bit? How 
would it change if we were able--if the President articulated 
that his policy dealt with--it is like, you know, the old 
thing, ``love the sinner, but hate the sin''--I mean, if it is 
shifted and if it is believed, what impact would that have?
    Ambassador Bosworth. Well, I sometimes think, Senator, that 
we spend too much time talking about what we will do ``if.'' 
And I think we--in the case of North Korea, for example, I 
think in our consultation with South Korea, we should publicly 
stress what we are prepared to do on what I would describe as 
``the high road,'' how we are prepared to try to put this thing 
back together.
    We should probably talk quietly and privately with South 
Korea about what we do if that does not work.
    Senator Biden. Yes.
    Ambassador Bosworth. But to the extent that we start 
talking about it publicly, we undercut the effectiveness of 
what we are trying to do on the high road.
    Senator Biden. I agree.
    Ambassador Bosworth. So, you know, I think sometimes we 
allow the rest of the world to participate, at least orally, in 
too much of our internal discussions over our role and purpose 
in the world, and it makes them very nervous.
    We are a very powerful country, and, since September 11, we 
are also a rather frightened country. And that combination 
really does upset people, because they are not very certain 
about what we are going to do under certain circumstances.
    So I think, in dealing with South Korea first and then 
North Korea, I think we ought to stress publicly what we are 
prepared to do, in a positive sense. To say explicitly that we 
are not prepared to contemplate regime change, I would rather--
having said already what we have said in the past, I would like 
to get something for that statement.
    Senator Biden. Anyone else?
    Ambassador Gregg. Your very interesting comments, Senator, 
remind me of my early days in CIA when there was a decision to 
undertake regime change by covert means, and then came 
Guatemala, Iran, and the disaster in Cuba. And it came to a 
stop. But an awful lot was lost out of that process, and we are 
still alienated from Iran. So I'm very much against it.
    I think some of the hard-line people in the administration 
have no clear awareness of the consequences of what they are 
suggesting. I think the President is coming to realize that, 
and I take great hope from that.
    Dr. Carter. Just one comment. I have been concerned, since 
the freeze began to thaw and we have been so preoccupied with 
other things and have a difficult relationship with South Korea 
and are still formulating our strategy, that North Korea would 
get the opposite of the message we should be sending. The 
message I fear they get is, ``We're out to get you, but we're 
not going to do anything about your nuclear weapons.''
    I would prefer just the opposite, which is, ``We don't have 
to be out to get you, unless you're after weapons of mass 
destruction. We can `keep on keeping on' with you, much as we 
dislike you''----
    Senator Biden. That is sort of what I meant when I----
    Dr. Carter [continuing]. ``but we cannot if you are going 
after weapons of mass destruction.'' And that is where I 
think--our willingness to make that statement really is 
conditioned on their not pursuing weapons of mass destruction.
    So I would not, also, give it unless we got back from them 
the assurances we need that they are not going forward with 
weapons of mass destruction.
    Senator Biden. One of the reason why I, like Senator Dodd, 
from a slightly different perspective, am a little skeptical 
here about--and I agree with you, Ambassador Gregg, in my 
experience with the President I think this is a work in 
progress. I think he is working his way through this. I think 
he is listening to both sides of the argument being presented 
to him. And, so far--I get in trouble with my colleagues for 
saying this on my side of the aisle--I think his instincts have 
been pretty good. I think, at the end of the day, he has made 
the right decisions, in my view. I think we waste a lot of the 
good that could have come from those decisions by what it takes 
to lead up to them, but, nonetheless, I think--so I have some 
considerable faith, more than hope, that he will choose the 
path that the three of you, and the chairman and I--I think we 
are all basically on the same page--the generic path that we 
are talking about here.
    But what I worry about is--and I hope it has changed--I 
think he--I don't--I don't think, at least at the outset, that 
he, as former Presidents who have also been Governors at the 
front end, fully appreciated that little nuances are read as 
messages to change entire messages. When he said we were going 
to reconsider and we were going to go back, we always add 
something else into the mix, like the three things you set out, 
Secretary Carter in what our objectives were, one of which was, 
you hope to get to missiles, you hope to get to destruction of 
the facilities, et cetera, but you never insisted that also 
wrapped into this same agreement would be conventional. It 
was--and when the President threw in conventional, I think a 
lot of people around the world thought, ``Well, this means he 
really does not want to proceed,'' because there is very strong 
criticism on the center right of the whole Agreed Framework to 
begin with. I mean, it was an uphill battle, once the Congress 
changed, as the Ambassador pointed out.
    So I hope when he reaches this next point, I hope, again, 
we do not get to the point where it inadvertently or 
advertently places the conditions on discussions that doom it 
to failure from the outset because it causes us to question our 
motives, or, I think, our motives to be questioned when the 
offer is made, just as I hope the Secretary of State, when he 
appears on Thursday, before the United Nations and makes his 
case, my unsolicited advice is that he go with what we have 
that is strong, and there is plenty there, and not overplay our 
weak hand, which is terrorism, al-Qaeda, and nuclear weapons. 
That may all be part of it, but I hope the devil we focus on 
what is unassailable, quite frankly. And I would hope we do the 
same thing as we get to this next point.
    But I will conclude by saying--asking you--and I think 
there is agreement, but I do not want to misunderstand--do all 
of you believe that there is no way to accurately predict--
there is no reason to believe that in the near term there will 
be a collapse in the North--that is that the leadership in 
North Korea will collapse, will implode? I mean, is there any 
reason for any of you to think that is a reasonable basis upon 
which the President should be making near-term planning?
    Ambassador Bosworth. I agree with what some of my friends 
here have said, that waiting for a collapse is not a policy. 
Now, at the same time, I would also observe that this is a 
system that is under tremendous stress, and I would be 
surprised, but not shocked, to wake up any morning and find 
there had been a very cataclysmic change in North Korea. I 
think that is always possible, but it is not a policy.
    Ambassador Gregg. I do not think there is much likelihood 
of a collapse in the near term.
    Dr. Carter. I do not know what the likelihood is, but I 
agree that you cannot base a strategy on it.
    Senator Biden. And the last question I have is, would you 
all elaborate slightly--I mean, for just a little bit, if you 
would, in the interest of your time and the chairman's--on what 
Ambassador Gregg touched on--I think he is the only one that 
touched on it--and that is, who is in charge? Give us your best 
assessment of the degree to which you think, and how much 
latitude and flexibility, Kim Jong Il has in order to--assuming 
we get to this point where there are bilateral--under whatever 
umbrella--bilateral discussions with the North.
    Ambassador Bosworth. My best analogy is perhaps the case of 
Argentina during the Falklands war, when Secretary Haig was 
engaged in shuttle diplomacy between London and Buenos Aires. 
And he observed that when he went to Buenos Aires, he had to 
consult with dozens of generals, even though it was a military 
dictatorship. When he went to London, he had to consult with 
only one person, and it was a democracy.
    So I would suspect that Kim Jong Il has to, as Don Gregg 
said, take account of the views of others. He cannot ride 
roughshod over what the military sees as its interest or a 
senior cadre in the party see as their interest. But I do not 
think he is, from all evidence--and, again, I stress we are 
doing all of this on the basis of three or four data points on 
a big screen--from all evidence, I see no conclusion that he is 
under any threat of being replaced or displaced.
    Ambassador Gregg. The Chinese have told me that he took as 
long as he did to assume full leadership in North Korea because 
he took great care to make certain that he had real control 
over the military. And his choice of Jo Myong Rok, to send to 
Washington in the fall of 2000, was an indication of that, as 
he reached down into the ranks to pull up a man whom he 
trusted.
    I think that the more we appear to threaten North Korea, 
the more threatened the North Korean army and military acts and 
the more claims they lay on Kim Jong Il. I think his ultimate 
hope is to be able to have a special economic zone, like 
Kaesung, filled with workers making widgets with which he can 
buy food for his starving people. For that to happen, he has to 
be able to disarm some of his conventional military forces, and 
those guys do not want to be disarmed if they think that, by 
disarming, that opens up an attack from us.
    So that is how I see it, that he is in charge, but he has 
to cater to the just absolutely imperative support of the 
military.
    Dr. Carter. A final thought. I agree with everything that 
has been said. I am always struck, as I think about North 
Korea, with the case of Albania. Albania was two generations 
into Stalinism when it finally collapsed--the same kind of 
xenophobic absolute control.
    North Korea is now almost a generation beyond that. No 
Stalinist regime has lasted as long as North Korea. North 
Korean students--children have, if my information is right, 4 
hours of political education a day. Their parents had it, and 
their grandparents had it. That is a phenomenon--that is a 
rigidity that I do not think humanity has experienced in a 
dictatorship before. And therefore, I do not have any doubt--I 
understand what is being said here about the need for any 
leader to enjoy the respect of those around him.
    But, in that kind of system, if Kim Jong Il gives the order 
to go this way, they will go that way, at least for a time. 
That means that if he gives the order to go cross the DMZ, they 
will go across the DMZ. It also means that if he gives the 
order to go in the direction of Deng Xiaoping or something 
else, they will go in that direction also, for a time, a 
critical time. So I do not know anybody on the North Korean 
scene who does not think that he is absolutely the audience for 
any message we send.
    Senator Biden. Well, I thank you both. Thank you for the 
time--all three of you--and, really, I cannot tell you how much 
this committee appreciates having you. I wish the three of you 
were running the policy.
    The Chairman. Well, that is a high compliment.
    Senator Biden. I have probably damned you by that comment 
but I really do. It's first-rate.
    The Chairman. Let me just conclude by--I am struck with the 
two phrases that came up frequently, particularly in the last 
panel, the ``what went wrong'' idea. This very room has been 
filled with the joint intelligence committees in the last 
Congress trying to determine what went wrong on September 11, 
what went wrong in terms of our perceptions, our policy, our 
preparedness, and our ability, really, to understand the 
changes that ought to be made. And that work continues with the 
special commission, with the intelligence committees having 
been discharged from that.
    But it brought to the fore, in another way, the work of 
Bernard Lewis, ``What Went Wrong,'' the book that he wrote, as 
to why we do not understand Islam and what happened in Islam 
throughout this period, why they have got real problems that 
they do not understand. These are really profound 
circumstances.
    And I would just submit that even given all the arguments 
that might occur in this current administration, one thing that 
went wrong for a long time was that the American people lost 
interest in foreign policy, and so did many of their leaders in 
this Congress. For many years, people were interested and 
continue to be interested in healthcare and education for the 
American people, the ups and downs of our economy and jobs 
issues, and any one of us who is an elected politician needs to 
understand that. This is what people want to talk about.
    Senator Biden. This used to be the hardest committee to get 
on, too.
    The Chairman. Well, occasionally, you may have 15 minutes 
at the end of the public forum to talk about what is going on 
in the rest of the world.
    So it is not just a question that Afghanistan fell off the 
charts, and--Turkmenistan, Uzbekistan, never were there, but 
even with countries as important as Korea and Japan and so 
forth. Many Americans lost track of what is going on out there.
    Now suddenly we have reaped some of that problem, not just 
with our leadership, but with a constituency that the President 
must appeal to, that all of us must appeal to, to understand 
why this is important and why we are not in the phase of the 
Korean war, the last Korean war, or some other situation.
    Now, it is a catch-up, but this is the purpose of the 
hearing. It is not simply for Senators, but it is for the 
American people who are interested in this. And we appreciate 
your testimony, which will have a wider audience, I think, as 
you appreciate.
    The other thing that strikes me in the regime-change idea--
I came up, of all things, in a rather obscure piece of 
legislation--I think it was obscure, because I do not remember 
much debate--but in the Congress before President Bush got 
here, or his group, the Congress said ``Regime change is our 
policy.'' Now, President Bush latched onto that in a couple of 
public statements early on, while all of the reviews are going 
on. And when asked, in a flip way, maybe he would say ``regime 
change, that's what we're about.'' Well, not necessarily.
    But the problem is one--I think the historical mention by 
Don Gregg of his work in CIA and regime change of the past and 
why that became outmoded--is very, very helpful, and that is an 
introduction today that is important for us to take a look at, 
because now it is obviously apparent in the North Korean 
situation, at least as I listen to the President, that is not 
what he has on his mind.
    But I thank the Senator for mentioning the fact that the 
President does appear to be open to ideas, and as I mentioned 
in response to Senator Dodd earlier, Senator Biden and I will 
have another chance to visit tomorrow morning at 7, albeit an 
early hour, a fairly small group on a rather fateful day in 
American history, as our Secretary of State testifies. And I 
mention, again, that the Secretary will testify there on 
Wednesday. But, nevertheless, he will be here on Thursday. That 
will be a rare privilege for the committee and, I think, the 
American people, once again, to hear him, have a chance to 
question him, as we will.
    Senator Chafee, does your reappearance signal a desire to 
question?
    Senator Chafee. I want to apologize for having some 
conflicts, but I happened to be back to hear the tail-end in 
the ninth inning.
    The Chairman. Thank you very much. We thank the witnesses. 
And the hearing is adjourned.
    [Whereupon, at 1:05 p.m., the committee adjourned, subject 
to the call of the Chair.]


</pre></body></html>
